U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




                        The Department of Justice’s 

                          International Prisoner 

                             Transfer Program 

                                      December 2011




                                       I-2012-002 

                               EXECUTIVE DIGEST 



       The Office of the Inspector General (OIG) examined whether the
Department of Justice (Department) is effectively managing the
International Prisoner Transfer Program (treaty transfer program) for
foreign national inmates. The OIG evaluated the roles of the
Department’s components involved in the treaty transfer program, the
selection of inmates to be transferred, the timeliness of the process, the
costs associated with the program, and recidivism in the United States
by inmates who were transferred to their home countries.

       The treaty transfer program began in 1977 when the United States
and Mexico entered into a bilateral treaty, primarily to return American
citizens incarcerated in Mexico to U.S. prisons, but also to return
Mexican inmates in the United States to Mexican prisons. Currently, the
United States has formed transfer agreements with 76 countries. The
benefits of the treaty transfer program include: rehabilitative potential
for the inmates by allowing them to be closer to their families (which aids
in their reintegration into society upon release), cost savings for the
institutions, and possible reduction in prison populations. Additionally,
when inmates are transferred, the home countries take custody, unlike
when foreign national inmates complete their sentences in the
United States and are returned to their home countries without
notification.

       The treaty transfer program is administered by the Department
through the Federal Bureau of Prisons (BOP), the Criminal Division,
United States Attorneys’ Offices (USAO), and the United States Marshals
Service (USMS). The BOP is responsible for explaining the treaty transfer
program to foreign national inmates, determining if a current treaty
agreement exists for interested inmates and if those inmates are eligible
for transfer, and preparing application packets for eligible inmates.1 The
Criminal Division’s Office of Enforcement Operations’ (OEO) International
Prisoner Transfer Unit (IPTU) reviews the application packets of eligible
inmates and approves or denies transfer requests based on law
enforcement concerns about the inmate, the likelihood of the inmate’s
social rehabilitation, and the likelihood that the inmate will return to the
United States. The USAOs provide IPTU with facts and
recommendations to consider when deciding whether to approve inmate

       1 According to 28 C.F.R. Ch. 5 § 527.44, the BOP is responsible for verifying
whether an inmate is eligible to participate in the treaty transfer program.


U.S. Department of Justice                                                             i
Office of the Inspector General
Evaluation and Inspections Division
transfer requests. Occasionally, USAOs may agree to include their
position on treaty transfer as part of a plea agreement prior to a
defendant’s sentencing. The USMS manages the Justice Prisoner and
Alien Transportation System (JPATS), which transports foreign national
inmates to hearings, court appearances, and detention facilities.

RESULTS OF THE OIG REVIEW

       Few foreign national inmates from treaty transfer nations are
transferred to their home countries each year. For example, in fiscal
year (FY) 2010, slightly less than 1 percent of the 40,651 foreign national
inmates from treaty nations in federal prison were transferred to their
home countries. There are several reasons for the low transfer rate, but
most significant is the transfer treaty with Mexico, which imposes
significant restrictions on the BOP and IPTU that result in few inmates
being accepted for treaty transfer consideration. Other reasons for the
low transfer rate of inmates include:

   	 the BOP does not effectively inform inmates about the treaty
      transfer program because the BOP’s insufficient translation
      services may keep some inmates from fully understanding and
      participating in the program;
   	 the BOP sometimes determines incorrectly that inmates are
      ineligible for the program, in part because its program statement is
      incomplete and incorrect;
   	 IPTU does not evaluate inmates’ suitability for transfer
      consistently, which results in disparate treatment of inmates in
      similar circumstances; and
   	 factors outside of the Department’s control, such as the voluntary
      nature of the program, other countries’ (especially Mexico’s)
      reluctance to take back all of their nationals, and the lack of
      treaties with some countries that have many nationals in the
      BOP’s inmate population.

      Overall, the BOP and IPTU, combined, rejected 97 percent of
requests from foreign national inmates because they determined the
inmates were ineligible or not suitable for transfer. Specifically, from
FY 2005 through FY 2010, the BOP rejected 67,455 of 74,733
(90 percent) transfer requests. IPTU rejected 5,071 of 74,733 (7 percent)




U.S. Department of Justice                                                 ii
Office of the Inspector General
Evaluation and Inspections Division
total requests.2 Although the majority of the adverse determinations
appear to have resulted from treaty restrictions, we believe that more
inmates could be considered for transfer.

      Additionally, although USAOs have a role in the treaty transfer
process and can state their position regarding treaty transfer in plea
agreements, we found that Assistant U.S. Attorneys (AUSA) are generally
unfamiliar with the program and do not often consider it when
negotiating plea agreements with foreign national defendants.

       The Department incurred $15.4 million in unnecessary
incarceration costs from FY 2005 through FY 2010 because of the BOP’s
and IPTU’s untimely processing of requests for inmates ultimately
transferred.3 We found the BOP took an average of 209 days to process
applications, well beyond the 60-day timeliness standard set forth in its
program statement. Similarly, IPTU took an average of 140 days to
process applications instead of processing them within 90 days, which is
IPTU management’s expectation. Although factors outside of the
Department’s control limit the number of foreign national inmates
transferred, the Department could realize savings by reducing processing
delays and could achieve potentially significant savings by increasing the
participation of eligible inmates in the treaty transfer program.

       In the following sections, we discuss in more detail the BOP’s
ineligibility determinations, the weaknesses in the BOP’s program
statement, and the BOP’s and IPTU’s limitations in determining eligibility
and suitability of inmates for treaty transfer because of restrictions
established in the treaties. We also discuss in more detail the cost
incurred by the Department for incarceration of eligible inmates, as well
as the recidivism in the United States of transferred inmates.

       2  The BOP forwarded 7,278 applications to IPTU for consideration. Of these
7,278 applications, IPTU denied 5,071 (70 percent), which represented 7 percent of the
total requests from FY 2005 through FY 2010.

       3  The OIG calculated the costs associated with delays in the processing of
requests for inmates ultimately transferred using a total average annual incarceration
cost of $25,627 per inmate in 2010. The BOP stated that to calculate the cost
associated with delays in processing transfer requests, the OIG should have used an
annual marginal cost of $9,187 per inmate, which would have resulted in $5.4 million
in delay costs. However, we used the total average cost of incarcerating an inmate for
1 year ($25,261) during the 6-year period of our review because the BOP provides the
total annual cost of incarcerating an inmate to the Department as justification for its
annual budget submission, rather than “marginal” cost. See Methodology in
Appendix VI for more information.


U.S. Department of Justice                                                            iii
Office of the Inspector General
Evaluation and Inspections Division
INFORMING INMATES AND DETERMINING TRANSFER ELIGIBILITY

       Although BOP staff told most foreign national inmates about the
treaty transfer program when they arrived at the BOP’s prisons,
75 percent of the foreign national inmates we interviewed said that they
either did not fully understand the explanation of the treaty transfer
program or had unanswered questions.4 Also, written information about
the program was not consistently available to inmates. Many of the
handbooks that each prison develops and gives to new inmates do not
include information about the program. We reviewed 65 of 116
handbooks used by BOP prisons. Of those 65 handbooks we found 28
(43 percent) did not have information regarding the treaty transfer
program.5 Although written program information for inmates has been
developed in English, French, and Spanish, it is not uniformly available –
34 of the 65 (57 percent) prisons’ handbooks we reviewed were available
only in English and Spanish. Further, limited resources are available to
translate written and verbal information about the treaty transfer
program for inmates who speak languages other than English, French, or
Spanish.

       When inmates apply for transfer to their home countries, the BOP
sometimes incorrectly rejects their requests. Overall, from FY 2005
through FY 2010, foreign national inmates made 74,733 requests to be
considered for transfer, and BOP case managers determined that 67,455,
(90 percent) of those were ineligible. The BOP told us that 81 percent of
the 67,455 requests determined to be ineligible were from Mexican
inmates who were incarcerated for immigration violations and thus were
not eligible for transfer under the terms of the treaty with Mexico. We
acknowledge that a significant portion of the 67,455 requests were from
Mexican inmates who were not eligible due to restrictive and limiting
criteria established by the treaty with Mexico. However, the data the
BOP provided could not fully support the assertion that all of the 81
percent of Mexican inmates interested in treaty transfer were
appropriately deemed ineligible. For example, we found that 1,802 of
67,455 (3 percent) of the requests rejected at least in part due to
immigration violations were not actually from Mexican citizens subject to

       4  The BOP’s policy requires staff to inform inmates who are foreign nationals
about the treaty transfer program soon after they arrive at the prisons where they will
serve their sentences.

       5 BOP prisons are not required to have handbooks. Individual prisons create
their own handbooks, and the contents vary, including whether and what information is
included about the transfer program.


U.S. Department of Justice                                                                iv
Office of the Inspector General
Evaluation and Inspections Division
those treaty restrictions. We discuss this issue in more detail in the
Results section of this report.

       Also, in a limited sample of inmates’ transfer requests rejected by
the BOP, we found BOP case managers’ determinations were incorrect in
17 percent of the cases.6 As explained further below, we found three
factors that contribute to incorrect determinations: (1) inaccurate
information in the BOP’s treaty transfer program statement,
(2) inadequate training of BOP case managers regarding how to
determine eligibility, and (3) inadequate BOP management review of case
managers’ determinations.

       We found that the treaty transfer program statement that BOP
case managers rely on to assess inmates’ transfer eligibility is incomplete
and incorrect. Specifically, (1) the list of treaty nations contained in the
program statement is incomplete; (2) the program statement indicates
that inmates with appeals in progress are always ineligible, which is
incorrect; (3) the program statement does not explain that there are
exceptions to the rule that inmates must have at least 6 months
remaining on their sentences to be eligible; and (4) information in the
program statement regarding whether inmates with committed fines are
eligible for treaty transfer is incomplete. The BOP issued an updated
program statement in August 2011, but the revised program statement
does not address all of the weaknesses we identified. In addition, any
future revisions cannot be implemented without union negotiations.

       We also found that training for BOP case managers regarding how
to determine an inmate’s eligibility for the program was inadequate. Of
the 31 case managers we interviewed, 26 percent said they did not
receive formal training on the treaty transfer program. Also, we reviewed
the training materials provided to those case managers that did receive
formal training and found they are based on the BOP’s program
statement and contain the same inaccuracies described above. In
addition, BOP management officials’ reviews of case managers’ eligibility
decisions are insufficient. Specifically, of the 18 prison management
officials we interviewed, only 2 said they verify the case managers’
determinations in cases where the inmates were found eligible, while 16
said they review those application packets only for spelling and grammar
mistakes. Further, BOP management’s review of ineligible
determinations was insufficient.

       6  We selected for analysis a sample of 52 transfer requests the BOP rejected.
Our sample selection methodology was not designed with the intent of projecting our
results to the 67,455 requests from inmates determined ineligible for treaty transfer.


U.S. Department of Justice                                                               v
Office of the Inspector General
Evaluation and Inspections Division
EVALUATING SUITABILITY FOR TRANSFER

      We found that IPTU does not evaluate inmates’ transfer
applications consistently and does not provide adequate information to
inmates about why their applications were rejected. From FY 2005
through FY 2010, IPTU processed 7,278 applications forwarded by the
BOP for transfer consideration, and it denied 5,071 (70 percent) of those
applications. IPTU denied a portion of the 5,071 applications because it
presumed that Mexico would deny these inmates due to restrictions
established by Mexico.7

       Based on interviews with OEO and IPTU officials and analysts, as
well as a review of 511 IPTU case files, we found that the way IPTU
determines whether inmates are suitable for transfer is inconsistent.
Some IPTU analysts did not use the criteria in IPTU guidelines, and when
the criteria were used, the analysts did not give the same weight to
factors used in evaluating prisoners for transfer. As a result, some
inmates’ transfer applications were denied, while applications of other
inmates in similar circumstances were approved. The IPTU Deputy Chief
recognized that IPTU analysts have different perspectives when
determining suitability for transfer and said it is the IPTU Chief’s
responsibility to mitigate the difference when reviewing the analysts’
determinations. Despite the IPTU Chief’s review, we still found
inconsistencies in IPTU’s determinations.

      IPTU does not provide enough information about the reasons for
denying transfers, resulting in inmates not fully understanding why their
applications have been denied or what they can do to qualify for transfer
in the future. We found that reasons cited in denial letters are often
vague and are generally not understood by inmates and BOP case




       7   According to OEO, at some time in the 1990s, IPTU implemented a process to
expeditiously review Mexican inmate requests for transfer. IPTU used the process to
anticipate which requests for transfer Mexico would or would not approve.
Subsequently, in a 2001 letter to IPTU, Mexico established restrictive criteria that
supplemented the criteria established in the bilateral treaty. For example, the bilateral
treaty between the United States and Mexico states that a Mexican inmate cannot be
considered for treaty transfer if the inmate has previously entered the United States
illegally and has been removed or if the inmate is a “domiciliary” of the United States.
According to the bilateral treaty with Mexico, “A ‘domiciliary’ means a person who has
been present in the territory of one of the parties for at least five years with an intent to
remain permanently therein.”


U.S. Department of Justice                                                                 vi
Office of the Inspector General
Evaluation and Inspections Division
managers.8 In interviews with inmates, only 25 percent told us they fully
understood the reasons their requests had been denied. In our case file
review, we found letters that stated “the inmate is more likely to be
approved in the future” if the inmate has “attempted to address those
reasons for denial [over] which the inmate has some control.” However,
the letters did not explain what the inmates needed to do to make
themselves better candidates for transfer, and the letters did not inform
inmates that they could write to IPTU for an additional explanation
regarding what steps they could take to improve the likelihood of a future
transfer. No formal reconsideration process exists for IPTU
determinations, so inmates must generally wait 2 years to reapply to the
program. However, we found no written basis for the 2-year wait
requirement.

Role of USAOs

      While USAOs can state their position on treaty transfer in plea
agreements, only 6 percent of the cases we reviewed had plea agreements
containing language regarding treaty transfer. Our findings were
confirmed during interviews with 17 USAO Criminal Chiefs who reported
that the AUSAs in their offices rarely or never included treaty transfer
recommendations in plea agreements. USAO Criminal Chiefs attributed
the absence of treaty transfer language in plea agreements to their
concern that inmates would not be required to serve their full sentences
and to AUSAs’ unfamiliarity with the treaty transfer program. USAO
personnel said they will refer to the United States Attorneys’ Manual if
they have questions about the treaty transfer program, but we found the
manual provides outdated guidance on the program. We also found that
AUSAs are provided little or no training on the program.

FACTORS OUTSIDE OF THE DEPARTMENT’S CONTROL THAT
LIMITED THE NUMBER OF INMATES TRANSFERRED

      Several factors limit the number of inmates that are transferred
through the treaty transfer program each year. First, because the
program is voluntary, transfers must be requested by the inmates and
approved by OEO on behalf of the United States and by the home
countries. Second, some countries, especially Mexico, which has the
most foreign national inmates in BOP custody, are reluctant to take back


       8  Law enforcement agencies may ask IPTU not to provide specific information
regarding their opposition to transfer if the inmate is involved in an ongoing
investigation.


U.S. Department of Justice                                                            vii
Office of the Inspector General
Evaluation and Inspections Division
all of their nationals.9 Third, treaty nations often are not timely in their
approval of transfers that the Department has approved, which limits the
number of inmates transferred in a given year. Finally, the United States
does not have treaties with some countries that have many nationals in
the BOP’s inmate population, such as Colombia, Cuba, and the
Dominican Republic, which represented 22 percent of all foreign national
inmates in 2010.

TIMELINESS AND ASSOCIATED COSTS

       We found that the untimely processing of inmates’ applications for
transfer resulted in unnecessary incarceration costs, but faster
processing and increased inmate participation could provide significant
cost savings in the future. Overall, inmates’ applications for treaty
transfer are expected to be processed within 160 days. BOP and IPTU
officials told us that the treaty transfer request begins on the date the
inmate signs the transfer inquiry form indicating an interest in the
program.10 After the BOP’s Central Office receives an application packet
from a prison it must then forward the packet to IPTU within 10 days.
IPTU does not have timeliness standards for approving or denying
transfer requests. However, IPTU management indicated that evaluating
a transfer request should take 3 months (90 days). We found that from
FY 2005 through FY 2010, the BOP and IPTU, combined, averaged 269
days to evaluate applications for the 1,425 inmate requests approved for
transfer, 109 days longer than the expected time of 160 days.11

Costs Associated with Delays in Processing Transfer Requests

      Delays in processing treaty transfer requests have resulted in
additional costs to incarcerate foreign nationals that were ultimately
transferred. We found that, from FY 2005 through FY 2010, the
combined cost of BOP and IPTU delays related to inmates approved for
transfer totaled about $15.4 million. Approximately $7.9 million was
attributable to the BOP’s delays in completing and reviewing application


       9 See Appendix IX for data on applications, approvals, and transferred inmates
by country.

       10  The BOP’s revised program statement specifies that the application packet
must be forwarded to the BOP’s Central Office within 60 days of the inmate’s signing of
the transfer inquiry form.

       11 From FY 2005 through FY 2010, treaty nations took 288 days, on average, to
approve the transfer of their nationals after IPTU had approved the inmates’ requests.


U.S. Department of Justice                                                          viii
Office of the Inspector General
Evaluation and Inspections Division
packets, and about $7.5 million was attributable to IPTU’s delays in
evaluating inmates’ suitability for transfer.

        To calculate the cost associated with delays in processing transfer
requests, the BOP stated that the OIG should have used an annual
marginal cost of $9,187 per inmate, which the BOP defines as the direct
care cost incurred by the BOP to house an inmate and includes the cost
of feeding, clothing, and providing medical care for an inmate. However,
the BOP reported in the Federal Register that the fee to cover the average
cost of incarceration for a single inmate was $24,922 in FY 2007,
$25,895 in FY 2008, and $25,251 in FY 2009.12 Further, in FY 2010,
the BOP used $25,627 to justify its annual budget submission to the
Department rather than marginal cost. Therefore, we calculated and
used the total average cost of incarceration ($25,261) for the 6-year
period of our review rather than the marginal cost proposed by the
BOP.13 Further, if we had used the marginal cost as the BOP proposed,
the delay costs for the 1,425 inmates actually transferred during the 6-
year period of our review would total $5.4 million, which we believe is
still substantial.

Potential Cost Savings and Reduced Recidivism in the United States

       Increasing participation in the treaty transfer program could
provide significant savings in incarceration costs. As described earlier,
the BOP and IPTU collectively rejected 75,453 (97 percent) of the 77,660
requests from foreign national inmates interested in transferring to their
home countries from FY 2005 through FY 2010. Because of the BOP’s
rate (17 percent in our sample of inmates that the BOP determined
ineligible for transfer) of erroneous ineligibility determinations, the
potential pool of interested inmates who were incorrectly kept from
applying for transfer may be large.14 Had those inmates’ applications
been forwarded to IPTU, some would likely have been determined
appropriate candidates for transfer. Moreover, as of FY 2010, there were

       12  Federal Register Annual Determination of Average Cost of Incarceration; A
Notice by the Prisons Bureau, 73 Fed. Reg. 33853 (Jun. 13, 2008); 74 Fed. Reg. 33279
(Jul. 10, 2009); 76 Fed. Reg. 6161 (Feb. 3, 2011).

       13   See Appendix VI for more detail on our methodology.

       14 We selected a sample of 52 transfer requests rejected by the BOP for analysis.
Our sample selection provided an indication of the accuracy of the BOP’s
determinations, but was limited by the data available from the BOP. Consequently,
these results should not be projected to the full population of 67,455 inmates
determined ineligible for treaty transfer.


U.S. Department of Justice                                                            ix
Office of the Inspector General
Evaluation and Inspections Division
39,481 inmates from treaty nations in BOP custody who had never
applied for transfer to their home countries, some of whom may not have
done so because they do not understand the program. If potentially
eligible inmates were better informed, more might apply, though not all
would be approved. However, if only 5 percent of those who never
previously applied did apply and were transferred to their home
countries, 1,974 inmates would be removed from the BOP’s prisons,
which we estimate could save the BOP up to $50.6 million in annual
incarceration costs.15

      Transferring more foreign national inmates to their home countries
before they complete their sentences could reduce the likelihood of their
committing further crimes in the United States. We found that of the
foreign national inmates transferred during our review period, only
3 percent later returned to the United States and were re-arrested.16 In
comparison, 73 percent of the criminal aliens released from state or local
custody were re-arrested at least once.17

CONCLUSIONS

      Although the Department’s treaty transfer program is an important
program that could help the Department reduce the BOP’s prison
population, reduce incarceration costs, and facilitate inmates’
rehabilitation into society, few inmates are transferred. While we
acknowledge that restrictions established in the treaties, specifically
those in the bilateral treaty with Mexico, limit the number of inmates the
BOP and IPTU may find eligible or suitable for transfer, we believe
improvements could be made to increase the number of inmates
determined eligible for the treaty transfer program. Specifically, the BOP
must improve its ability to effectively communicate with foreign national
inmates, continually make inmates aware of the program, and ensure it


       15 The cost savings estimate is based on an annual incarceration cost of

$25,627 per inmate in 2010. The potential incarceration savings calculation is based
on 39,481 inmates because it excludes 1,170 inmates (out of the total 40,651 treaty
nation inmates) that did participate in the treaty transfer program in FY 2010.

       16 The rate is based on arrest data for the 1,100 transferred inmates who had
records on file in the Federal Bureau of Investigation’s Interstate Identification Index, a
database of criminal justice information that includes immigration violators.

       17 U.S. Department of Justice Office of the Inspector General, Cooperation of
SCAAP Recipients in the Removal of Criminal Aliens from the United States, Audit
Report 07-07 (January 2007).


U.S. Department of Justice                                                                x
Office of the Inspector General
Evaluation and Inspections Division
accurately determines whether inmates are eligible for the program
according to treaty requirements and IPTU considerations.

       We conclude that the criteria used by IPTU analysts to determine
an inmate’s suitability for transfer are applied inconsistently. We
understand that IPTU must evaluate inmates on an individual basis.
However, we believe IPTU should consider requiring that its analysts use
its guidelines as part of their assessments of prisoners for transfer and
that each analyst weigh the criteria similarly. If IPTU does so, we believe
inmates will be evaluated as individual cases while still receiving the
same consideration as other candidates.

      We found that USAOs rarely use language regarding treaty transfer
recommendations in plea agreements and are generally unfamiliar with
the program. If treaty transfer language was included in plea
agreements, more foreign nationals might become aware of and
interested in the program.

       To reduce unnecessary incarceration costs, we conclude that the
BOP and IPTU should consider accountability measures to ensure each
case manager and analyst accurately processes application packets in a
timely manner. Merely reducing case processing to targeted time frames
for the small number of inmates currently being transferred would result
in cost savings. Moreover, increasing participation by inmates who have
never applied for transfer has the potential to provide significant savings.

      Finally, while the OIG recognizes that increasing transfers could
result in some increase in the number of prisoners who return to the
United States and re-offend, the available data shows that releasing
criminal aliens directly into the United States upon completion of their
sentences represents a far greater risk of recidivism.

RECOMMENDATIONS

       In this report, we make 14 recommendations to the BOP, Criminal
Division (IPTU), and the Executive Office for United States Attorneys to
help the Department improve its efforts to effectively manage the treaty
transfer program. For example, we recommend that the BOP and IPTU
coordinate to ensure that the BOP’s guidance accurately reflects
eligibility criteria based on treaty requirements and IPTU considerations.
To reduce erroneous determinations and ensure denials are limited to
cases where transfer is inappropriate, we recommend the BOP establish
a process for reviewing eligibility determinations made by case managers
to ensure their accuracy. In addition, to ensure delays in processing

U.S. Department of Justice                                                 xi
Office of the Inspector General
Evaluation and Inspections Division
treaty transfer requests are minimized, we recommend that the BOP and
IPTU establish reporting requirements to measure the timeliness for
processing application packets. We also recommend that the USAOs
provide AUSAs with a sample paragraph about treaty transfer that the
AUSAs may include in their plea agreements.




U.S. Department of Justice                                         xii
Office of the Inspector General
Evaluation and Inspections Division
                                     TABLE OF CONTENTS 



INTRODUCTION ....................................................................................... 1 


BACKGROUND.......................................................................................... 3 


PURPOSE, SCOPE, AND METHODOLOGY OF THE OIG REVIEW............... 10 


RESULTS OF THE REVIEW ..................................................................... 11 


CHAPTER I: INFORMING INMATES AND DETERMINING TRANSFER 

ELIGIBILITY........................................................................................... 16 


CHAPTER II: EVALUATING SUITABILITY FOR TRANSFER...................... 38 


CHAPTER III: FACTORS OUTSIDE OF THE DEPARTMENT’S CONTROL 

THAT LIMITED THE NUMBER OF INMATES TRANSFERRED ................... 52 


CHAPTER IV: TIMELINESS AND ASSOCIATED COSTS............................ 57 


CONCLUSION AND RECOMMENDATIONS ................................................ 73 


APPENDIX I: LIST OF TREATY NATIONS AND TERRITORIES AS OF 

DECEMBER 2010 ................................................................................... 79 


APPENDIX II: TREATY TRANSFER PROCESS ......................................... 80 


APPENDIX III: BOP PROGRAM STATEMENT 5140.39 – TRANSFER OF 

OFFENDERS TO OR FROM FOREIGN COUNTRIES .................................. 85 


APPENDIX IV: IPTU SUITABILITY REQUIREMENTS AND 

GUIDELINES......................................................................................... 111 


APPENDIX V: INTERNATIONAL TREATIES AND TRANSFER 

REQUIREMENTS GOVERNING TREATY TRANSFER............................... 117 


APPENDIX VI: METHODOLOGY OF THE OIG REVIEW .......................... 125 


APPENDIX VII: BOP 297 TREATY TRANSFER INQUIRY FORM.............. 132 


APPENDIX VIII: IPTU DENIAL CODES .................................................. 133 


APPENDIX IX: TOTAL APPLICATIONS, APPROVED APPLICATIONS, 

AND NUMBER OF INMATES TRANSFERRED BY COUNTRY AS OF 

SEPTEMBER 2010................................................................................ 134 



U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
APPENDIX X: BOP COST ESTIMATES .................................................. 138 


APPENDIX XI: THE FEDERAL BUREAU OF PRISONS RESPONSE .......... 140 


APPENDIX XII: OIG ANALYIS OF THE FEDERAL BUREAU OF 

PRISONS RESPONSE ............................................................................ 150 


APPENDIX XIII: THE CRIMINAL DIVISON RESPONSE........................... 165 


APPENDIX XIV: OIG ANALYIS OF THE CRIMINAL DIVISION 

RESPONSE ........................................................................................... 171 


APPENDIX XV: THE EXECUTIVE OFFICE FOR UNITED STATES 

ATTORNEYS RESPONSE ....................................................................... 181 


APPENDIX XVI: OIG ANALYIS OF THE EXECUTIVE OFFICE FOR 

UNITED STATES ATTORNEYS RESPONSE............................................. 184 





U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                                      INTRODUCTION 



       The Office of the Inspector General (OIG) examined whether the
Department of Justice (Department) is effectively managing the International
Prisoner Transfer Program (treaty transfer program) for foreign national
inmates. Specifically, we examined the roles of the Department’s components
involved in the program, the selection of inmates to be transferred, the
timeliness of the process, the costs associated with the program, and the
recidivism in the United States of foreign national inmates transferred.

      The treaty transfer program began in 1977 when the United States and
Mexico entered into the bilateral Treaty on the Execution of Penal Sentences,
primarily to return American citizens incarcerated in Mexico to U.S. prisons,
but also to return Mexican inmates in the United States to Mexican prisons.
Since then, the United States has signed 11 other bilateral treaties and 2
multilateral conventions. In all, through these treaties and conventions, the
United States has formed transfer agreements with 76 countries.18 Prisoner
transfer treaties are negotiated principally by the Department of State, and the
transfer program is administered by the Department.19

       The stated purpose of the treaty transfer program is to “relieve some of
the special hardships that fall upon offenders [foreign nationals in the
United States and American citizens abroad] incarcerated far from home, and
to facilitate the rehabilitation of these offenders.”20 Transfers can help inmates
rehabilitate by allowing them to be closer to their families and cultures and
may make it easier for them to reintegrate into society when they are
released.21

      18 See Appendix I for a list of countries and territories that have reciprocal transfer

agreements with the United States.

       19 18 U.S.C. §§ 4100 – 4115 gives the Attorney General the authority to act on behalf of

the United States in regard to inmate transfer treaties. These provisions are applicable only
when a transfer treaty is in place, and they apply to transfers of offenders to and from a foreign
country pursuant to the treaty.

       20  Office of Enforcement Operations, Criminal Division, Department of Justice,
“International Prisoner Transfer Program,” http://www.justice.gov/criminal/oeo/iptu/
(accessed August 30, 2011).

       21  For example, the bilateral treaty with Mexico states: “The United States of America
and the United Mexican States, desiring to render mutual assistance in combating crime
insofar as the effects of such crime extend beyond their borders and to provide better
administration of justice by adopting methods furthering the offender’s social rehabilitation,
have resolved to conclude a Treaty on the execution of penal sentences.”


U.S. Department of Justice                                                                      1
Office of the Inspector General
Evaluation and Inspections Division
      Other potential benefits of transferring prisoners to their home countries
include the cost savings from no longer having to imprison the transferred
inmates and a reduction of the population of overcrowded Federal Bureau of
Prisons (BOP) facilities. Also, transferring inmates to their home countries can
reduce the cost and staff time that the BOP incurs in adapting practices and
processes to those inmates’ languages, customs, cultures, and dietary needs.

       In addition, according to a 1997 report on the effectiveness of prisoner
transfer treaties, the treaties have helped relieve the diplomatic and law
enforcement tensions that may arise when one country has imprisoned a
significant number of another country’s citizens.22 Transfers also are an
alternative to traditional deportation proceedings at the completion of inmates’
sentences and have the advantage of providing the home countries with more
information on the inmates than is provided through deportation
proceedings.23

      The BOP is responsible for the custody and care of approximately
210,000 federal offenders who are housed in 116 BOP-operated facilities and in
14 privately managed or community-based facilities under contract with the
BOP.24 Of these inmates, about 1 in 4 is a foreign national (a total of
approximately 52,000). Combined, in fiscal year (FY) 2009, they cost the BOP
$1.3 billion to house.25 Most of these inmates serve their full sentences in the
BOP’s prisons, but each year, an average of 241 (less than 1 percent) inmates
are returned through the treaty transfer program to their home countries to
complete their sentences in prisons there.




        22 Report of the Secretary of State and the Attorney General on the Use and Effectiveness

of the Prisoner Transfer Treaties with the Three Countries With the Greatest Number of Nationals
Incarcerated in the United States (Mexico, Canada, and the United Kingdom), 1997.

       23 When foreign national inmates complete their sentences in U.S. prisons, they

normally are referred to the Department of Homeland Security’s Immigration and Customs
Enforcement for deportation or removal proceedings. If the former inmates are ordered
removed, they are returned without notification to their home countries.

         24   The BOP’s website, http://www.bop.gov/about/index.jsp (accessed August 30,
2011).

         25Government Accountability Office, Criminal Alien Statistics: Information on
Incarcerations, Arrests, and Costs, GAO-11-187 (March 24, 2011). According to the report, the
cost to incarcerate criminal aliens in BOP facilities increased by about 15 percent, from about
$1.1 billion in FY 2005 to about $1.3 billion in FY 2009, due to increases in both the number
of criminal aliens incarcerated and the costs to incarcerate inmates in BOP facilities.


U.S. Department of Justice                                                                   2
Office of the Inspector General
Evaluation and Inspections Division
                                       BACKGROUND 



      In this section, we first discuss the primary Department components,
other organizations, and foreign national inmates involved in treaty transfer.
We then discuss international treaties and transfer requirements governing
treaty transfer, and national and Department policies governing treaty transfer.

Primary Department Components, Other Organizations, and Foreign
National Inmates Involved in Treaty Transfer
                                                                 Application Packet Contents
      The Department’s treaty transfer program                  Transfer Inquiry Form (BP-
involves four components: the BOP, the                           S297),
Criminal Division, United States Attorneys’                     Notice Regarding International
Offices (USAO), and the United States Marshals                   Prisoner Transfer (BP-S298),
                                                                Authorization to Release
Service (USMS). In addition, the foreign
                                                                 Confidential Information (BP-
countries and their embassies’ consulates and                    S301),
foreign national inmates have a role in the                     Case Summary,
process. The following paragraphs briefly                       Pre-/Post-Sentence
describe each organization’s role in the process.                Investigation Report,
See Appendix II for a detailed explanation of the               FBI Fingerprint Card with
                                                                 current photograph of inmate,
treaty transfer process.
                                                                Current sentence computation,
                                                                Certified Judgment and
The Federal Bureau of Prisons                                    Commitment, and
                                                                Proof of citizenship.
       BOP case managers are responsible for       Source: BOP Program Statement
explaining the treaty transfer program to          5140.39. See Appendix III for the
inmates and for determining if inmates             full text.
interested in the program are eligible to apply.26
In FY 2010, there were 1,051 case managers in BOP prisons to assist
approximately 210,000 inmates in the general population, including
approximately 52,000 foreign national inmates.27 Case managers we
interviewed averaged a caseload of 154 inmates. For inmates interested in

       26 The BOP determines an inmate’s eligibility for treaty transfer based on minimum

requirements established within treaties such as length of sentence, pending appeals, and
whether the inmate is from the treaty nation.

       27   Case managers’ additional responsibilities include intake screenings; initial
classification; custody classifications (determining an inmate’s security level); program reviews
(every 90 or 180 days); sentence computation; halfway house placement; release preparation;
relocation; educational, recreational, and religious programming; resolving fines with the
courts; victim/witness notification; inmate discipline; inmate central file reviews/audits;
inmate visitation; relieving Correctional Officers; acting as a team or unit supervisor; and
conducting training.


U.S. Department of Justice                                                                   3
Office of the Inspector General
Evaluation and Inspections Division
applying for the program, case managers assemble application packets (see text
box above). Case managers send the application packets to the BOP’s Central
Office. The BOP’s Central Office then forwards the application packets to the
Criminal Division’s International Prisoner Transfer Unit (IPTU). If the Criminal
Division approves an inmate for transfer, the BOP helps coordinate the transfer
and transports the inmate to a departure institution, where an approved
inmate is transferred for return to his or her country of citizenship.28

The Criminal Division

      The Criminal Division’s Office of Enforcement Operations (OEO)
determines the suitability of inmates for transfer based on factors such as law
enforcement concerns about the inmates, the likelihood of the inmates’ social
rehabilitation, and the likelihood the inmates will return to the United States.29
Within OEO, the International Prisoner Transfer Unit reviews the application
packets and chooses to approve or deny the inmates’ requests for transfer after
considering those factors above. Additionally, IPTU responds to inquiries from
inmates or from inmates’ representatives, such as their attorneys or family
members.30 IPTU also communicates with, meets, and trains officials from
countries having prisoner transfer treaties with the United States. In addition,
IPTU coordinates consent verification hearings at which a U.S. Magistrate
Judge determines whether an inmate understands the effect of the transfer and
confirms that the inmate consents to transfer. IPTU then helps coordinate the
transfer of the inmates to foreign authorities. During our fieldwork, IPTU had
13 full-time employees, including a Chief, Deputy Chief, 5 staff attorneys,
1 program analyst, 4 paralegal specialists, and 1 secretary.31 Unpaid

       28 According to 28 C.F.R. § 527.41, “a departure institution is a BOP institution to
which an eligible inmate is finally transferred for return to his or her country of citizenship.”
The BOP uses an inmate’s country of citizenship to determine inmate eligibility. However, both
IPTU and the treaties specify that the inmate’s country of nationality determines their
appropriateness for transfer. This information is only available from the treaty nations.

       29   See Appendix IV for more information on factors used for determining suitability.

       30 IPTU requires the inmate to sign a Privacy Act waiver before IPTU communicates with

representatives, family, or friends.

       31   From FY 2005 through FY 2010, IPTU had nine staff members reviewing application
packets. These staff members also had additional responsibilities such as reviewing state
cases for treaty transfer; responding to inquiries about transfers from the inmate and from the
inmate’s attorney, friends, and family members; communicating with, meeting, and training
officials from countries having inmate transfer relationships with the United States; and
coordinating the transfer of the inmates to foreign authorities. In addition, some staff are
responsible for handling fewer cases than others because of the volume of other work that they
are assigned. For example, three staff members have a caseload that is half of the other
                                                                                          (Cont’d.)
U.S. Department of Justice                                                                      4
Office of the Inspector General
Evaluation and Inspections Division
undergraduate and law school interns also rotate through the office on
temporary assignments of 10 to 12 weeks and, under the supervision of IPTU
attorneys, assist with reviewing and processing transfer requests. In addition,
there are usually one to three part-time students who assist with
administrative matters.

The United States Attorneys’ Offices

       The USAOs are responsible for providing to IPTU facts and
recommendations to consider in deciding whether to approve or deny an
inmate’s request to be transferred.32 When determining the suitability of an
inmate, IPTU seeks information from the prosecuting USAO, including whether
the inmate has any pending appeals or collateral attacks on the inmate’s
conviction or sentence.33 USAOs may support, oppose, or take no position
regarding an inmate’s transfer request when responding to IPTU. A USAO can
submit additional comments, documentation, or information to support its
views on a requested transfer. Assistant U.S. Attorneys (AUSA) have the option
to attend consent verification hearings.

       USAOs may also include a recommendation regarding treaty transfer as
part of a plea agreement prior to a defendant’s sentencing. However, a USAO
cannot guarantee that IPTU will approve the inmate’s transfer in return for a
guilty plea. According to the United States Attorneys’ Manual (USAM), a plea
agreement should state clearly that the USAO does not speak for the
Department when it supports or does not oppose an inmate transfer.

The United States Marshals Service

      The USMS manages the Justice Prisoner and Alien Transportation
System (JPATS), which transports sentenced inmates in BOP custody to
hearings, court appearances, and detention facilities. On average, JPATS
completes over 350,000 inmate or alien movements a year through a network

analysts due to these other responsibilities. In addition, one analyst reviews only cases of
Americans incarcerated in foreign countries requesting transfer to the United States. OEO
reported that as of November 9, 2011, IPTU had 12 full-time employees, including 4 staff
attorneys, with 2 additional attorneys as supervisors, 1 secretary, 1 program analyst, and 4
paralegals.

       32  Section 736 of the Criminal Resource Manual states that the USAOs must provide
any relevant facts and recommendations that are requested by IPTU no later than 3 weeks from
the date the facsimile transfer request was sent from IPTU.

       33  “Collateral attack” is a broad term used to refer to a motion, other than a direct
appeal, filed by a prisoner seeking to vacate his conviction or sentence.


U.S. Department of Justice                                                                      5
Office of the Inspector General
Evaluation and Inspections Division
of aircraft, cars, vans, and buses. Ground transportation is usually provided
by the BOP, the Department of Homeland Security’s Immigration and Customs
Enforcement (ICE), and the USMS. Although JPATS transports inmates
approved for treaty transfer to consent verification hearings and departure
institutions, it does not transport them to their home countries. Foreign
authorities receive inmates approved for transfer at BOP departure institutions
and transport them.

Foreign Countries and Their Embassies’ Consulates

      Embassies’ consulates and the foreign government entity identified as
the central authority for prisoner transfer matters can assist inmates with the
transfer program. IPTU notifies those authorities when it determines that
transfers are or are not appropriate. Foreign authorities then make a decision
whether to approve or deny transfer. The foreign authorities may also arrange
for consular officials to interview the inmates who have applied to the program.
Foreign authorities provide escorts to accompany inmates approved for transfer
from BOP departure institutions to the inmates’ home countries.

Foreign National Inmates in BOP Custody

      From FY 2005 through FY 2010, the BOP’s inmate population ranged
from 175,884 to 195,649. During that time, foreign national inmates from
treaty nations represented, on average, 19 percent of the BOP’s total inmate
population. Table 1 presents, by year, the total number of BOP inmates, the
number of U.S. citizen inmates, the number of foreign national inmates from
treaty nations, and the number of foreign national inmates from non-treaty
countries.




U.S. Department of Justice                                                  6
Office of the Inspector General
Evaluation and Inspections Division
           Table 1: The BOP’s Foreign National Inmate Population
                      from FY 2005 through FY 2010
                                                      Foreign          Foreign
                                                      National         National
                                         U.S.         Inmates        Inmates from
             Fiscal       BOP           Citizen     from Treaty       Non-Treaty
              Year      Inmates*       Inmates        Nations          Nations
             2010        195,649       143,209         40,651           11,789
              2009       194,393       141,262         38,385           14,746
              2008       188,584       137,232         36,413           14,939
              2007       187,882       136,550         35,769           15,563
              2006       179,527       131,129         32,686           15,712
              2005       175,884       124,534         32,912           17,438
          * The table does not reflect missing citizenship data. 

          Source: BOP. 


       As of May 2011, there were 26,281 foreign national inmates from treaty
nations that had not applied to the treaty transfer program. The most common
offenses among those inmates were drugs (51.7 percent), immigration
(39.9 percent), and weapons or explosives (2.7 percent) offenses. The other
5.7 percent included fraud, bribery, and extortion; burglary and larceny;
homicide and aggravated assault; sex offenses; robbery; court and corrections
offenses; continuing criminal enterprise; counterfeiting and embezzlement; and
national security offenses. The most common security level among those
inmates was low (71.6 percent), followed by medium (23.5 percent), high
(4.9 percent), and minimum (0.1 percent). The most common country of
citizenship was Mexico (85.4 percent), followed by Honduras (3.8 percent),
El Salvador (3.6 percent), Guatemala (1.9 percent), and Canada (1.0 percent).
The remaining 4.3 percent were citizens of 166 other countries.

       The offense category, security level, and country of citizenship of those
currently incarcerated by the BOP appear similar to those of inmates ultimately
transferred. Further, for those inmates that chose to apply for treaty transfer,
there is little difference between the offenses for those inmates approved and
transferred, and those inmates denied transfer by IPTU. For example, the most
common type of offense for approved and transferred inmates was drug
offenses (92 percent), followed by burglary or larceny (2 percent); fraud,
bribery, and extortion (2 percent); and weapons or explosives offenses
(1 percent). Sex offenses, immigration, robbery, counterfeit or embezzlement,
continuing criminal enterprises, and court or correction offenses each made up
less than 1 percent of the offenses for those inmates transferred. For those
inmates whose requests were denied, drug offenses were also the most
common (84 percent), followed by fraud, bribery, and extortion (3 percent);

U.S. Department of Justice                                                          7
Office of the Inspector General
Evaluation and Inspections Division
immigration (3 percent); weapons or explosives (3 percent); burglary or larceny
(3 percent); and sex offenses (1 percent). Homicide, continuing criminal
enterprise, robbery, counterfeiting or embezzlement, and court or correctional
offenses (such as possessing contraband in prison) each represented less than
1 percent of those inmates denied transfer.

      In addition, there is little difference between the security level for those
inmates approved and transferred, and those inmates denied transfer by IPTU.
The most common security level for transferred inmates was low (97 percent),
followed by medium (2.6 percent). The remaining 0.4 percent were minimum
or high security inmates. For inmates whose requests were denied, the most
common security level was also low (87 percent), followed by medium
(10 percent). High security inmates represented 2 percent of the inmates
denied, and minimum security inmates represented less than 1 percent of
inmates denied transfer.

International Treaties, U.S. Laws and Regulations, and Department
Policies Governing Treaty Transfer

      International prisoner transfers were established through treaties that
govern the legal requirements for transferring foreign nationals to their home
countries to serve the remainder of their sentences. In 1977, the Treaty on
the Execution of Penal Sentences Between the United States and Mexico
provided that any Mexican citizen jailed in the United States could be sent,
with his consent, back to Mexico to serve the remainder of his sentence; and
any United States citizen jailed in Mexico could, with his consent, return to
the United States to serve the remainder of his sentence. In 1983, the
United States signed the multilateral Council of Europe Convention on the
Transfer of Sentenced Persons (the COE Convention). The COE Convention
took effect in 1985, allowing the United States and 63 countries to transfer
offenders to and from their respective countries and territories.34 In addition,
in May 2001, Inter-American Convention on Serving Criminal Sentences Abroad
(the OAS Convention) took effect, allowing the United States and 16 other
countries to transfer offenders to and from their countries. Also, OAS

       34  COE Convention countries include: Albania, Andorra, Armenia, Austria, Azerbaijan,
Belgium, Bosnia and Herzegovina, Bulgaria, Croatia, Cyprus, Czech Republic, Denmark,
Estonia, Finland, France, Georgia, Germany, Greece, Hungary, Iceland, Ireland, Italy, Latvia,
Liechtenstein, Lithuania, Luxembourg, Malta, Moldova, Montenegro, Netherlands, Norway,
Poland, Portugal, Romania, Russia, San Marino, Serbia, Slovakia, Slovenia, Spain, Sweden,
Switzerland, the former Yugoslav Republic of Macedonia, Turkey, Ukraine, United Kingdom,
Australia, Bahamas, Bolivia, Canada, Chile, Costa Rica, Ecuador, Honduras, Israel, Japan,
South Korea, Mauritius, Mexico, Panama, Tonga, Trinidad and Tobago, and Venezuela.
Source: http://conventions.coe.int/Treaty/Commun/ChercheSig.asp?NT=112&CM=
8&DF=&CL=ENG (accessed November 16, 2011).


U.S. Department of Justice                                                               8
Office of the Inspector General
Evaluation and Inspections Division
Convention countries may have a transfer relationship with the United States
either through the COE Convention or a bilateral transfer treaty.35

      Congress established the treaty transfer program in Pub. L. No. 95-144,
and 18 U.S.C. § 4102 gives the Attorney General the authority to transfer
offenders, but eligibility for transfer may also be affected by a habeas petition
under 28 U.S.C. § 2255. Other provisions in the Code of Federal Regulations
at 28 C.F.R. Chapter 1 and Chapter 5 establish the BOP’s role regarding
foreign national inmates and prescribe the BOP’s and Criminal Division’s
responsibilities.

       The BOP and IPTU have policy and guidelines on the treaty transfer
program’s procedures. For example, a December 2009 program statement
governs the BOP’s administration of the treaty transfer program, including
informing inmates about the program and determining an inmate’s eligibility
for treaty transfer. IPTU’s 2003 guidelines set forth a number of factors that
are considered in determining the suitability of prisoners for transfer, such as
the likelihood of social rehabilitation, law enforcement concerns, and the
likelihood that the inmate will return to the United States. The Department
has also issued guidance for the treaty transfer process in the form of a 2002
Criminal Division memorandum, which established a 3-week time frame for
AUSAs to respond to IPTU requests for information, and the USAM, which
contains general policies and USAO procedures relevant to the treaty transfer
program.

       See Appendix V for more information about international treaties,
U.S. laws and regulations, and Department policies governing treaty transfer.




       35 OAS Convention countries include: Belize, Brazil, Canada, Czech Republic, Chile,
Costa Rica, Ecuador, El Salvador, Guatemala, Kingdom of Saudi Arabia, Mexico, Nicaragua,
Panama, Paraguay, Uruguay and Venezuela. Source: http://www.oas.org/juridico/english/
sigs/a-57.html (accessed November 16, 2011).


U.S. Department of Justice                                                              9
Office of the Inspector General
Evaluation and Inspections Division
    PURPOSE, SCOPE, AND METHODOLOGY OF THE OIG REVIEW 



Purpose

      Our review examined whether the Department is effectively
managing the International Prisoner Transfer Program for foreign
national inmates. Specifically, we examined:

      the BOP’s explanation of the program to foreign national inmates,
      BOP and IPTU guidance used to determine eligibility and
       suitability for the program,
      the timeliness of the processing of transfer requests by the BOP
       and IPTU,
      the transport of approved inmates throughout the process by the
       USMS, 

      the costs associated with the program, and 

      the recidivism in the United States of transferred inmates. 


Scope and Methodology

       Our review encompassed the Department’s authority and
processes to transfer foreign national offenders in compliance with the
conditions of the treaties between the United States and the inmates’
countries of citizenship from FY 2005 through FY 2010. We examined
the roles of the BOP, Criminal Division, the USAOs, and the USMS in the
international prisoner transfer process. We also examined the role of the
other nations’ embassies or ministries of justice in the transfer process.
Our review did not address the transfer of U.S. citizens imprisoned in
other countries back to the United States for incarceration in BOP
institutions or the transfer of foreign nationals incarcerated in state
prisons in the United States.36

      Our fieldwork, which was conducted from July 2010 through April
2011, included interviews, data collection and analyses, and document
reviews. A detailed description of the methodology of our review is in
Appendix VI.


       36 From 2005 through 2010, 435 U.S. citizen prisoners were transferred from
other countries to the United States.


U.S. Department of Justice                                                           10
Office of the Inspector General
Evaluation and Inspections Division
                          RESULTS OF THE REVIEW 



       Few foreign national inmates from treaty transfer
       nations are approved for transfer.      From FY 2005
       through FY 2010, the BOP and IPTU made
       determinations regarding eligibility and suitability in
       response to 74,733 requests for transfer by foreign
       national inmates from treaty nations.        Of those
       determinations, 97 percent were found not appropriate
       for transfer by either the BOP or IPTU.


       Few foreign national inmates from treaty transfer nations are
approved for transfer. From FY 2005 through FY 2010, the BOP
determined that inmates requesting transfer to their home countries
were ineligible for transfer in 67,455 of 74,733 cases (90 percent) and
determined that 7,278 requests (10 percent) were eligible for treaty
transfer consideration. The BOP has stated that 81 percent of Mexican
inmates interested in treaty transfer were not eligible because they were
incarcerated for immigration violations. The bilateral treaty between the
United States and Mexico states that Mexican inmates are not eligible for
treaty transfer if they are incarcerated for immigration offenses. We
acknowledge that a majority of the 81 percent were correctly determined
to be ineligible because of restrictive and limiting criteria established by
treaty. However, the data the BOP provided could not fully support the
assertion that all of the 81 percent of Mexican inmates interested in
treaty transfer were appropriately deemed ineligible. We discuss this in
more detail below. Figure 1 shows the number of requests for transfer
determined eligible and ineligible by the BOP from FY 2005 through
FY 2010.




U.S. Department of Justice                                               11
Office of the Inspector General
Evaluation and Inspections Division
Figure 1: The Number of Requests for Transfer Determined Eligible
       and Ineligible by the BOP, FY 2005 through FY 2010

                                                                          Eligibles
                                                                          Ineligibles
                    16,000
                                                                                 1,170
                    14,000     1,098                        1,329
                                                                      1,045
                    12,000               1,290    1,346
                    10,000
     Applications




                     8,000     12,127
                     6,000               9,695
                                                            11,738   11,079
                     4,000                         9,966                        12,850
                     2,000
                        0
                                2005     2006      2007      2008     2009       2010
                             Number of Foreign National Inmate Requests for Transfer
                                                   Each Year
                             13,225     10,985   11,312    13,067 12,124       14,020

           Source: BOP.



      The BOP forwarded to IPTU the 7,278 applications that it
determined eligible for transfer consideration. IPTU considered those
applications and denied 5,071 (70 percent). Similar to the BOP, a
portion of IPTU’s suitability determinations are the result of criteria
established by the treaties. We also discuss this in more detail below.
Figure 2 shows the number of total applications forwarded to IPTU by the
BOP from FY 2005 through FY 2010, and the number of those
applications that were approved and denied by IPTU. As Figure 2 shows,
there were 2,207 total approvals (30 percent) and 5,071 total denials
(70 percent) during that period.




U.S. Department of Justice                                                               12
Office of the Inspector General
Evaluation and Inspections Division
    Figure 2: Number of Applications Approved and Denied by the 

            Department (IPTU), FY 2005 through FY 2010



                      1600

                      1400                   1,346   1,329
                                     1,290
                                                                     1,170
                      1200   1,098
                                      379    423      408    1,045
                      1000                                            299
       Applications




                              386                            312
                       800

                       600
                                      911    923      921             871
                       400                                   733
                              712
                       200

                        0
                              2005   2006     2007    2008   2009    2010
                                        Approved   Denied

       Source: IPTU.

       After inmates are approved for transfer in a given year, not all are
actually transferred during that same year because of factors beyond the
Department’s control, such as the time it takes for home countries to
make decisions about possible transfers, for scheduling verification
hearings, and for completing the actual transfers with foreign country
officials. As shown in Figure 3, during FY 2010, IPTU approved 299
foreign national inmates’ requests for transfer, while 305 were
transferred to their home countries, some of whom were approved for
transfer in prior years. The 305 transferred represented less than
1 percent (0.8 percent) of the 40,651 foreign national offenders from
treaty nations in BOP custody in FY 2010. The number of inmates
ultimately transferred is low not only because there are factors outside of
the Department’s control that limit the number of inmates transferred,
but also because the BOP sometimes incorrectly determines an inmate’s
eligibility and IPTU inconsistently applies its suitability guidelines.




U.S. Department of Justice                                                   13
Office of the Inspector General
Evaluation and Inspections Division
               Figure 3: The Number of Transferred Applicants, 

                           FY 2005 through 2010 


  450                                 423
                                                  408                     Approved
  400         386        379                                              Transferred

  350
                                                              312
                                                                             299 305
  300                                       284
                                                        260         268
  250
                               209
  200

  150
                    99
  100

   50

     0
               2005       2006       2007        2008        2009             2010
                           Number of Foreign National inmates
              32,912     32,686       35,769      36,413      38,385         40,651


         Sources: BOP and IPTU.

        Overall, the BOP and IPTU, combined, rejected 97 percent of
requests from foreign national inmates because they determined the
inmates were ineligible or not suitable for transfer. Specifically, from
FY 2005 through FY 2010, the BOP rejected 67,455 of 74,733
(90 percent) transfer requests. IPTU rejected 5,071 of 74,733 (7 percent)
total requests.37 Although the majority of the determinations appear to
be appropriate, we believe a larger percentage of transfer requests could
be approved.

       In the following sections, we further discuss why so few foreign
national inmates are ultimately transferred to their home countries.
Chapter I of this report describes how the BOP informs inmates about
the treaty transfer program and determines their eligibility. Chapter II

         37IPTU only considered the 7,278 applications forwarded by the BOP. Of these
7,278 applications, IPTU denied 5,071 (70 percent), which represented 7 percent of the
total requests from FY 2005 through FY 2010.


U.S. Department of Justice                                                              14
Office of the Inspector General
Evaluation and Inspections Division
describes IPTU’s evaluation of inmates’ suitability for treaty transfer, as
well as USAOs’ involvement in the treaty transfer program. Chapter III
describes factors outside of the Department’s control that limit the
number of inmates transferred. Chapter IV discusses the timeliness of
the BOP’s and IPTU’s processing of treaty transfer requests and the costs
associated with delays incurred by the BOP and IPTU, as well as
recidivism in the United States by transferred inmates.




U.S. Department of Justice                                              15
Office of the Inspector General
Evaluation and Inspections Division
 CHAPTER I: INFORMING INMATES AND DETERMINING TRANSFER 

                        ELIGIBILITY 



       Although it appears that the BOP is informing foreign
       national inmates about the treaty transfer program,
       language barriers, especially for inmates who do not
       speak English, French, or Spanish, may be keeping some
       inmates from fully understanding and participating in
       the program. Also, the BOP does not routinely inform
       inmates whose transfer requests have been previously
       denied that they are eligible to reapply for treaty
       transfer, and it does not remind inmates who previously
       indicated they were not interested in the program that
       they may remain eligible for it. Finally, we found that
       BOP case managers are not correctly determining inmate
       eligibility for the program in many instances, in part
       because the BOP program statement they rely on for
       guidance is incomplete and incorrect.


Although it appears that the BOP is informing foreign national
inmates about the treaty transfer program, most inmates do not
fully understand the program.

       According to 28 C.F.R. § 527.43, “the BOP case manager of an
inmate who is a citizen of a treaty nation shall inform the inmate of the
treaty [program] and provide the inmate with an opportunity to inquire
about transfer to the country of citizenship.” In addition, BOP policy
requires staff to inform inmates who are foreign nationals about the
treaty transfer program soon after they arrive at the prisons where they
will serve their sentences.38 As discussed below, we found that in most
instances inmates were informed of the program, but many did not fully
understand it.

In most instances, the BOP is informing the inmates about the program.

      The BOP’s program statement states that inmates are to be
informed about the program during institution orientation and that
“ordinarily” institution orientation will be completed within 4 weeks of an

       38 BOP Program Statement 5140.39, Transfer of Offenders to or from Foreign
Countries.


U.S. Department of Justice                                                          16
Office of the Inspector General
Evaluation and Inspections Division
inmate’s arrival at a prison.39 The Assistant Administrator, Correctional
Programs Division, told us that BOP staff also inform inmates about the
program at their initial classification sessions that establish the work
and other activities the inmates will engage in at the prison. According
to BOP Program Statement 5322.12, Inmate Classification and Program
Review, the initial classification meeting must occur within 28 calendar
days of an inmate’s arrival. The meeting includes the inmate’s case
manager, who is responsible for preparing the transfer application if the
inmate wishes to apply to the treaty transfer program.

       During our site visits, we asked BOP staff, including associate
wardens, unit managers, case management coordinators, and case
managers, when they informed inmates of the transfer program. All 49
staff members we interviewed said they informed the inmates of the
treaty transfer program during orientation meetings or during the initial
classification session. We also asked 30 foreign national inmates when a
BOP representative first discussed the program with them.40 Twenty-
eight inmates told us they either were already aware of the treaty transfer
program when they arrived at the institution and immediately expressed
their interest or that they were informed of the program during the
orientation meetings. In addition, 20 of the 28 said they were first told
about the program at initial classification meetings or program reviews.41
The two remaining inmates told us that BOP staff had never informed
them about the program.

      We also found that some, but not all, of the handbooks that
prisons give to newly arrived inmates include information about the
treaty transfer program.42 We reviewed 65 of 116 handbooks used by

        39 BOP Program Statement 5290.14, Admission and Orientation Program, does

not specify that the treaty transfer program is to be discussed at admission and
orientation (A&O). However, the program statement does require that “the A&O
program will include, at a minimum, all areas identified on the Institution (B-S518) and
Unit (BP-S597) Checklists.” BP-S518, Institution Admission and Orientation Checklist,
includes “Treaty Transfer of Offenders to Foreign Countries” as one of the programs that
is required to be discussed at A&O meetings.

       40We interviewed 36 inmates, but 6 of them did not respond to our question
about when they first learned of the transfer program.

       41  BOP Program Statement 5322.12, Inmate Classification and Program Review,
states that during program reviews the inmate’s progress in recommended programs is
reviewed and new programs are recommended based upon skills the inmate has gained
during incarceration.

       42   BOP prisons are not required to have handbooks.


U.S. Department of Justice                                                           17
Office of the Inspector General
Evaluation and Inspections Division
BOP institutions and found 37 (57 percent) had information regarding
treaty transfer, while 28 (43 percent) did not. The handbooks that
included information about the transfer program varied in the amount of
information provided. For example, some handbooks had specific
information regarding eligibility requirements, while others had only a
general statement to the effect that inmates who were foreign nationals
might be eligible to transfer to their home countries to serve the
remainder of their sentences.

      We also found that 34 of 65 (52 percent) of the prison handbooks
we reviewed were available in Spanish, but none was available in other
languages. Overall, we found that the BOP is generally informing
inmates about the treaty transfer program, but the information is
provided in various ways and in varying levels of detail, leaving some
inmates not fully informed about the program. We believe that prison
handbooks can serve as another means to fully explain the treaty
transfer program to interested inmates.

Language barriers may keep inmates from understanding the program.

       We found that even when inmates are provided information about
the treaty transfer program, they often do not fully understand it because
of language barriers. Case managers told us that the BOP has trouble
addressing language barriers that exist for inmates, especially those who
do not speak English, French, or Spanish, the only languages for which
the BOP has translated some of its documents for the treaty transfer
program. As one unit manager put it, “BOP has a translation problem.”
Many of the inmates we interviewed told us they did not fully understand
the program. Of the 36 foreign national inmates we interviewed, 27
(75 percent) said that they either did not fully understand the treaty
transfer program after they were informed about it or that they had
unanswered questions about the program after talking to their case
managers. For example, one inmate told us that he prefers to
communicate with a BOP correctional counselor instead of his case
manager because the counselor speaks Spanish. However, counselors
are not responsible for explaining the treaty transfer program to inmates
and may not be knowledgeable of the program. Another inmate who
spoke Spanish told us that his case manager discussed the treaty
transfer program with him in English and he did not understand. He
further stated that nothing was explained to him in Spanish. Overall,
the majority of the inmates we interviewed were citizens of Spanish-
speaking countries.



U.S. Department of Justice                                             18
Office of the Inspector General
Evaluation and Inspections Division
       We examined the documents the BOP provides to inmates when
they arrive at an institution and found they often are not provided in a
language spoken by the inmate. To request a transfer, an inmate must
sign a transfer inquiry form (BP-S297) that states that the inmate
understands key aspects of the program (see the text box and
Appendix VII). The BOP
                                              Transfer Inquiry Form
has French and Spanish
versions of the form as well         By signing the transfer inquiry form,
                                inmates:
as an English version.
However, we found that the      	 indicate an interest in being transferred to
BOP does not consistently          continue serving the sentences imposed by
                                   the United States to their countries of
provide the transfer inquiry
                                   citizenship,
form to inmates in their
preferred languages. Of the 	 understand that an inquiry begins to obtain
                                   data before the actual request for transfer
31 case managers we                and is not binding upon either the
interviewed during our site        government or the inmates,
visits, only 10 (31 percent)
                                	 understand that they will need to notify their
knew that the form was             consulates in order for their home countries
available in French and            to verify citizenship and that failure to make
Spanish. Nine inmates also         contact may significantly delay or prevent a
told us that they would            favorable decision on their transfer requests,
have preferred the transfer     	 understand that upon approval for transfer,
inquiry form in a language         they will be required to attend verification
other than English. One of         hearings before a U.S. Magistrate Judge,
these inmates stated that       	 indicate the language preference for their
the Spanish form was not           verification hearings and understand an
available, so he had to sign       interpreter will be available, if necessary,
the English form and only          and
understood four lines of it.    	 understand that they are not eligible to
                                      apply for transfers if they have an appeal or
                                      collateral attack pending, but that they may
      According to the
                                      apply when the appeal or collateral attack
BOP’s Senior Deputy                   process has been concluded.
Assistant Director,
                               Source: BOP transfer inquiry form (BP-S297).
Correctional Programs
Division, less than
2 percent of the BOP’s population speaks a language other than English,
French, or Spanish, meaning a very small number of the BOP’s inmates
may have a language barrier. We believe that providing program
information in three languages is helpful for most of the BOP’s foreign
national inmates, but it does not remove the language barrier for all of
the inmates. In the years from 2005 through 2010, the BOP had
between 747 and 929 inmates from treaty nations that were not



U.S. Department of Justice                                                            19
Office of the Inspector General
Evaluation and Inspections Division
English-, French-, or Spanish-speaking nations.43 Those inmates may
not have been able to understand the forms or other program
information available from the BOP in any of the languages in which they
are available.

      The BOP’s program statement states that “any inmate not fluent in
English shall be advised of the availability of translated documents.”
Further, the warden of each prison is responsible for establishing “a
readily available source (or sources)” for obtaining translations when
needed.44 These sources can include community volunteers, local
colleges, and staff. According to the Senior Program Specialist who
manages the transfer program, BOP staff may ask other staff members
who speak an inmate’s language to explain the documents or may ask for
translations from sources outside of the prison, such as consulates. At
the prisons we visited, we found translation assistance was limited, and
the sources varied (see Table 2).




         43 BOP data did not allow for inmate-specific analysis so we could not determine

how many inmates are not fluent in English or what languages inmates speak. The
following countries and territories do not have English, Spanish, or French as their
official language but had inmates from treaty nations and territories represented in BOP
custody from FY 2005 through FY 2010: Albania, Armenia, Aruba, Azerbaijan, Bosnia
and Herzegovina, Brazil, Bulgaria, Croatia, Czech Republic, Denmark, Finland,
Germany, Greece, Hungary, Iceland, Israel, Italy, Japan, South Korea, Latvia,
Lithuania, Macedonia, Moldova, Montenegro, Netherlands, Norway, Poland, Portugal,
Romania, Russia, Serbia, Sweden, Thailand, Tonga, Turkey, and Ukraine.

        BOP Program Statement 1505.03, Language Translation Used in Official
       44

Documents. This program statement covers written translation only.


U.S. Department of Justice                                                           20
Office of the Inspector General
Evaluation and Inspections Division
        Table 2: Examples of Translation Services Prisons Used
   Prison and Countries of       Languages Spoken
    Origin for Most of the       by Staff Other than        Other Available Translation
  Foreign National Inmates             English              Sources Used by the Prison
Federal Correctional            Mandarin, Italian,         A local university
Institution Allenwood:          German, and Spanish        Babel Fish (a free Internet-
Canada, Mexico, Netherlands,                                based translation service)
United Kingdom, and                                        Other inmates if the inmate
Venezuela                                                   trusted them or no staff was
                                                            available
                                                           Telephone translation service
                                                            staff can call while the inmate
                                                            listens
Correctional Institution        Chinese, Japanese,         Telephone translation service
McRae:                          and Spanish                 staff can call while the inmate
Bahamas, Venezuela,                                         listens
Canada, Mexico, Honduras,                                  Other inmates if the
Ecuador, and Netherlands                                    conversations are not
                                                            sensitive
                                                           Online translation services
Federal Correctional            Spanish                    Telephone translation service
Institution Safford:                                        staff can call while the inmate
Mexico, Canada, Tonga,                                      listens
South Korea, and Peru                                      Other inmates known to the
                                                            inmate
Federal Correctional            German and Spanish         Google Translate (a free
Institution Petersburg:                                     Internet-based translation
Mexico, Canada, Bahamas,                                    service)
Panama, Spain, Italy,                                      Other inmates known to the
Nicaragua, and Venezuela                                    inmate
                                                           Telephone translation service
                                                            staff can call while the inmate
                                                            listens
Note: We did not collect information on language capabilities at Federal Correctional
Institution La Tuna because we visited primarily to observe a consent verification
hearing.
Source: BOP interviews.

      Officials at the BOP’s Central Office said the BOP had a translation
services contract that provides interpreters to translate for staff and
inmates over the telephone. However, we found the contract was for
monitoring the communications of terrorist and high-risk inmates, not
translation services to assist BOP staff in communicating with inmates.
We did not find any other translation contracts available to support
translations for treaty transfer applicants.

      Case managers told us that while document translation and
telephone translation services meet some needs, they need foreign
U.S. Department of Justice                                                              21
Office of the Inspector General
Evaluation and Inspections Division
language training. BOP officials stated that foreign language training is
provided only for the Spanish language. From FY 2005 through
FY 2010, 55 case managers received Spanish language training. As of
August 2010, there were 1,051 case managers. In addition, in response
to a working draft of this report, the BOP stated that providing foreign
language training to staff at all BOP institutions for an inmate population
of less than 2 percent (that is, the inmates who do not speak English,
French, or Spanish) is not cost effective.

      Some translating is done informally by the inmates themselves.
Six BOP case managers told us, and inmates confirmed, that inmates
sometimes translate for each other, but the translations may be vague or
inaccurate. For example, one inmate translated a transfer denial letter
as saying the transfer had been denied because the inmate was “too
important.” The letter actually stated the inmate was needed for
testimony.

       We believe the BOP must improve its ability to effectively
communicate with foreign national inmates, particularly those who
speak languages other than Spanish. By removing language barriers to
understanding the treaty transfer program, the BOP will not only be able
to better explain the program to interested inmates, but will also be able
to answer potential questions regarding eligibility requirements. We also
believe written material should be readily available in all languages of
nations with which the United States has a treaty transfer agreement so
that inmates can make fully informed decisions.

The BOP does not routinely inform inmates who have been
previously denied approval for transfer when they become eligible to
reapply for transfers.

       According to the BOP’s program statement, inmates whose
requests for treaty transfer are denied may reapply 2 years after the date
of the denial, but we found that there is no mechanism for the BOP to
inform inmates when they are eligible to reapply. Although the BOP’s
program statement requires that prison staff inform inmates about the
policy on reapplying for transfers, no BOP policy requires staff to discuss
the issue during program review meetings with the inmates.45 A Senior
Program Specialist we interviewed said that case managers should

       45  BOP Program Statement 5322.12, Inmate Classification and Program Review,
requires that inmates have program review meetings every 90 days if they have less
than a year left on their sentences or every 180 days if they have more than a year
remaining on their sentences.


U.S. Department of Justice                                                      22
Office of the Inspector General
Evaluation and Inspections Division
address treaty transfer issues at any program review. She said that
information regarding the date of denial of an inmate’s request for
transfer is in the BOP’s SENTRY information system, so case managers
are able to check to see when the date to reapply is approaching and can
discuss reapplication during the inmate’s next program review.46

      However, we found that the treaty transfer program is generally not
discussed during inmates’ program reviews. Only 6 of 49 (12 percent)
BOP staff members we interviewed stated that the treaty transfer
program was something that should be discussed with inmates during
program reviews. Of the 36 inmates we interviewed, 14 (39 percent) said
that their case managers discussed the treaty transfer program with
them only when they first arrived in prison. One inmate stated that he
discussed the transfer program once with his case manager and it was
not brought up again. Another inmate stated that inmates “don’t really
talk about the program when they meet with their case manager.”

      OEO stated that IPTU sends a denial letter, which, in addition to
providing the reasons for the denial, also informs the prisoner that he
can reapply for transfer in 2 years. OEO stated that this is sufficient
notice and, thus, that it is not necessary to require the BOP to monitor
this date and remind the prisoner when the 2-year period is about to
expire. We believe that during regularly scheduled program reviews the
BOP has the opportunity to remind those inmates whose requests were
previously denied that they may now be eligible. We also believe that by
continually making the inmates aware of the treaty transfer program,
whether through the prison handbooks or verbal reminders, the BOP will
be able to either increase interest in the program or provide additional
opportunities for transfer consideration to those previously denied who
may have forgotten about the treaty transfer program.

The BOP is not correctly determining inmate eligibility for the
program in many instances.

       BOP case managers determine an inmate’s eligibility for treaty
transfer based on the BOP’s program statement, which includes the
requirements for the inmate to be from a treaty nation, sentence length,
and, for Mexican inmates, immigration offenses that make them
ineligible for transfer. According to the BOP, from FY 2005 through
FY 2010, it forwarded only 10 percent (7,278 of 74,733) of foreign

       46  SENTRY is the BOP’s primary mission support database. The system
collects, maintains, and tracks critical inmate information, including inmate location,
medical history, behavior history, and release data.


U.S. Department of Justice                                                            23
Office of the Inspector General
Evaluation and Inspections Division
national inmates’ requests to transfer to their home countries to IPTU for
consideration. The vast majority of applications from interested
inmates – 90 percent (67,455) – were deemed ineligible by the BOP and
never forwarded to IPTU.

       As previously noted, the treaties often establish significant
limitations on inmates’ eligibility for transfer, which the BOP considers in
determining eligibility. For example, Mexican inmates, who represent the
largest portion of foreign national inmates in BOP custody, are not
eligible for treaty transfer consideration if they are incarcerated for an
immigration offense. For these inmates, the case manager determines
whether an inmate requesting treaty transfer is incarcerated for
immigration offenses; if so, the inmate is deemed ineligible and no
application is sent to IPTU. The BOP reported that case managers
determined that 54,439 of the 67,455 (81 percent) requests for treaty
transfer were from Mexican inmates. According to the BOP, of the
54,439 requests for treaty transfer from Mexican inmates, 37,273
requests were determined to be from inmates who were not eligible
because they were incarcerated for immigration offenses.47

        The BOP provided the OIG with data it obtained through a search
limited to SENTRY to support that the BOP’s eligibility determinations
were made appropriately. However, the data provided by the BOP does
not demonstrate that case managers determined eligibility correctly. For
example, we found that 1,802 of 67,455 (3 percent) of those requests that
were rejected, at least in part, due to immigration violations were not
actually from Mexican citizens subject to treaty restrictions. Also,
because information about additional convictions is in the inmate’s
central file, but not in SENTRY, an inmate’s eligibility cannot be
determined through SENTRY alone. We conclude that, although the
majority of the BOP’s determinations may have been appropriate, a case
file review for each inmate would be required to accurately verify whether
ineligible determinations were appropriate.

      During our fieldwork, we reviewed a limited sample of 52 of the
67,455 cases in which the BOP determined inmates were ineligible to
apply for treaty transfer.48 We found errors in 9 of the 52 cases

       47 An additional 17,166 were determined to be ineligible because they were
Mexican inmates incarcerated for immigration offenses and had less than 6 months
remaining on their sentences.

       48 Our sample was limited to 52 cases because the BOP’s Office of Research and
Evaluation stated that staff would have to do manual research to determine why each
                                                                              (Cont’d.)
U.S. Department of Justice                                                          24
Office of the Inspector General
Evaluation and Inspections Division
(17 percent) that indicate the cases could have been forwarded to IPTU,
but were not. In six of these cases, we found that the BOP incorrectly
determined that non-Mexican inmates were ineligible because they had
immigration offenses that are disqualifying under the terms of the U.S.-
Mexico bilateral treaty.49 BOP officials said the case managers who
worked on these six cases mistakenly thought the immigration offense
rule applied to inmates from all countries. In another two cases, inmates
were determined ineligible for treaty transfer because they were from
non-treaty nations, specifically the Dominican Republic and Colombia.
However, the inmates were actually from Denmark and Canada, which
are treaty nations. Further, the BOP’s data showed that one case was
determined ineligible because of a “keying error,” but the inmate was
“now eligible.” In total, of the 52 case managers’ determinations of
ineligibility we reviewed, 9 (17 percent) were incorrect.50

      We also found in 12 of the 52 cases, inmates were determined to
be ineligible because they had less than 6 months remaining on their
sentences. These inmates were from Council of Europe treaty nations.
The Council of Europe treaty states that inmates with less than
6 months remaining on their sentences can be eligible under exceptional
circumstances. We found that the Council of Europe Convention and the
BOP’s program statement do not define exceptional circumstances, but
IPTU’s Deputy Chief provided examples of when IPTU would consider
inmates with less than 6 months remaining on their sentences for
transfer.51 Although BOP policy indicates inmates with less than
6 months remaining on their sentences will be considered ineligible for
transfer, we question whether adequate consideration was afforded to
these inmates because the BOP’s program statement does not define

case was determined to be ineligible for a treaty transfer since this information is
generally not available in SENTRY.

       49  BOP Program Statement 5140.39, Transfer of Offenders to or from Foreign
Countries, states that Mexican inmates who are currently serving sentences exclusively
for immigration law violations are not eligible for treaty transfer consideration unless
the immigration offense is totally absorbed by another current sentence and the time
served to date is equal to or greater than the sentence imposed for the immigration
offense.

       50  We selected a sample of 52 transfer requests rejected by the BOP for analysis.
Our sample selection methodology was not designed with the intent of projecting our
results to the 67,455 inmates determined ineligible for treaty transfer.

       51 As examples, the Deputy Chief said IPTU had reconsidered two inmates with
less than 6 months remaining on their sentences because one was pregnant and the
other had cancer.


U.S. Department of Justice                                                             25
Office of the Inspector General
Evaluation and Inspections Division
exceptional circumstances. However, we did not include these 12 cases
in our analysis.

       The remaining 31 of 52 cases included:

   	 Twenty-two cases of Mexican inmates were determined ineligible
      because they were serving for an immigration violation.

   	 Six cases of inmates were determined ineligible to participate in the
      transfer program because their home countries were not treaty
      nations. Five of these cases contained input errors in SENTRY
      that wrongly listed the inmates’ country of citizenship as Canada,
      which is a treaty nation. It was later determined these inmates
      were actually from China, Cuba, and Iraq, and therefore, were
      ineligible to participate in the transfer program because those
      countries are not treaty nations. The errors occurred because the
      case management staff keyed the wrong country code when the
      inmates were received at the prison. The errors did not affect the
      accuracy of the determination in these five cases. One case
      contained a keying error that indicated the inmate had “no
      interest.”

   	 Two cases were correctly determined ineligible because the inmates
      were from Jamaica, which is not a treaty nation.

   	 One case where an inmate was not from a Council of Europe
      country and was determined to be ineligible for transfer because he
      had less than 6 months remaining on his sentence.

       We believe the BOP could have incorrectly determined inmates to
be ineligible for three reasons: (1) inaccurate information in the BOP’s
program statement about the eligibility requirements contained in the
treaties; (2) inadequate training of case managers on how to determine
eligibility; and (3) insufficient BOP management reviews of application
packets and of case managers’ decisions about eligibility. In the
following sections, we discuss these factors.

The BOP’s program statement does not accurately reflect the eligibility
requirements contained in the treaties.

      We determined that a major reason for case managers’ inaccurate
determinations is that the guidance they rely on is incomplete and
incorrect. In interviews, 26 of 27 case managers told us that they use
only BOP Program Statement 5140.39 for determining eligibility
U.S. Department of Justice                                                26
Office of the Inspector General
Evaluation and Inspections Division
requirements and treaty transfer responsibilities.52 We found four types
of errors in the eligibility requirements listed in that program statement:
(1) missing entries in the list of treaty transfer nations, (2) incorrect
information on whether inmates with appeals in progress are eligible,
(3) missing information regarding exceptions to the rule that inmates
must have at least 6 months remaining on their sentences to be eligible,
and (4) incomplete information on whether inmates with committed fines
are eligible for treaty transfer. These errors are discussed further below.

Treaty Nations

        We interviewed 31 BOP case managers who told us that verifying
whether an inmate’s country is a treaty nation is the first and most
important step in determining eligibility for treaty transfer. However, the
list of treaty nations in the BOP program statement that case managers
rely on is missing four countries: El Salvador, Honduras, Russia, and
Uruguay.53 El Salvador and Russia became treaty nations in 2007, and
Honduras and Uruguay became treaty nations in 2009. In 2010, the
BOP had 2,569 inmates from those 4 countries.54

       We found that prior to 2007, the BOP issued “change notices” to
revise the participating treaty nation list in Attachment A of the program
statement. However, in 2006, the BOP’s Office of National Policy
Management began reformatting policies that contained change notices
and informed staff that the most current list of treaty nations would be
published on the Correctional Programs Intranet page on Sallyport.55
The Senior Correctional Programs Specialist stated that the BOP moved


       52  One of the 27 case managers said she did not know about the program
statement. She said she relied on the direction of the case management coordinator.
We interviewed four additional case managers but either did not ask them this question
or did not receive a direct answer from them in response.

       53 The list appears in Attachment A of BOP Program Statement 5140.39 and

was last revised in December 2009.

       54 The BOP determined that 1,316 of 67,455 cases were determined ineligible
because the inmates were not from non-treaty nations. Our review of the BOP’s data
found that 16 of these 1,316 were actually from a treaty nation. Of those 16, 11
inmates were citizens of Costa Rica requesting transfer to Costa Rica, which is a treaty
nation. The BOP said that a further review of the information contained in our
response revealed Costa Rica was inadvertently included.

       55  Sallyport is the BOP’s internal, centrally operated electronic depository of
reference information published independently by multiple BOP sites and disciplines.


U.S. Department of Justice                                                            27
Office of the Inspector General
Evaluation and Inspections Division
the most recently updated list to Sallyport because it allowed the BOP to
make changes to it without having to affect the program statement and
go through employee union negotiation every time a new country needed
to be added to the list. The BOP’s Deputy Chief for Labor Management
Relations said the BOP must negotiate with its union regarding any
change to conditions of employment. He added that any change to the
program statement could possibly be considered a change to the
conditions of employment. The Administrator of the Correctional
Programs Division stated that because the list of countries changes
frequently, the BOP had seen a need to take the updates away from the
program statement since the BOP could not easily change the program
statement every time the countries changed.

       We found that while the correct list is maintained on Sallyport and
the program statement refers BOP staff to that online information, this is
not the guidance the case managers use. All but one BOP case manager
told us that they use only the program statement for determining
eligibility.56 Consequently, we determined that the case managers would
likely have rejected requests for transfer from inmates from those four
treaty countries listed on Sallyport but not in the program statement. In
fact, one case manager we interviewed specifically said she will not ask
anyone from El Salvador if they are interested in treaty transfer because
“we don’t have a treaty transfer with El Salvador.”

       As will be discussed later, the BOP issued a revised program
statement in August 2011. The revised program statement deletes
Attachment A, List of Treaty Countries, and states that the list of
participating countries will be maintained on the Correctional Programs
Division’s Intranet page (Sallyport). We believe this change may prompt
BOP staff to consult the current list of treaty nations on Sallyport.

Appeals and Collateral Attacks

       The Council of Europe Convention on the Transfer of Sentenced
Persons, the Inter-American Convention on Serving Criminal Sentences
Abroad, and the Mexican bilateral treaty state that an inmate’s sentence
must be final for the inmate to be eligible for transfer. According to
18 U.S.C. 4100(c), “offenders shall not be transferred to or from the U.S.
if a proceeding by way of appeal or collateral attack upon the conviction



       56 Only 1 of the 31 case managers we interviewed said she referred to Sallyport
for information on the treaty transfer program.


U.S. Department of Justice                                                          28
Office of the Inspector General
Evaluation and Inspections Division
or sentence be pending.”57 However, these points are not clearly defined
in the BOP’s program statement.

      The BOP program statement states, “The judgment must be final;
the inmate must have no pending proceeding or appeal upon the current
conviction or sentence.” However, there are certain types of appeals that
may not make an inmate ineligible for transfer consideration. For
example, IPTU’s Deputy Chief said that some types of appeals, such as
an appeal on a civil judgment, do not make inmates ineligible for treaty
transfers. Those types of appeals are not challenges to the sentence;
rather they are other challenges, such as to the conditions of the
inmate’s confinement. Inmates are ineligible only if they are challenging
the validity of their convictions, according to the Deputy Chief.58

       In addition, the BOP’s program statement does not clearly define
collateral attacks. According to USABook (an electronic repository of
legal information for USAOs), three provisions of federal law authorize
three different collateral remedies for federal prisoners.59 Information
regarding what provisions apply to an inmate’s eligibility is not specified
in the BOP’s program statement. However, despite a lack of a clear
definition of collateral attack in the BOP’s program statement, the BOP’s
transfer inquiry form, which all inmates interested in treaty transfer
must sign, states, “I understand I am not eligible to apply for transfer if I
have an appeal or collateral attack pending, but that I may apply when
the appeal or collateral attack process has concluded.” Further, our
review of the treaties found that only Mexican inmates are ineligible for
treaty transfer if they have a collateral attack in progress. Inmates who
are citizens of other nations are not subject to that provision, but this is
not explained in the BOP’s program statement.

      We believe that the BOP’s program statement and transfer inquiry
form lack needed information regarding collateral attacks and lack clarity

       57 “Collateral attack” is a broad term used to refer to a motion, other than a
direct appeal, filed by a prisoner seeking to vacate his conviction or sentence.

       58 The BOP reported that 6,739 of 67,455 (approximately 10 percent) requests
may have been appropriately categorized as ineligible based on pending appeals and
pending charges; however, without researching each case individually, the BOP is
unable to adequately determine their eligibility status.

       59 The three provisions are 28 U.S.C. § 2255, which provides a remedy meant as
a substitute for a habeas corpus petition; 28 U.S.C. § 2241, which provides for writs of
habeas corpus; and 28 U.S.C. § 1651, which authorizes federal courts to issue various
common-law writs.


U.S. Department of Justice                                                              29
Office of the Inspector General
Evaluation and Inspections Division
concerning what specific types of appeals make inmates ineligible for
transfer. Furthermore, given that 18 U.S.C. 4100(c) precludes inmates
from transfer because of a pending appeal or collateral attack, but (1) no
treaty other than the bilateral treaty with Mexico precludes an inmate
from transfer and (2) different types of appeals may make an inmate
eligible, we believe that evaluating an inmate’s appeals status is a
suitability issue best determined by IPTU rather than by the BOP. IPTU
and the BOP should coordinate with each other to determine appropriate
language, if any, for the BOP’s program statement regarding whether an
inmate with a pending appeal or collateral attack is eligible for transfer.

Six Months Remaining on Sentence

       The BOP’s program statement states that to apply for the treaty
transfer program inmates must have 6 months remaining on their
sentences. Specifically, the BOP’s program statement provides that an
inmate “must have at least six months of the current sentence remaining
to be served at the time for request for transfer.”60

       Our review of the treaties found that the 6-month requirement is
not universal. The Organization of American States treaty and the U.S.-
Mexico bilateral treaty require that inmates have at least 6 months
remaining on their sentences. However, the Council of Europe
Convention states, “in exceptional cases, Parties may agree to a transfer
even if the time to be served by the sentenced person is less than”
6 months.61 These exceptions are not reflected in the BOP’s program
statement, the Council of Europe Convention does not provide a
definition of what constitutes an “exceptional case,” nor has the
Department defined what is meant by the term. As discussed previously,
the BOP had determined 12 inmates in our sample were ineligible for
treaty transfer although those inmates were from Council of Europe
treaty nations and should have been subject to review to determine if
they qualified as exceptional cases.62



       60 Three countries require at least 12 months to be remaining on an inmate’s
sentence (France, Hong Kong, and Thailand).

       61   Article 3, Section 2, of the Council of Europe treaty. The treaty covers 64
nations.

       62 The BOP determined that 4,924 of 67,455 inmates were ineligible for treaty
transfer because these inmates had less than 6 months remaining on their sentences.
Based on our review of BOP data, we found that of those 4,924 inmates, 3,896
                                                                               (Cont’d.)
U.S. Department of Justice                                                                30
Office of the Inspector General
Evaluation and Inspections Division
       Since BOP policy indicates inmates with 6 months or less
remaining on their sentence will be considered ineligible for transfer, we
question whether adequate consideration was afforded to these inmates
because the BOP’s program statement does not define exceptional
circumstances. The OIG does not believe that all inmates with 6 months
or less remaining on their sentence should be considered; only those few
inmates who can claim exceptional circumstances. Because each
inmate’s request for transfer is unique and based on individual
circumstances, we believe that a small number of inmates from Council
of Europe treaty nations with less than 6 months could face exceptional
circumstances that merit consideration for a more in-depth evaluation by
IPTU to determine their suitability for transfer. In response to a working
draft of this report, OEO stated that it could provide to the BOP examples
of some situations that could qualify as exceptional circumstances, such
as grave illness of a prisoner or pregnancy of the prisoner, which will
enable BOP to identify such cases for consideration.

Committed and Non-Committed Fines

       According to the BOP’s program statement on the treaty transfer
program, “An inmate with a committed fine may not be considered for
return to the inmate’s country of citizenship for service of a sentence
imposed in a United States court without the permission of the court
imposing the fine.”63 However, we found the program statement does not
define “committed fine” or refer to BOP Program Statement 5882.03,
Fines and Costs for “Old Law” Inmates, which provides detailed
information regarding committed fines.64 For example, Program
Statement 5882.03 defines a committed fine as “a monetary penalty
imposed with a condition of imprisonment until the fine is paid.”
Program Statement 5882.03 also clarifies that committed fines apply
only to those inmates convicted of offenses before November 1, 1987.
Without this clarification, case managers could incorrectly determine an
inmate to be ineligible for transfer. Further, the program statement
distinguishes committed fines from non-committed fines, the latter being
fines that do not impose a condition of confinement, but as noted above,



(79 percent) were from Council of Europe treaty nations, which permit exceptions to the
6-month eligibility requirement in exceptional cases.

       63   BOP Program Statement 5140.39.

       64  As opposed to a committed fine, court ordered restitution is a financial
penalty to be paid to the victim.


U.S. Department of Justice                                                            31
Office of the Inspector General
Evaluation and Inspections Division
the program statement regarding treaty transfer does not spell out this
distinction.65

       In general, we found that BOP staff had differing opinions about
whether an inmate with any fine was eligible for transfer. For example,
one case manager stated fines are a factor that will not cause an inmate
to be ineligible. However, another case manager told us that when he
determines whether an inmate is eligible for transfer, he reviews the
inmate’s case file to determine whether the inmate has any unpaid fines.

      Our review of the COE Convention, OAS Convention, and U.S.-
Mexico bilateral treaty found that committed fines were not listed as a
disqualifier for treaty transfer. In fact, only one treaty, a bilateral treaty
with France, includes any fine as a possible disqualifier for treaty
transfer. IPTU explained that most cases have some type of pending fine
and that such fines are usually modest, although occasionally fines can
be substantial. The United States does not view a fine as an automatic
bar to transfer but rather as another factor to consider when evaluating
the application.

      IPTU’s Deputy Chief said that committed fines are “ancient” and
they are a suitability issue instead of an eligibility issue. He also said
that committed fines “could probably be taken out of the program
statement” as an eligibility criterion because they pertain only to inmates
convicted of offenses before November 1, 1987. We believe that the BOP
should work with IPTU to clarify whether committed fines or non-
committed fines are disqualifying for treaty transfer eligibility and should
reconsider whether committed fines are best determined by IPTU rather
than the BOP.

BOP officials explained why there are discrepancies in its program
statement.

       Neither the BOP nor IPTU have addressed the discrepancies in the
BOP’s program statement’s criteria for transfer eligibility. When we
asked BOP management officials about the program statement, they told
us it is only a guide, not official policy. For example, the BOP’s Senior
Deputy Assistant Director, Correctional Programs Division, said that
BOP staff typically have to rely on their years of experience to make the
determination as to whether an inmate is eligible for the treaty transfer


       65 Program Statement 5882.03 defines a non-committed fine as “a monetary
penalty which has no condition of confinement imposed.”


U.S. Department of Justice                                                        32
Office of the Inspector General
Evaluation and Inspections Division
program. He further said that the decision about whether to forward an
application packet to IPTU is largely at the discretion of the individual
case manager. This was confirmed by the Assistant Administrator,
Correctional Programs Division, who said the program statement affords
case managers opportunities to interpret and use judgment. If an
individual case manager believes an inmate is ineligible based on the
program statement, the case manager will not forward an application.

       IPTU staff voiced concerns regarding the BOP’s program statement
and the ability of BOP case managers to determine eligibility. IPTU’s
Chief said the eligibility criteria established in the BOP’s program
statement are “a bit deceptive.” She said she is not comfortable with the
wording of the program statement because it makes it seem the BOP has
a greater role than it actually does in determining whether an inmate is
eligible for transfer. Further, IPTU’s Deputy Chief said there is “a lot of
gray area” for determining eligibility in the program statement.

       It is our opinion that the laws and treaties are not clearly explained
in the program statement. We believe that there should be clear
eligibility statements that case managers or other BOP staff can readily
use without interpretation to determine an inmate’s eligibility to apply to
the program. Matters requiring legal interpretation on whether an
inmate is eligible should be forwarded to IPTU for an eligibility
determination.

The BOP has updated its treaty transfer program statement.

      Generally, when the BOP revises a program statement, it sends the
changes to its personnel affected by the program changes for review, as
well as to the BOP’s Information, Policy, and Public Affairs Division,
which formats the document and sends it back to the program’s
personnel. The revised program statement is then reviewed by affected
personnel before it is sent to the BOP’s Labor Management Relations
branch to determine if the union would like to negotiate any changes.
The Administrator of the BOP’s Correctional Programs Division said that
the BOP reviews program statements annually. If revisions are
necessary, the BOP makes them and provides the updated program
statement to the union. The union then has 30 days to invoke its right
to negotiate the BOP’s revisions.

      The BOP issued a revised program statement on August 4, 2011,
that will replace the program statement reviewed during our field work,
which had been last updated on December 4, 2009. This recently issued


U.S. Department of Justice                                                33
Office of the Inspector General
Evaluation and Inspections Division
program statement provides clarifying information on inaccuracies we
identified above. Specifically, the revised program statement:

   	 provides clarification regarding committed fines. The revised
      program statement states that committed fines were imposed on
      “Old Law” cases committed prior to November 1, 1987.

   	 provides clarification regarding appeals or collateral attacks.
      Specifically, the revised program statement says an appeal
      challenges the decision made in the same case, whereas a
      collateral attack is a motion filed pursuant to 28 U.S.C. § 2255
      that challenges some aspect of a former judgment due to an
      injustice or unconstitutional treatment that occurred in the former
      case.

   	 deletes Attachment A, List of Treaty Countries, and states that the
      list of participating countries will be maintained on the
      Correctional Programs Division’s Intranet page (Sallyport).

       On July 22, 2011, the BOP’s Deputy Chief for Labor Management
Relations told us that the updated draft program statement did not
require union review and negotiation because it was included as part of a
settlement reached with the union concerning several issues. However,
the revised program statement does not address the weaknesses we
identified to the BOP concerning the way case managers determine
eligibility. The Deputy Chief also stated that any other changes to the
program statement resulting from our review would require the BOP to
begin the revision process again.

       We conclude that the BOP needs to address the inaccuracies in its
program statement on the treaty transfer program and provide more
clarifying information on specific eligibility criteria if more inmates are to
be given an appropriate opportunity to apply for the program. While the
BOP recognizes the need for changes in its program statement and has
issued a revised program statement, the revised version we were provided
did not address all the weaknesses we found. Also, the Deputy Chief
explained that program statement revisions are negotiated with the
union individually and usually according to the order in which they are
submitted for union review. We are concerned that any revisions to
subsequent versions of the program statement to address the deficiencies
we found will cause the corrected program statement to be placed at the
end of the list of policies awaiting union negotiation, which will result in
additional delays for implementing an accurate program statement.
Such delays may result in unnecessary incarceration costs to the BOP

U.S. Department of Justice                                                 34
Office of the Inspector General
Evaluation and Inspections Division
for those inmates who might be determined eligible and ultimately
approved for transfer. We believe it is essential that the BOP have the
capability to quickly develop, update, and implement program
statements affecting its ability to fulfill its mission.

The BOP’s treaty transfer training for case managers is inadequate.

       The BOP’s case managers receive inadequate training on the treaty
transfer program and how to determine an inmate’s eligibility to apply to
the program. While the Assistant Director and Senior Deputy Assistant
Director, Correctional Programs Division, said that all case managers
receive training regarding their treaty transfer responsibilities, we found
that was not accurate. Of the 31 case managers we interviewed, 23
(74 percent) said they received training regarding the treaty transfer
program, while 8 (26 percent) said they did not. Of the 23 case
managers who said they had received training, 9 case managers said
they attended formal classroom training on the treaty transfer program.
The remaining 14 said they received on-the-job training, which included
working with a more experienced case manager. For example, one case
manager said she was provided a manual by her institution’s
management and paired with another case manager for on-the-job
training.66

      When we reviewed the most recent training material available (from
November 2010) for both national and prison-level training for case
managers, we found that it was based on the BOP’s inaccurate program
statement. The slide presentation provided to case managers during
national-level training and training material provided to us at the prisons
we visited contained incorrect information about eligibility requirements.

      While the majority of the case managers we interviewed received
some form of training, we conclude that the training provided is
inadequate because it is based on the program statement, which as we
describe above contains inaccuracies regarding eligibility requirements.

BOP management’s review of case managers’ eligibility decisions is
insufficient.

       A third reason we believe the BOP incorrectly determined inmates
to be ineligible for treaty transfer is because of insufficient review of case
managers’ eligibility determinations. According to 28 C.F.R. Ch. 5

       66   One case manager reported receiving both types of training.


U.S. Department of Justice                                                  35
Office of the Inspector General
Evaluation and Inspections Division
§ 527.44, BOP management is required only to verify that the inmate is
qualified for transfer. During our site visits, we found that of the 18
prison management officials we interviewed, only 2 said they verify the
case manager’s eligibility determination, while 16 said they review
application packets for spelling and grammar mistakes and to ensure
that all required documents were included.

       More importantly, we found that because the regulation does not
require it, prison management does not review case managers’
ineligibility determinations. Yet, as previously discussed, 17 percent of
our sample of inmates that BOP case managers determined were
ineligible for treaty transfer should have been found eligible. We believe
many of those errors could have been caught if ineligibility decisions
were reviewed. Consequently, we believe management should review
both eligible and ineligible determinations. Such a review process needs
to ensure that denials are limited to cases where inmates do not meet
basic eligibility requirements.

Conclusion

      The BOP appears to inform inmates of the treaty transfer program,
but even when inmates are provided information about the program,
they often do not fully understand it because of language barriers. The
BOP must improve its ability to effectively communicate with foreign
national inmates, particularly those who speak languages other than
English, French, or Spanish. By removing language barriers to
understanding the treaty transfer program, the BOP will be able to
better explain the program to interested inmates and answer potential
questions on eligibility requirements. We also believe written material,
such as the handbooks that prisons give to newly arrived inmates or the
transfer inquiry form should be readily available in all languages of
nations with which the United States has a treaty transfer agreement so
that inmates can make fully informed decisions.

      The BOP is not informing those inmates that were previously not
interested in treaty transfer that they may still be eligible if they want to
apply. Also, during program reviews, the BOP does not remind inmates
whose requests were previously denied that they may be eligible to
reapply. By continually making inmates aware of the treaty transfer
program, the BOP may be able to increase interest in the program and
provide additional opportunities for those previously denied. By actively
engaging inmates in conversations about the treaty transfer program in
languages they understand well, the BOP will provide inmates with more
opportunities to learn about the program.

U.S. Department of Justice                                                36
Office of the Inspector General
Evaluation and Inspections Division
      For those instances where treaty provisions do not disqualify
inmates, case managers may not correctly be determining inmates’
eligibility for treaty transfer because the BOP’s program statement does
not accurately reflect eligibility requirements. While the BOP recognizes
the need for changes in the program statement and has revised it, the
updated version will not address all the weaknesses we found. In
addition, BOP officials stated that implementing the revisions may take a
long time due to union review. Such a delay may result in unnecessary
incarceration costs to the BOP for inmates who could be determined
eligible and ultimately approved for transfer. Also, the BOP’s treaty
transfer training for case managers is inadequate. Additionally, BOP
managers’ review of case managers’ determinations is insufficient and
does not verify the accuracy of case managers’ ineligibility determinations.

Recommendations

      To ensure inmates fully understand the treaty transfer program,
we recommend the BOP:

       1.	   make all documents related to the treaty transfer program
             available to staff on the BOP’s internal Intranet in all treaty
             nation languages; and

       2.	   update its policies to require BOP staff to discuss the treaty
             transfer program with inmates at each program review.

      To reduce erroneous determinations and ensure denials are limited 

to cases where transfer is inappropriate, and to ensure that the BOP’s 

program statement is accurate, staff are trained on eligibility criteria, 

and there is oversight of case manager eligibility decisions, we 

recommend that: 


       3.	   the BOP and IPTU coordinate to ensure that the BOP’s
             program statement accurately reflects eligibility criteria based
             on treaty requirements and IPTU considerations, and that the
             BOP provide a revised program statement to its union for
             review;

       4.	   the BOP ensure that all staff members involved in treaty
             transfer determinations are adequately trained; and

       5.	   the BOP establish a process for reviewing ineligibility
             determinations made by case managers to ensure their
             accuracy.

U.S. Department of Justice                                                     37
Office of the Inspector General
Evaluation and Inspections Division
       CHAPTER II: EVALUATING SUITABILITY FOR TRANSFER 



       IPTU’s determinations regarding inmates’ suitability are
       inconsistent and result in disparate treatment of
       inmates in similar circumstances. IPTU does not provide
       enough information in denial letters, resulting in
       inmates not fully understanding the reasons for denial or
       what they can do to address those reasons. In addition,
       no formal reconsideration process exists, and inmates
       who are denied transfers generally must wait 2 years
       before reapplying.    We also found that, while some
       USAOs occasionally include provisions regarding treaty
       transfer in plea agreements, others lack awareness of the
       treaty transfer program.


IPTU’s determinations regarding inmates’ suitability are
inconsistent and result in disparate treatment of inmates in similar
circumstances.

       After a BOP prison determines that an inmate is eligible to apply
for the treaty transfer program, the BOP’s Central Office submits an
application packet to IPTU in the Criminal Division. IPTU reviews the
application and approves or denies the inmate’s request for transfer.
IPTU evaluates an inmate’s suitability for treaty transfer based on factors
that include the inmate’s likelihood of social rehabilitation, law
enforcement concerns, and the likelihood the inmate will return to the
United States.

       Based on interviews with OEO and IPTU officials and analysts, as
well as a review of 511 IPTU case files, we found that IPTU’s
determinations of inmates’ suitability for transfer are inconsistent. We
also found that inmates did not fully understand why their requests were
denied or know what they could do to address the reasons for the
denials. Further, there is no provision to allow inmates to request
reconsideration. An inmate’s only recourse is to wait 2 years and then
reapply for a transfer.

IPTU’s determinations of inmates’ suitability for transfer are inconsistent.

      IPTU provides its analysts with guidelines contained in the 2003
Prisoner Transfer Treaty Requirements and Guidelines (guidelines) that
govern how they are to evaluate treaty transfer requests, and analysts

U.S. Department of Justice                                               38
Office of the Inspector General
Evaluation and Inspections Division
record the reasons for their decisions using IPTU denial codes.67 The
guidelines contain criteria for evaluating prisoner applications for treaty
transfer such as the inmate’s likelihood of social rehabilitation, law
enforcement concerns, and the likelihood the inmate will return to the
United States.

       When IPTU analysts evaluate inmates for suitability for transfer,
they use criteria derived from the guidelines. In their recommendations
for transfer, IPTU analysts justify their use of criteria in the application
summary that is reviewed by IPTU management. We reviewed these
justifications and found examples of inconsistent reasons for IPTU
analysts’ recommendations to approve or deny inmates for treaty
transfer. This has resulted in some inmates being disapproved while
others in similar circumstances were approved.68 IPTU analysts also
said that they conduct their reviews on a case-by-case basis. We
discussed IPTU’s application of criteria with IPTU staff, BOP case
managers, and inmates. BOP case managers said that they have seen
some inmates getting approvals while other inmates in similar
circumstances were denied, which we confirmed during our case file
review. The following are examples we found during our case file review
of how the criteria were applied inconsistently by IPTU analysts and IPTU
management evaluating requests for treaty transfer:

   	 One inmate who had lived in the United States for 11 years was
      denied transfer because that was considered “a long time,” while
      another was approved for transfer even though he had lived in the
      United States for 15 years because “he could receive visits in jail
      from his parents until his eventual release from prison” in his
      home country.

   	 One inmate’s request was denied because five of his siblings and
      an adult child were living in the United States (or, as the IPTU
      analyst put it, “half of his family was here”), while another inmate
      was approved for transfer despite having seven of his nine siblings
      living in the United States.

       67 Denial codes are derived from the guidelines. See Appendix VIII for more on
denial codes.

       68  Some of the justifications we reviewed presented more than one criteria for
approval or denial. Because IPTU can deny an inmate for multiple reasons, our
analysis was limited to the individual justification for specific criteria. We analyzed and
compared similar justifications that appeared in multiple recommendations for approval
or denial of treaty transfer requests.


U.S. Department of Justice                                                              39
Office of the Inspector General
Evaluation and Inspections Division
   	 One inmate was deported from the United States on two occasions,
      but was approved for transfer because his family re-located to
      Mexico, eliminating the incentive to return to the United States.
      Another inmate’s request for transfer was denied for past
      deportation and illegal reentry despite serving 61 percent of his
      term and having his parents, two siblings, his common-law wife,
      and all three of his minor children living in Mexico. The IPTU Chief
      stated in the case file that the inmate’s request should be denied
      because his past deportation and illegal reentry showed “he likes it
      here.”

       We also found that IPTU analysts did not give the same weight to
the key factors they used in evaluating prisoners for transfer. One IPTU
analyst stated that the key factors he used to evaluate a transfer request
were “rehabilitative potential,” whether the inmate had pending appeals
or collateral attacks, whether the inmate was needed for testimony, the
seriousness of the offense, and the inmate’s role in the offense. Another
IPTU analyst said the key factors she considered were whether the
inmate’s contacts with his family were strong and whether the family was
in the United States or abroad. A third IPTU analyst said the key factors
she considered included whether an underlying offense involved
weapons, how long the inmate had been in the United States, the
location of the inmate’s support system, previous deportations, and
restitution.

      The IPTU Chief said the key factors that she looked at were the
inmate’s behavior in prison, where the inmate’s family was, how long the
inmate had been in the United States, how serious the offense was, and
whether the inmate had been deported in the past. With respect to
Mexican nationals, she said the key factors she looked for were whether
the inmate was a domiciliary because some inmates may have been in
the United States for 5 years but have family in Mexico. In such a case,
the IPTU Chief said it would make more sense for the inmate to be
transferred to finish serving his sentence in Mexico instead of being
deported after serving the sentence in the United States.

       Another area where IPTU analysts differed markedly was
restitution. IPTU’s guidelines state that restitution is a law enforcement
and prosecutorial consideration that needs to be settled prior to transfer
because “all supervisory authority over the prisoner is terminated when
the prisoner transfers.” One IPTU analyst said that having not made
restitution was an automatic disqualifier or “deal breaker,” while another
IPTU analyst said she would consider that an inmate with an order to
pay restitution might be eligible for transfer. A third IPTU analyst said

U.S. Department of Justice                                             40
Office of the Inspector General
Evaluation and Inspections Division
that the amount of restitution was significant to her and she considered
a threshold of owing $5,000 in restitution to be sufficient to recommend
denying a transfer request. She added that whether the inmate had
“swindled” people of out money or their life savings was the most
important factor in considering a request.

       There was also disparity between IPTU staff and OEO, which
approves IPTU transfer decisions, regarding inmates owing restitution.
The IPTU Chief said she considered whether an inmate had made
restitution to be a very important factor. For example, in one case file we
reviewed the IPTU Chief commented:

       Despite our long standing position that prisoners with
       outstanding restitution should not be transferred, [IPTU
       analyst] recommends approval of this request arguing that
       the legislative history does not mandate this result in every
       restitution case and that a deviation from this position is
       justified now because of the unique facts and humanitarian
       concerns present in this case. I do not agree.

However, the OEO Deputy Chief told us that if an inmate meets all other
requirements for transfer except for restitution, IPTU may consider these
cases more closely and OEO “will not hold someone up for a thousand
dollars in restitution.”

       At the time of our fieldwork the OEO Director said that OEO would
examine how the issue of restitution should be considered when
evaluating a transfer request. He added that there are a lot of “policy
implications” to carefully review before OEO can make any adjustments.
In response to a working draft of this report, OEO stated that the
Department has recently reviewed the issue of whether outstanding
restitution precludes the transfer of an inmate and has determined that
outstanding restitution is not a bar to transfer. OEO further informed us
that IPTU analysts will be trained on the restitution issue in the near
future.

       The IPTU Deputy Chief recognized that IPTU analysts have
different perspectives when determining the suitability of an inmate for
treaty transfer and some analysts often make recommendations without
studying the case. He explained that some IPTU analysts are more likely
to deny inmates’ requests than others and that “the pro-transfer analysts
have to work a lot harder,” because they have to make a better case for
transfer. He added that “it is easier to say no than it is to say yes”
because an analyst that is more inclined to deny a transfer only has to

U.S. Department of Justice                                              41
Office of the Inspector General
Evaluation and Inspections Division
find one reason to deny, whereas a pro-transfer analyst has to find
multiple reasons to support that position. The IPTU Deputy Chief stated
that it is the IPTU Chief’s responsibility to mitigate the different analysts’
perspectives. However, despite the IPTU Chief’s review, we still found
inconsistencies in application of the criteria in the files we examined. In
response to a working draft of this report, OEO stated that it will review
the criteria with all analysts to ensure greater consistency by all of the
analysts on the substance and use of the guidelines.

IPTU has an expedited review process to evaluate Mexican inmates
because Mexico will only approve specific inmates for transfer.

       As previously noted, IPTU is limited in determining whether an
inmate is suitable for treaty transfer because of restrictions established
in the treaties. For example, Mexico, which represents the most foreign
national inmates in BOP custody, will not approve transfer requests of
inmates who are domiciliaries of the United States.69 According to IPTU
officials, since 2001, Mexico no longer approves transfer requests for
inmates who have more than 5 years remaining on their sentences or
whose cases have other factors, such as possessing a firearm during the
offense. Mexico, citing its overcrowded prisons and drug violence,
developed and relies on criteria to limit its acceptance of transfer
candidates. Specifically, in 2001, the Mexican government provided a
letter to IPTU with criteria that would make an inmate suitable for
Mexico to accept. The Mexican government said:

       The best Mexican prisoner candidate for transfer will be
       those whose cases indicate the existence of all of the
       following factors: low security level; no involvement with
       organized crime; good conduct while incarcerated; no prior
       criminal records, and 5 years of sentence remaining to be
       served before being transferred to Mexico.70

      According to OEO, IPTU developed a separate process to expedite
the review of Mexican inmates that reflects some, but not all, of the
characteristics identified by Mexico several years before the 2001 letter.
This process includes determining whether the inmate:

       69  According to Article IX(4) of the bilateral treaty with Mexico, “A ‘domiciliary’
means a person who has been present in the territory of one of the parties for at least
five years with an intent to remain permanently therein.”

       70 Deputy Chief of Mission, Embassy of Mexico, memorandum to the Chief of
IPTU, October 11, 2001.


U.S. Department of Justice                                                                42
Office of the Inspector General
Evaluation and Inspections Division
       1. is a legal permanent resident of the United States,
       2. has immediate family in the United States,
       3. has a prior criminal record,
       4. has lived in the United States more than 5 years,
       5. had a weapon or firearm or other significant conduct during the
          offense,
       6. has prior illegal entries into the United States or deportations,
          or
       7. has significant misconduct while in prison.

However, IPTU’s Deputy Chief said IPTU should not automatically deny
all of the requests of inmates who have 5 years or more remaining on
their sentences because “it is IPTU’s job to evaluate all the cases.”

       The Department has stated that the 2001 criteria the Mexican
government relies on are too restrictive and limit the number of Mexican
inmates whose requests the Department might have otherwise approved.
In 2007, the Department reported to Congress that Mexico’s reasons for
denying transfer to its nationals were not persuasive. For example,
Mexico cited problems with overcrowding in its prisons as a reason for
not approving more of its nationals for transfer, but the United States is
experiencing overcrowding in its prisons as well. The Department also
stated that it believed that the overly restrictive approval criteria applied
by Mexico were too broad and were in direct conflict with the original
rehabilitative and humanitarian intent of the transfer treaty between
Mexico and the United States.71 IPTU officials told us that Mexico still
institutes restrictive criteria, resulting in fewer inmates ultimately
transferred.

IPTU does not provide enough information in denial letters,
resulting in inmates not fully understanding the reasons for denial
or what they can do to address those reasons.

       In our review of denial letters and interviews with inmates, we
found that inmates generally do not understand why their requests for
transfer were denied, which in turn limits their ability to improve the
likelihood of a future transfer. We found that the reasons cited in denial
letters are often vague, lack detailed information, and are generally
misunderstood by inmates and BOP case managers. In interviews with

       71 Alberto Gonzales, Attorney General, Department of Justice, submitted to the
Committees on the Judiciary of the United States Senate and House of Representatives,
concerning “The Effectiveness of the International Prisoner Transfer Treaties to which
the United States was a party in FY 2005 and FY 2006” (April 2007).


U.S. Department of Justice                                                         43
Office of the Inspector General
Evaluation and Inspections Division
inmates, we found that only 9 of 36 (25 percent) fully understood why
their requests were denied. Of the remaining inmates we interviewed,
6 of 36 (17 percent) said they were aware of the stated reason their
request was denied, but did not understand why the stated reason
applied to them. Twelve of the 36 (33 percent) inmates did not
understand why their transfer requests were denied at all.72 For
example, one inmate said he did not think that it made sense that IPTU
denied his request on the grounds that he owed restitution. He went on
to say that he would be deported at the end of his sentence anyway, and
once he was deported restitution would be “out the window.”

      In addition, BOP case managers said they generally did not
understand the basis for IPTU’s denials and did not know whether
inmates understood the reasons why their requests were denied. The
case managers described IPTU denial letters as “generic,” “vague,” and
lacking detail. Several case managers also said that inmates had
reported not understanding the reasons for denials.

       We found the denial letters in our sample of case files listed the
reasons for denial but were not detailed. For example, letters stated “the
inmate is more likely to be approved in the future” if the inmate has
“attempted to address those reasons for denial [over] which the inmate
has some control,” but did not state what the inmate specifically needed
to do to improve the likelihood for transfer. OEO recognized that this
sentence in the IPTU denial letter may be confusing. Accordingly, OEO
stated that this sentence will be deleted from future denial letters.

       In addition, if an inmate writes to IPTU asking why a transfer
request was denied, IPTU will offer a more detailed response in a follow-
up letter that is specific to the inmate’s case. However, the denial letters
within our sample of case files did not inform inmates that they could
write to IPTU for an additional explanation. Some IPTU personnel stated
that case managers could call IPTU and seek clarification about denials.
However, the BOP’s program statement prohibits institution staff from
seeking more information from IPTU. We believe this information needs
to be included in the denial letter.

      We also believe inmates should be informed that they can contact
IPTU to obtain more information about the reasons for denial and that
they may provide information to IPTU about actions they have taken to
remedy the reasons for their denial. IPTU should provide more detailed


       72   Nine inmates were not asked if they understood the denial reason.


U.S. Department of Justice                                                      44
Office of the Inspector General
Evaluation and Inspections Division
explanations addressing the reasons for denial in initial denial letters, so
that inmates may make themselves better candidates for transfer in
subsequent requests. In response to a working draft of this report, OEO
stated that to ensure potentially suitable prisoners are notified that they
may submit substantial evidence demonstrating that their circumstances
have materially changed, IPTU will modify denial letters to advise them of
that opportunity.

No formal reconsideration process exists, and inmates must
generally wait 2 years before reapplying.

       The IPTU Deputy Chief stated that the only form of appeal for
denial of a transfer request is the letters that IPTU receives from inmates
asking IPTU to reconsider their cases. He said a reconsideration process
is unnecessary because it is not required by the treaties or by statute,
IPTU has other cases to consider, and inmates can always reapply in
2 years. He added that a 2-year waiting period allows for manageable
caseloads that enable IPTU analysts to give their full attention to each
case. Additionally, according to OEO, a 2-year period was established
because it was deemed a reasonable period of time in which any
significant changes in the prisoner’s status might occur. However, OEO
went on to say that, as a practical matter, the situations of most
prisoners do not change dramatically in 2 years. We found that the
2-year waiting period is not standard for all cases. In our case file
review, we found at least four instances in which IPTU had reconsidered
its denial before the 2-year period elapsed.73

      While the 2-year waiting period may be appropriate, we believe that
the lack of a standard reconsideration process does not serve the
rehabilitative nature of the treaty transfer program because
circumstances of an inmate can change within 2 years. We believe
providing a more formalized reconsideration process will provide more
opportunities for an inmate to be considered for transfer.

      In response to a working draft of this report, OEO also stated that
denials that it would typically reconsider are cases where there are
pending appeals or where the USAO or law enforcement needs the
prisoner for testimony or an investigation. In the past, the analyst
contacted the USAO or law enforcement agency after a specified period to
determine if the barrier to transfer still existed. Recently, IPTU has

       73 For example, an inmate was denied transfer because he was needed for
testimony at one point, but after it was determined that he was not needed, IPTU
reconsidered his transfer request.


U.S. Department of Justice                                                         45
Office of the Inspector General
Evaluation and Inspections Division
instituted a computerized notification system that provides reminders to
the analyst, with a copy to the Chief, when these contacts should be
made.

While some USAOs occasionally include provisions regarding treaty
transfer in plea agreements, others lack awareness of the treaty
transfer program.

      During their evaluation of inmates’ suitability for transfer, IPTU
analysts contact the prosecuting USAOs for their position on the
requests for transfer. The USAOs also can state their position on treaty
transfer during plea agreement negotiations. The USAM states that the
decision to approve or deny a transfer request is based on the legality
and overall appropriateness of the requested transfer, and making that
decision has been delegated by the Attorney General to the Director and
Senior Associate Director of OEO. A myriad of factors enter into the final
decision, including in some instances factors of which the USAO has no
knowledge. Accordingly, the USAO is not in a position to guarantee that
a transfer will be approved in any particular case. However, the USAM
states that USAOs may include language regarding recommendations
related to treaty transfer as part of a plea agreement. Specifically, the
USAM states:

       A prosecutor may promise, as part of a plea agreement, to
       recommend that a particular defendant/prisoner be
       transferred pursuant to a treaty to his or her home country
       to serve his/her sentence. In the alternative, the prosecutor
       may agree not to oppose the prisoner’s request for transfer.
       The United States Attorney’s Office may not, however,
       promise that a transfer will in fact be granted.74

      The Executive Office for United States Attorneys’ (EOUSA)
Legislative Counsel stated that each of the 94 USAOs may have different
practices regarding plea agreements because they are entirely within the
discretion of the district’s U.S. Attorney. She further stated that
providing sample language which a prosecutor may include in a plea
agreement may help make AUSAs more aware of the treaty transfer
program. Some Criminal Chiefs we interviewed agreed that including
sample language may help AUSAs be more aware of the treaty transfer
program.



       74   United States Attorneys’ Manual, Title 9, Chapter 9-35.100.


U.S. Department of Justice                                                46
Office of the Inspector General
Evaluation and Inspections Division
       Although USAOs have the opportunity to include language
regarding treaty transfer recommendations as part of plea agreement
negotiations, we found that they usually do not. Our findings were
confirmed during interviews with 17 USAO Criminal Chiefs who reported
that the AUSAs in their offices rarely or never included treaty transfer
recommendations in plea agreements. In addition, although almost all
(97 percent) federal criminal cases are resolved by plea agreement, in our
review of IPTU case files, we found that only 17 cases of 267 (6 percent)
contained copies of plea agreements and language regarding treaty
transfer recommendations.75 We believe including treaty transfer
recommendations, when appropriate, in plea agreements could increase
participation by making inmates more aware of and interested in the
program.

       We identified two possible reasons why AUSAs do not include
language regarding treaty transfer recommendations in plea agreements.
First, Criminal Chiefs expressed concerns about the transferred inmates
not being required to serve their full sentences after transfer. Second,
Criminal Chiefs said that AUSAs are generally unfamiliar with the treaty
transfer program.

USAOs were not familiar with the 2002 Assistant Attorney General
memorandum explaining the international prisoner transfer program.

     The Assistant Attorney General’s 2002 memorandum described
previously in the background section of this report explained the treaty
transfer program and dispelled some of the misconceptions that AUSAs
had about the program. The misconceptions included the belief that an
inmate will serve a lighter sentence in the home country, a lack of
confidence in the Mexican prison system, and the likelihood that an
inmate will return to the USAO’s jurisdiction and commit new crimes.
The memorandum stated that these misconceptions should not be
reasons for an AUSA to object to a transfer. Finally, the memorandum
warned against blanket USAO policies recommending against transfer
because such policies contravene the United States’ treaty obligations
and Department policy.


       75  The percentage of cases resolved by plea agreements is from U.S. Sentencing
Commission, 2010 Sourcebook of Federal Sentencing Statistics. In our case file review,
we found 244 case files that lacked an AUSA position on treaty transfer in plea
agreements. We did not verify whether the 511 cases we reviewed had involved plea
agreements, only whether the inmates’ treaty transfer case files had evidence of treaty
transfer recommendations made by USAOs.


U.S. Department of Justice                                                           47
Office of the Inspector General
Evaluation and Inspections Division
      However, 10 out of 17 (59 percent) Criminal Chiefs we interviewed
were not familiar with the information provided in the 2002
memorandum. Most said that they had probably read it in 2002 when it
was issued, but had not referred to it since then.

The United States Attorneys’ Manual provides outdated guidance to
AUSAs on the treaty transfer program.

       The USAM, which serves as the main reference for AUSAs
regarding how to conduct their work, contains out-of-date information
and inaccuracies that could make it difficult for them to correctly apply
treaty transfer provisions.76 The 17 Criminal Chiefs we interviewed were
aware that the USAM includes guidance on the treaty transfer program,
and 12 told us they (or AUSAs) refer to the USAM. However, we noted
that the USAM’s list of treaty nations was last updated in 1997 and
omits 41 countries currently identified by IPTU as treaty nations.
Further, IPTU’s Chief told us there were inaccuracies in the USAM’s
guidance on the treaty transfer program and that IPTU had drafted
revisions to the USAM. EOUSA’s Legislative Counsel stated that IPTU
submitted its revisions to EOUSA on June 9, 2011, and EOUSA tabled
the review process until after the OIG’s report was issued so that EOUSA
could incorporate any resulting changes at one time.

       We found IPTU’s proposed revisions to be more detailed than the
USAM’s current guidance. For example, the USAM states that
“jurisdiction over any proceeding to challenge, modify, and/or set aside
the offender’s conviction or sentence remains with the country in which
the sentence was imposed.” In comparison, IPTU’s revised USAM states:

       When a prisoner is transferred, the responsibility for
       administering the sentence belongs exclusively to the
       receiving country. The sentencing country loses jurisdiction
       over the prisoner’s sentence, and violations of the terms or
       conditions of the original sentence, including supervised
       release, cannot be enforced even if the prisoner returns
       illegally to the U.S. after being released from the foreign
       prison.


       76 EOUSA’s Legislative Counsel stated that when a Department component
proposes changes in Department policy, a proposal to modify the USAM is submitted to
EOUSA and the Attorney General’s Advisory Committee for review and submitted for
consideration by the Department official with delegated authority to approve the
proposed changes.


U.S. Department of Justice                                                       48
Office of the Inspector General
Evaluation and Inspections Division
We believe IPTU’s proposed revisions to the USAM would provide AUSAs
more detailed and up-to-date information about the treaty transfer
program.

AUSAs are provided little or no training on the treaty transfer program.

       We found that EOUSA provides little formal training on the treaty
transfer program to USAOs, and the training that is provided is not given
regularly to the AUSAs. We asked our interviewees about treaty transfer
training, and most said AUSAs receive little to no training on the treaty
transfer program. Several Criminal Chiefs stated that the Department
could provide better training and publicity about the program.

       EOUSA provided one example of IPTU’s Deputy Chief participating
in a presentation at the National Advocacy Center in June 2010 entitled,
“International Prisoner Transfer: When A defendant requests to serve a
sentence in his/her home country,” which discussed the treaty transfer
program.77 In addition, EOUSA provides information on its Intranet to
USAOs on the treaty transfer program, including links to the USAM, the
Criminal Resource Manual, and two papers written by the IPTU’s Chief
describing the treaty transfer program. In response to the working draft
of this report, EOUSA now also provides the 2002 Assistant Attorney
General memorandum on its Intranet for USAOs.78

Conclusion

      Based on our analysis, we conclude that the criteria used by IPTU
analysts to determine an inmate’s suitability for transfer are applied
inconsistently. While we acknowledge the unique nature and facts of
each case that IPTU must evaluate, the criteria exist to assist the review
and decision-making for each case. However, we believe that each
analyst should weigh the criteria similarly because doing so would result
in inmates still being evaluated on an individual basis while receiving the
same consideration as other candidates. We also concluded that IPTU’s
denial reasons should be further explained in denial letters. Further, the
lack of a standard reconsideration process presents additional barriers to


       77 The National Advocacy Center is operated by EOUSA to train federal, state,
and local prosecutors and litigators in advocacy skills and management of legal
operations.

       78 OEO is also considering providing materials about the treaty transfer
program to the Federal Public Defender in each USAO district to ensure that each
inmate is aware of the program and how to apply for transfer.


U.S. Department of Justice                                                         49
Office of the Inspector General
Evaluation and Inspections Division
transfer. Because an inmate’s circumstances may change within the 2-
year period, we believe providing a more formalized reconsideration
process will provide more opportunities for an inmate’s consideration for
transfer.

      Although 97 percent of federal criminal cases are resolved by plea
agreements, only 6 percent of the cases we reviewed included treaty
transfer recommendations in plea agreements. We believe including
treaty transfer recommendations, when appropriate, in plea agreements
could increase participation by making inmates more aware of and
interested in the program.

Recommendations

      To ensure inmates know they can obtain more information about
why they were denied treaty transfer and have the opportunity to address
issues that would make them better candidates for transfer, we
recommend that:

       6.	   the BOP and IPTU coordinate with each other to update the
             BOP’s program statement to accurately reflect the process by
             which inmates can obtain more information from IPTU
             regarding the reasons for denial;

       7.	   IPTU fully implement its plan to include in denial letters a
             description of how inmates can obtain further information
             regarding the reasons for denials, as well as information on
             what an inmate can do to become a better candidate for
             transfer, if applicable; and

       8.	   IPTU fully implement its plan for a reconsideration process
             that requires IPTU analysts to follow up on the reasons an
             inmate’s request was denied so that inmates whose
             circumstances change before the 2-year waiting period may
             reapply.

      To ensure AUSAs are knowledgeable about the treaty transfer
program and are aware of the option to include language in a plea
agreement regarding the USAO’s treaty transfer recommendation, we
recommend that EOUSA:

       9.	   work with IPTU to update information available to USAOs
             about the prisoner treaty transfer program through the


U.S. Department of Justice                                                  50
Office of the Inspector General
Evaluation and Inspections Division
            EOUSA Intranet, updates to the USAM, or other appropriate
            means; and

       10. provide USAOs with sample plea agreement language which
           explains that the USAO can agree to recommend or not
           oppose a transfer request while also making clear that the
           determination rests with IPTU and the USAO concession in
           the plea agreement does not bind IPTU.

      To provide another means by which defendants are informed of the
opportunity to apply for treaty transfer, we recommend that EOUSA:

       11. work with IPTU to develop a strategy for communicating to the
           Federal Public Defender and the courts information about the
           availability of the program.




U.S. Department of Justice                                              51
Office of the Inspector General
Evaluation and Inspections Division
     CHAPTER III: FACTORS OUTSIDE OF THE DEPARTMENT’S 

       CONTROL THAT LIMITED THE NUMBER OF INMATES 

                       TRANSFERRED 



       The treaty transfer program is a voluntary program for
       the inmate and the treaty nation, and not all eligible
       inmates want to be transferred. Also, treaty nations do
       not approve all of the transfer requests that IPTU has
       approved. Treaty nations often are not timely in their
       approval of inmates that IPTU has approved for transfer.
       In addition, in FY 2010, about 22 percent of foreign
       nationals in BOP custody were from countries that did
       not have an inmate transfer treaty with the
       United States.


The treaty transfer program is a voluntary program for the inmate
and the treaty nation, and not all eligible inmates want to be
transferred.

       According to 18 U.S.C. § 4107, the treaty transfer program is a
voluntary program and transfers must be approved by the United States
(OEO), the inmate, and the treaty country. If inmates do not apply to the
program or the inmate’s country of citizenship does not approve the
transfer, then there is nothing the Department can do to transfer the
inmate through the treaty transfer program. In interviews, we were told
by OEO, IPTU, and BOP staff that inmates may not want to return to
their home countries for a number of reasons. The reasons included
having no ties the home country, believing prison conditions are better in
the United States than in the home country, or hoping to remain in the
United States after the prison sentence is served rather than being
deported.

Treaty nations do not approve all of the transfer requests that IPTU
has approved.

      We found that some countries, such as Mexico and Canada, are
reluctant to take back their inmate citizens. (See Appendix IX for a
complete list by country of applications, approvals, and transferred
inmates). For example, although IPTU approved the applications of
1,267 Mexican inmates for treaty transfer, only 766 inmates (60 percent)
were transferred to Mexico from FY 2005 through FY 2010.


U.S. Department of Justice                                             52
Office of the Inspector General
Evaluation and Inspections Division
       Mexico’s low approval rate for inmate transfers is attributed to two
factors. First, the Mexican government has stated that its prisons are
overcrowded. Second, as previously discussed, Mexico’s criteria
regarding what inmates it will take back limit the number of Mexicans
transferred. OEO and IPTU officials told us the Department continues to
express its concern over the restrictive criteria used by Mexico. The OEO
and IPTU officials said the Department has made efforts to address
Mexico’s low approval rate, including annual discussions with Mexican
officials, but has been unsuccessful in convincing Mexico to modify its
criteria.79 The IPTU Chief said, “We have expressed consistently that
those criteria are unduly restrictive.” She also explained that there is a
second working group meeting held quarterly with Mexican embassy
officials after a group of inmates is transferred. She added that these
working group meetings are “more a nuts and bolts everyday working
group” at which Mexico’s criteria to accept inmates back are discussed.80

      OEO’s Director said that OEO and IPTU officials also met with
Canadian officials to discuss the number of inmates Canada is willing to
accept. OEO’s Deputy Chief said there has been a decline in transfers to
Canada. An IPTU analyst said that Canada used to take back all
inmates approved for transfer, but that is no longer the case. We found
that although IPTU approved 446 Canadian inmates’ requests for treaty
transfer from FY 2005 through FY 2010, 297, or 67 percent, were
actually transferred. In a 2007 report to Congress, the Attorney General
stated that the increase in the Canadian government’s denials may be
attributed to changes in the Canadian government.81 According to the
Correctional Service of Canada, transfers from the United States to
Canada declined from 82 in FY 2006 to 37 in FY 2007.82



       79  IPTU staff said that annual meetings with Mexican officials usually result in a
slight increase in the number of inmates Mexico accepts, but the number accepted in
subsequent transfers continues to be limited.

       80 Participants of these meetings include the representatives of the Embassy of
Mexico, the Secretariat of Public Safety, Mexican Office of the Attorney General,
U.S. Department of State, and the U.S. Department of Justice (IPTU and the BOP).

       81 Alberto Gonzales, Attorney General, Department of Justice, submission to the
Committees on the Judiciary of the United States Senate and House of Representatives,
concerning “The Effectiveness of the International Prisoner Transfer Treaties to which
the United States was a party in FY 2005 and FY 2006” (April 2007).

       82 Correctional Service Canada, Annual Report on the International Transfer of
Offenders 2008-2009, Annex “A” - Transfers to Canada by Fiscal Year, http://www.csc-
                                                                               (Cont’d.)
U.S. Department of Justice                                                             53
Office of the Inspector General
Evaluation and Inspections Division
      We also found that 71 inmates from Central American countries
were approved for treaty transfer by IPTU, but only 54 percent were
transferred from FY 2005 through FY 2010.83 Overall, foreign country
decisions not to allow their citizens to transfer to their home countries to
serve their sentences limit the Department’s ability to transfer willing
inmates home.

Treaty nations often are not timely in their approval of inmates that
the Department has approved for transfer.

       Once IPTU and the treaty nation have approved an inmate’s
request for transfer, when the inmate actually will be transferred
depends on the treaty nation. From FY 2005 through FY 2010, treaty
nations took 288 days, on average, to approve the transfer of their
nationals after IPTU had approved the inmates’ requests.84 These delays
limit the number of inmates that can be transferred in a given year.
According to IPTU data, from FY 2005 through FY 2010, IPTU approved
652 transfers, but then waited for over a year for the inmates’ countries
to adjudicate the applications. Of the 652 inmates, 427 (66 percent)
were from Mexico, 105 (16 percent) were from Canada, and 120
(18 percent) were from 28 other countries. As a result, in some cases
inmates completed their sentences and were released or withdrew their
applications. Table 3 shows the outcomes of these cases and points out
only 1 inmate had been approved and was awaiting transfer, while 78
were still waiting for a foreign country decision a year after IPTU had
approved their transfer requests.




scc.gc.ca/text/prgrm/inttransfer/2008-09/2008-09-eng.shtml (accessed May 24,
2011).

        Central American countries include Belize, Costa Rica, El Salvador,
       83

Guatemala, Honduras, Nicaragua, and Panama.

       84 These are only requests that were approved by the foreign country. We did
not have data on the date a foreign country denied a request.


U.S. Department of Justice                                                        54
Office of the Inspector General
Evaluation and Inspections Division
    Table 3: Outcomes of Cases Approved by the Department that 

        Waited for Foreign Country Decisions for Over 1 Year 


                Outcome                      Mexico      Canada       Other Countries
Approvals for transfer
  Prisoners transferred                            0           0               0
  Prisoner awaiting transfer                       0           0               1


Outcomes other than approval for transfer
  Denied by foreign country                      269          56              13
  Withdrawal of previous U.S.
                                                 102          20              40
  approval due to impending release*
  Prisoner released                               13          20              36
  Prisoner withdrew application                    1           3               0


Still awaiting foreign country decision           42           6              30
Total                                            427        105             120

* Prisoner was too close to the release date to make the transfer practical, so the
Department withdrew its approval.
Source: IPTU.

      The untimely processing of inmates by treaty nations results in
prisoners who are approved for transfer by the United States spending
more time in BOP custody. In many cases, the United States is required
to withdraw its approval of inmates suitable for transfer because the
treaty nations never approved the cases or did so too late to make
transfers practicable.

In FY 2010, about 22 percent of foreign nationals in BOP custody
were from countries that did not have an inmate transfer treaty
with the United States.

      One of the first eligibility criteria that BOP staff verify is an
inmate’s country of citizenship to determine if it is a treaty nation.
Although the United States has treaties with 76 countries, it does not
have treaties with countries well represented in the BOP’s current inmate
population (such as Colombia, Cuba, and the Dominican Republic).
While the number of inmates from non-treaty countries has decreased
from 17,438 in FY 2005 to 11,789 in FY 2010, these inmates still
represented 22 percent of all foreign national inmates in 2010. Overall,

U.S. Department of Justice                                                            55
Office of the Inspector General
Evaluation and Inspections Division
these inmates represented 107 countries that did not have transfer
treaties with the United States. OEO stated that the State Department
favors the use of multilateral transfer treaties because bilateral treaties
are costly, time consuming to negotiate, and are administered under
different standards. Therefore, should a country choose to enter into a
treaty transfer agreement, it must do so through the Council of Europe
or the Organization of American States.

Conclusion

       Factors outside of the Department’s control limit the number of
inmates that can be transferred from the United States through the
treaty transfer program. Because the program is voluntary, inmates
have the option not to participate and the treaty countries have the
option not to accept their citizens for transfer. In addition, those
countries that have agreed to the transfer of their citizens often take a
long time to do so. Further, a sizeable proportion of the BOP’s foreign
inmate population is not from treaty countries. To transfer them to their
home countries would require the home countries to either join one of
the multilateral treaties or to negotiate a new treaty, which is a costly
and time consuming process. Finally, according to OEO, bilateral
treaties sometimes result in differing standards that make it more
difficult for the central authority to administer.




U.S. Department of Justice                                                56
Office of the Inspector General
Evaluation and Inspections Division
            CHAPTER IV: TIMELINESS AND ASSOCIATED COSTS 



       Delays in the Department’s processing of transferred
       inmates’    applications    resulted    in    unnecessary
       incarceration costs.    We found that the BOP is not
       processing applications in accordance with its program
       statement’s timeliness standards and IPTU is not
       evaluating applications for transfer within the time
       period expected by IPTU management. From FY 2005
       though FY 2010, these delays in processing treaty
       transfer requests have resulted in additional costs to
       incarcerate foreign nationals who were ultimately
       transferred. However, JPATS transportation of inmates
       approved for transfer to departure locations is timely. In
       addition to savings from reducing processing delays,
       potentially significant savings are also possible from
       increasing the participation of eligible inmates in the
       treaty transfer program.


       Application packets for inmates eligible for treaty transfer are
expected to be processed by the BOP and IPTU within a total of 160 days.
The BOP and IPTU officials told us that the treaty transfer request,
including processing the application packet, begins the date the inmate
signs the transfer inquiry form indicating an interest in the program.85
The BOP’s Central Office must forward the packet to IPTU within 10 days
of receiving it from the prison. IPTU does not have formal timeliness
standards for approving or denying transfer requests, but IPTU
management indicated that evaluating transfer requests should take no
more than 3 months (90 days).

      We found that during the 6-year period from FY 2005 through
FY 2010, the actual average time to complete, review, and evaluate all
requests for transfers was 351 days. The total time to complete
application packets for the 1,425 inmates actually transferred was less –
269 days.86


       85 The BOP’s revised program statement specifies that the application packet
must be forwarded within 60 days of the inmate’s signing of the transfer inquiry form.

       86   There were 2,207 applications approved for transfer from FY 2005 through
FY 2010.


U.S. Department of Justice                                                             57
Office of the Inspector General
Evaluation and Inspections Division
      In the following sections, we discuss factors that cause delays and
the costs associated with those delays.

The BOP is not processing applications in accordance with its
program statement’s timeliness standards.

      From FY 2005 through FY 2010, BOP prisons completed
application packets in an average of 209 days, not the 60 days specified
in the BOP’s program statement (see Figure 4).

  Figure 4: Average BOP Processing Times for Application Packets,
                     FY 2005 through FY 2010

           300

           250

           200
    Days




           150

           100

            50

            0
                  2005      2006      2007   2008    2009      2010
           Days   197       238       212    175      203      230

  Source: BOP data.

For just the 1,425 inmates who were actually transferred, BOP prisons
completed application packets more quickly, in 121 days on average. We
could not determine from the information available to us why it took the
BOP less time to process application packets for those inmates actually
transferred.

       We found that case managers were not aware that the 60-day
requirement to complete application packets was not being met. For
example, 28 of 31 (90 percent) case managers told us that they believed
the timeliness requirement was met. However, the Senior Program
Specialist who manages the BOP’s role in the treaty transfer program
said some prisons are in the learning process and some institutions
“don’t even know what they are doing yet.” She added that case

U.S. Department of Justice                                             58
Office of the Inspector General
Evaluation and Inspections Division
managers are correctional officers and that ensuring safety within the
prisons is a higher priority than completing the application packets in 60
days. The Assistant Administrator, Correctional Programs Division, and
the Senior Program Specialist both said the numerous roles case
managers fulfill may distract them from processing applications.87

       We also found that preparing transfer application packets is not
consistently a priority for case managers. One case manager said he did
not want to have to put together a transfer request packet and then have
it denied. Another case manager said that every once in a while an
application packet “will slip” past the 60-day requirement.

       The Assistant Administrator and Senior Program Specialist said
that the BOP does not analyze whether institutions are meeting the 60-
day processing requirement because that should be part of the individual
prison’s oversight process. The Senior Program Specialist said that if she
happens to become aware of an application that has not been processed
within 60 days she will call the case manager’s coordinator to “kind of
light the fire.” She said that if a case manager does not complete the
application after multiple requests, she contacts the unit manager who
supervises the case manager. The Administrator, Correctional Programs
Division, said she does not think the BOP can enforce timeliness
standards because of extenuating circumstances, such as prison
lockdowns, which require support from all prison personnel, including
case managers who are also correctional officers.

      When we spoke with IPTU staff about the BOP’s timeliness in
processing applications, they provided examples of instances in which
the 60-day requirement was not met. IPTU’s Deputy Chief said that, at
times, an inmate’s attorney or consulate has informed IPTU that an
inmate was interested in the program and IPTU has had to request an
application packet from the BOP. An IPTU analyst said she had to
request application packets from the BOP and that she had reviewed
transfer inquiry forms that showed that long periods of time had elapsed
between the inmate signing the transfer inquiry form and IPTU actually
receiving the application packets from the BOP. In our case file review,

       87  Case managers told us their responsibilities included an inmate’s intake
screening; initial classification; custody classifications; program reviews; sentence
computation; halfway house placement; release preparation; relocation; educational,
recreational, religious programming; resolving fines with the courts; victim and witness
notification; inmate discipline; inmate central file reviews and audits; inmate visitation;
relieving correctional officers; acting as a team or unit supervisor; and conducting
training.


U.S. Department of Justice                                                              59
Office of the Inspector General
Evaluation and Inspections Division
we found cases that took as long as 2 years for the application package
to arrive at IPTU after the inmate signed the transfer inquiry form
indicating an interest in transfer.

      We also found that processing is sometimes delayed when
application packets are lost in the system, but we were unable to
determine how widespread this problem is. In reviewing e-mail
correspondence between the BOP and IPTU, we found two references to
missing BOP application packets. In one of those instances, the IPTU
analyst said, “I hope we don’t have another missing application here.”

      In contrast to prison application packet processing time, the BOP’s
program statement states that the Central Office must forward requests
to IPTU within 10 days, and we found that on average, requests are
forwarded within 2 days. The Assistant Administrator said that when
the Central Office receives an application packet from an institution, she
and the Senior Correctional Program Specialist check that the required
documents are included. The application packet then goes to a
management analyst, who mails it to IPTU.

      We attribute BOP case managers’ untimeliness in processing treaty
transfer application packets to their prioritizing other responsibilities
above treaty transfer, and we found no evidence of an oversight process
for completing treaty transfer packets. We believe that the BOP should
consider accountability measures to ensure that each case manager
accurately prepares application packets in 60 days.

IPTU is not evaluating applications for transfer within the time
period expected by IPTU management.

       We found that IPTU has not established time guidelines for
evaluating transfer applications. However, the IPTU Chief said, “In an
ideal world, it is important that all cases be processed within 3 months of
being assigned.” The IPTU Chief communicated the 3-month expectation
to the IPTU staff on December 22, 2008, by e-mail. The IPTU Deputy
Chief said IPTU’s 90-day timeframe was based on IPTU’s experience in
evaluating requests and what it had found to be a reasonable amount of
time for agencies to respond to IPTU requests for information. However,
we found IPTU evaluates application packets in 140 days, on average.88
(See Figure 5 for IPTU’s evaluation times year by year.)

       88  Our analysis of IPTU’s processing time was based on the date IPTU received
an application packet from the BOP to the date IPTU made a decision regarding the
inmate’s transfer.


U.S. Department of Justice                                                          60
Office of the Inspector General
Evaluation and Inspections Division
  Figure 5: IPTU Average Time to Evaluate All Application Packets, 

                     FY 2005 through FY 2010 


         200
         180
         160
         140
         120
  Days




         100
          80
          60
          40
          20
              0
                  2005     2006        2007         2008        2009        2010
         Days     177       154         155          97         120         136

   Source: IPTU data.

      There was no significant difference in processing times for
applications that were approved versus those that were denied. For the
1,425 inmates who were actually transferred from FY 2005 through
FY 2010, IPTU took an average of 142 days to evaluate the requests.

      The IPTU Chief said that analysts varied in how quickly they
evaluate application packets. An IPTU analyst said that the time it takes
to evaluate an application packet depends on the type of offense, the
length of the pre-sentence investigation report, the time required to
obtain any documents from the BOP that are missing from the
application packet, and the time it takes to get information from the
USAOs and the law enforcement agencies.

      IPTU has few staff to evaluate application packets. From FY 2005
through FY 2010, IPTU had nine staff members evaluating application
packets.89 Therefore, according to IPTU data, IPTU analysts each
evaluated 152 cases per year, on average, during FY 2005 through
FY 2010. IPTU’s Chief said she reviews analysts’ caseloads on a monthly
basis to manage the overall workload because some analysts work
quickly and others work slowly. However, this practice tracks only

          One IPTU analyst reviews only cases of Americans incarcerated in foreign
         89

countries requesting transfer to the United States.


U.S. Department of Justice                                                           61
Office of the Inspector General
Evaluation and Inspections Division
workload distribution, not the timeliness of an analyst’s evaluation of
individual application packets.

       We also found that IPTU analysts have other responsibilities that
could reduce their ability to evaluate application packets within 90 days.
The IPTU Deputy Chief said IPTU analysts use 2 of every 5 workdays to
respond to inquiries about transfer requests from inmates and from
inmates’ attorneys, friends, and family members. IPTU analysts also
communicate, meet, and train officials from countries having inmate
transfer relationships with the United States; and coordinate the transfer
of inmates to foreign authorities. The IPTU Chief said IPTU attorneys are
liaisons between IPTU and the treaty nations and states with treaty
transfer programs and must address any legal issues that arise in this
context. She also said that IPTU’s three Paralegal Specialists, who
evaluate inmate transfer requests, are also responsible for the
coordination of the consent verification hearings, Freedom of Information
Act requests, and statistical reports of IPTU activity. IPTU’s Deputy Chief
said he is unsure how to speed up the evaluation process within IPTU
because of the small staff and many responsibilities, as well as the time
it takes USAOs and law enforcement agencies to respond to IPTU
requests on specific transfer requests.90

      We attribute some of IPTU’s untimeliness in evaluating treaty
transfer requests to a lack of analysts, the additional responsibilities
analysts have to accomplish, as well as the lack of a system to track
analysts’ evaluation of application packets. We believe IPTU should
implement a system to track IPTU analysts’ evaluation of application
packets. In response to the working draft of this report, IPTU instituted
a formal requirement that analysts evaluate transfer applications within
90 days. In addition, IPTU has instituted a tracking system to monitor
the progress of cases. The Director of OEO requested that the Criminal
Division’s Information Technology Management Office modify IPTU’s
databases to enable them to generate a report showing how long a case
had been pending with each analyst.

USAO responses to IPTU are in compliance with Department policy.

      An August 2, 2002, memorandum from the Criminal Division’s
Assistant Attorney General directed AUSAs to respond to IPTU’s requests

       90  IPTU’s Chief said that IPTU would not be able to do what it does without
interns. Although IPTU could not provide exact data, the OIG was told that from
FY 2005 through FY 2010, IPTU generally had several unpaid undergraduate and law
school interns on detail reviewing and processing transfer requests.


U.S. Department of Justice                                                        62
Office of the Inspector General
Evaluation and Inspections Division
for information within 3 weeks (21 days) of receiving the request.91 In
addition, Chapter 9-35.010 of the United States Attorneys’ Manual,
Criminal Resource Manual 736, states that “any relevant facts and
recommendations that are requested by IPTU must be responded to no
later than 3 weeks from the date the fax transfer request was sent from
the IPTU.”92

       We found that, much like IPTU analysts weigh suitability criteria
differently, IPTU analysts also consider USAO responses to information
requests differently. Some IPTU analysts said they will move forward
with their evaluation of an inmate for transfer without a response from
the USAO, but some will wait for a USAO response before making a
recommendation for transfer. However, IPTU officials and staff also said
their evaluation of application packets is delayed because of the time
USAOs take to respond to IPTU requests on specific transfer requests.
OEO’s Director said that he believed that a large percentage of USAO
responses took longer than the 3 weeks IPTU expected. The IPTU Deputy
Chief said that AUSAs’ trial schedules affect how long it takes for them to
respond to IPTU. One IPTU analyst said she had to send multiple
requests for information to USAOs, usually within 2 weeks of the original
request. Another IPTU analyst said that she sends facsimiles to the
USAO, waits about 2 weeks, and sends another facsimile with an
“expedited - 2nd request” stamp. She said she also sends e-mails and
calls the USAO’s Criminal Chief.

      In our review of a sample of 284 responses by USAOs, we found
that 227 (80 percent) of USAO responses were within the 21-day
requirement. However, 57 responses (20 percent) exceeded the 21-day
requirement by an average of 65 days.

      Although we found that 80 percent of the USAO responses to IPTU
requests in our sample of case files were timely, we did not find a USAO



       91 According to the USAM, after the expiration of this 3-week period, if IPTU has
not heard from the affected USAO, IPTU will assume that the prisoner has no pending
appeals or collateral attacks and that the USAO has no objection to the transfer. The
USAM also states that this policy is intended to assist in avoiding unnecessary delays in
processing transfer applications.

       92  Information on the treaty transfer program was last updated in the United
States Attorneys’ Manual in November 2002. Chapter 9-35.010, Introduction, also says,
“generally, any relevant facts and recommendations that are requested by IPTU must be
supplied promptly (which, absent compelling factors, is within ten days of the request).”


U.S. Department of Justice                                                            63
Office of the Inspector General
Evaluation and Inspections Division
response in 44 percent of the files.93 We believe USAOs may not always
respond to IPTU because the form sent to USAOs from IPTU requesting
information does not reflect the USAM requirement that USAOs must
respond within 21 days and does not state that failure to respond will be
considered as no objection to the transfer request. In addition, while
some IPTU analysts will move forward on their evaluation without a
response from a USAO, others will delay their evaluation to wait for a
USAO response. Our analysis of USAO responses to IPTU found that
waiting for a USAO to respond could add as much as 2 months to an
analyst’s evaluation of an inmate’s request to transfer, if the analyst
receives a response at all. To improve the response rate from USAOs,
IPTU should update its information request form to reflect the USAM
requirement. Further, to avoid delays, IPTU analysts should proceed
with processing applications upon expiration of the 21-day deadline.

Law enforcement agencies’ responses to IPTU requests for information
generally are timely.

       IPTU officials and staff also said their reviews are delayed by the
time law enforcement agencies take to respond to IPTU requests for
opinions on transfer requests.94 Although there are no timeliness
requirements for law enforcement agencies to respond, the IPTU Chief
said IPTU analysts are to consider the responses on the same standard
as USAO responses (21 days). She said that when IPTU has met with
law enforcement agencies “every once in a while,” timeliness has been
discussed, but no formal memorandum establishes timeliness standards.
The information request form IPTU sends to law enforcement agencies
does not specify a deadline for responding and does not state that failure
to respond will indicate to IPTU that the law enforcement agency has no
objection to the requested transfer. In our review of IPTU case files, we
found law enforcement agencies responded to IPTU requests in 12 days,
on average.95 In our review of a sample of 306 law enforcement

        93 Of the 511 cases we reviewed, we found no USAO response in 227 cases. We

could not determine from the file whether the reason no response was provided was
related to the lack of an inquiry from IPTU or attributable to the USAOs’ failure to
respond.

       94 The law enforcement agencies include Immigration and Customs
Enforcement, Drug Enforcement Administration, Federal Bureau of Investigation,
Bureau of Alcohol, Tobacco, Firearms and Explosives, United States Postal Service, and
Coast Guard.

       95 Of the 511 cases, the team did not find a response from law enforcement
agencies in 205 cases.


U.S. Department of Justice                                                          64
Office of the Inspector General
Evaluation and Inspections Division
responses, 25 (8 percent) exceeded the 21-day requirement by an average
of 70 days.

Conclusion

       Based on our case file review, we conclude that the USAOs and law
enforcement agencies, when they respond to IPTU requests for
information, are generally timely. However, while some IPTU analysts
will move forward on their evaluation without a response from a USAO,
others will delay their evaluation to wait for a USAO response. In
addition, since the information request forms sent to the USAOs and to
law enforcement agencies do not specify a deadline to respond to IPTU or
state that failure to respond will indicate the agency has no objection to
the transfer, IPTU cannot ensure that it will receive a response in a
timely manner or at all. As a result, we concluded the USAOs and law
enforcement agencies contribute to but are not the primary factor
causing delays in IPTU’s evaluation of application packets. IPTU should
update its information request forms to reflect a response deadline and
note that failure to respond will result in IPTU assuming there is no
objection to transfer.

JPATS transportation of inmates approved for transfer to departure
locations is timely.

       In a sample of 224 inmates transported to departure locations by
JPATS, we found that inmates arrived at the departure location at or
before the established deadline.96 According to JPATS data, on average,
the inmate is transported 15 days after the prison makes the request. Of
the 191 cases with a specific deadline, JPATS met the trip deadline, on
average, 10 days ahead of schedule. However, seven cases exceeded the
specified trip deadline by an average of 6 days. Overall, JPATS was
timely.

From FY 2005 though FY 2010, delays in processing treaty transfer
requests have resulted in additional costs to incarcerate foreign
nationals that are ultimately transferred.

      We found that processing transfer requests within required or
expected time standards would reduce incarceration costs. The OEO

       96  Deadlines are established by the prison housing the inmate and requesting
the inmate be moved. The deadline is established based on when the consent
verification hearing is scheduled and when treaty nation representatives are available to
pick up the inmate at the departure location.


U.S. Department of Justice                                                            65
Office of the Inspector General
Evaluation and Inspections Division
Director said there are obvious fiscal benefits to the treaty transfer
program: if an inmate is transferred out of the BOP’s system, the BOP
no longer pays the costs for incarcerating the inmate. The IPTU Chief
said that inmate transfer treaties create an economic benefit to the
U.S. government by reducing the number of inmates confined in prisons
and that for every inmate transferred the federal government recognizes a
savings equal to the cost of imprisoning that person for the remainder of
the inmate’s sentence.

      Although the BOP does not track the specific costs associated with
completing and reviewing application packets for inmates applying for
treaty transfer, the BOP did provide cost estimates for maintaining
custody of a foreign national. (For detailed cost estimates provided by
the BOP, see Appendix X.) Using the BOP’s cost estimates, in FY 2010,
the total cost to incarcerate foreign national inmates from treaty nations
was $1.01 billion.97 We also found that from FY 2005 through FY 2010,
the total cost to incarcerate foreign national inmates in the treaty
transfer program, as indicated by interest on the treaty transfer inquiry
form, was $242 million, averaging $34 million a year.98

       As stated above, the average time to complete requests for transfer
is 351 days rather than the 160 days set by BOP policy and IPTU
expectations. We assessed the overall costs associated with
incarcerating those foreign national inmates who were ultimately
transferred beyond the established standard processing times for the
BOP and IPTU to complete application packets and evaluate the
suitability of the inmate. We found that, from FY 2005 through FY 2010,
the additional costs incurred to incarcerate just those inmates ultimately
transferred, because of delays in processing applications, beyond the
standard times totaled about $15.4 million. Approximately $7.9 million
of that amount was incurred during the time the BOP exceeded
standards for completing and reviewing application packets, and about
$7.5 million was incurred during the time that IPTU exceeded standards
for evaluating inmates’ suitability for transfer. The average annual delay
cost for the 1,425 inmates actually transferred was $2.5 million, for a

        97 Our calculation is based on an annual incarceration cost of $25,627 per

inmate in 2010 and includes 39,481 inmates. Our calculation excludes 1,170 inmates
(out of the total 40,651 treaty nation inmates) that did participate in the treaty transfer
program in FY 2010.

       98 BOP estimates indicate the annual cost for a non-citizen inmate averages
$21,984 at a low security prison, $23,605 at a medium security prison, and $22,323 at
a contract prison.


U.S. Department of Justice                                                               66
Office of the Inspector General
Evaluation and Inspections Division
$15.4 million total during the 6-year period of our review.99 The funds
spent housing and caring for inmates during the delays in processing the
treaty transfer requests could have been put to better use in meeting
other BOP expenses.

       In response to a working draft of this report, the BOP stated that to
calculate the cost associated with delays in processing transfer requests,
the OIG should have used an annual marginal cost of $9,187 per inmate,
which the BOP defines as the direct care cost incurred by the BOP to
house an inmate, which includes the cost of feeding, clothing, and
providing medical care for an inmate. However, the BOP reported in the
Federal Register that the fee to cover the average cost of incarceration for
a single inmate was $24,922 in FY 2007, $25,895 in FY 2008, and
$25,251 in FY 2009.100 Further, in FY 2010, the BOP used $25,627 to
justify its annual budget submission to the Department rather than
marginal cost. Therefore, we calculated costs using the total average
cost of incarceration ($25,261) for the 6-year period of our review rather
than the marginal cost proposed by the BOP.101 Further, if we had used
the marginal cost as the BOP proposed, the delay costs for the 1,425
inmates actually transferred during the 6-year period of our review would
total $5.4 million, which we believe is still substantial.

Increased use of treaty transfers could provide cost savings and
affect recidivism in the United States.

Increasing the availability of treaty transfer to eligible inmates could
produce substantial savings.

       Increasing the number of inmates allowed to serve their sentences
in their home countries has the potential to provide cost savings. First,
the number of potentially eligible inmates from treaty nations that have
not been given the opportunity to participate in the treaty transfer
program may be considerable. As described previously, in our review of
52 cases in which the BOP had determined that interested inmates were
ineligible, we found 9 cases (17 percent) in which BOP case managers

       99  The estimates are daily costs only. They do not include additional
institution-related expenses such as telephone charges, information technology
support, and Central Office staff.

       100 Annual Determination of Average Cost of Incarceration; A Notice by the
Prisons Bureau, 73 Fed. Reg. 33853 (Jun. 13, 2008); 74 Fed. Reg. 33279 (Jul. 10,
2009); 76 Fed. Reg. 6161 (Feb. 03, 2011).

       101   See Appendix VI for more detail on our methodology.


U.S. Department of Justice                                                          67
Office of the Inspector General
Evaluation and Inspections Division
may not have accurately applied the program eligibility criteria.102
Although we do not project this error rate to the 67,455 requests denied
by the BOP, it nonetheless shows that the number of interested inmates
who could have been forwarded to IPTU may be large. Had those
interested inmates’ applications been forwarded to IPTU, some may have
been determined suitable candidates for transfer. Moreover, we found
that BOP case managers and inmates have limited knowledge of the
treaty transfer program, and better educating BOP staff and inmates
from treaty nations could increase the number of inmates who request to
be transferred.

       The potential cost savings from educating inmates and allowing
more of them the opportunity to transfer to their home countries could
be significant. As of FY 2010, there were 39,481 inmates from treaty
nations in BOP custody who did not participate in the treaty transfer
program. Not all of those inmates are appropriate transfer candidates
and there are factors outside of the Department’s control that could limit
the potential cost savings, including the fact that the program is
voluntary; treaty nations may not take back their citizens who are
approved by the Department; and most importantly, Mexico has
restrictions that prohibit the eligibility and suitability of Mexican
inmates. However, if only 1 percent of the inmates (395) applied and
were transferred to serve their sentences in their home countries, the
BOP could potentially save $10.1 million in annual incarceration
costs.103 Similarly, if 3 percent (1,184) or 5 percent (1,974) of the
inmates applied and were transferred to serve their sentences in their
home countries, the BOP could potentially save $30.4 million or
$50.6 million, respectively, in annual incarceration costs. Further,
reductions in prison populations would help to reduce the level of
overcrowding in BOP facilities, which are currently 35 percent over
capacity, according to the BOP.104



        102 We selected a sample of 52 transfer requests rejected by the BOP for

analysis. Our sample selection methodology was not designed with the intent of
projecting our results to the 67,455 inmates determined ineligible for treaty transfer.

       103 The cost savings are based on an annual incarceration cost of $25,627 per

inmate in 2010. The potential incarceration savings calculation is based on 39,481
inmates because it excludes 1,170 inmates (out of the total 40,651 treaty nation
inmates) that did participate in the treaty transfer program in FY 2010.

         Harley G. Lappin, Director, BOP, before the United States Sentencing
       104

Commission (March 17, 2011).


U.S. Department of Justice                                                                68
Office of the Inspector General
Evaluation and Inspections Division
Only a small percentage of inmates transferred to their countries of
citizenship re-enter the United States and commit additional crimes.

       The treaty transfer program seeks to transfer inmates that are less
likely to return to the United States, and that has been the case with
inmates transferred to date. To determine recidivism rates within the
treaty transfer program, we asked the Federal Bureau of Investigation
(FBI) for arrest data from its Interstate Identification Index (III) for 1,100
transferred inmates.105 We then calculated the rate of recidivism based
on the date of re-arrest within 3 years of the date of transfer. Based on
these parameters, we found that of 1,100 foreign national inmates
transferred during our 6-year review period, only 33 (3 percent) later
returned to the United States and were re-arrested within a 3-year
period. According to the FBI’s III data, the crimes for which these
individuals were arrested included immigration offenses, drug offenses,
and assault offenses. Table 4 shows the number of inmates that
returned to the United States and were re-arrested.106

       Table 4: Transferred Inmates Re-Arrested After Transfer,
                         FY 2005 through FY 2010
               Fiscal
                Year      Transferred      Re-Arrested       Percentage
                2005          243                2               1%
                2006          199                3               2%
                2007          197                8               4%
                2008          157                8               5%
                2009          153                8               5%
                2010          151                4               3%
                Total        1,100              33               3%

              Source: IPTU and FBI data.

      While some transferred inmates returned to the United States and
committed additional crimes, we believe the 3-percent recidivism rate
among treaty transfer inmates is comparatively low. We recognize that
the 3-percent recidivism rate for transferred inmates applies only to

       105 There were 1,425 inmates transferred, but we could match only 1,100 of
them against the FBI’s III, which is a database of criminal justice information that
includes immigration violators.

       106Twenty-two of the 33 inmates (67 percent) were from Mexico. The remaining
inmates were from Canada (3), France (4), Israel (3), and Panama (1).


U.S. Department of Justice                                                             69
Office of the Inspector General
Evaluation and Inspections Division
crimes committed by those who returned to the United States and re-
offended, and some others may have re-offended in their home countries
or in third countries. Nonetheless, the effect is a relatively low incidence
of recidivism within the United States by transferred inmates. In
comparison, the overall recidivism rate for prisoners released into the
United States is 68 percent, according to the Bureau of Justice
Statistics.107 Additionally, the OIG found that 73 of 100 criminal aliens
who were released from state or local custody were arrested at least once
after the date of release.108 Consequently, we believe that increased use
of treaty transfer has the potential to decrease recidivism in the United
States.

       Although we consider the 3-percent rate of recidivism of treaty
transfer inmates to be low, IPTU officials believe it is too high. IPTU’s
Deputy Chief said that recidivism of any kind is a “political risk” to IPTU.
He said that IPTU has to account to Congress, the U.S. Attorneys, and
the public for the inmates that are transferred, return, and commit
additional crimes. He added that recidivism of any kind makes it
difficult to gain support from the AUSAs for future transfer requests or
have the public support the program. While the OIG recognizes that
increasing transfers could result in some increase in the number of
prisoners who return to the United States and re-offend, the relative risk
of releasing that same inmate population directly into the United States,
or even deporting them to their home countries with no notice or control,
represents a far greater risk.

Conclusion

      Delays in the processing of transferred inmates’ applications have
caused unnecessary incarceration costs to the Department. We attribute
BOP case managers’ untimeliness in processing treaty transfer
application packets to their prioritizing other responsibilities over treaty
transfer. We believe that the BOP should consider accountability
measures to ensure that each case manager accurately prepares
application packets in 60 days. In addition, we attribute IPTU’s
untimeliness in evaluating treaty transfer requests to a lack of analysts
to address caseloads, additional responsibilities each analyst has, and

         107   Bureau of Justice Statistics, Recidivism of Prisoners Released in 1994 (June
2002).

          U.S. Department of Justice Office of the Inspector General, Cooperation of
         108

SCAAP Recipients in the Removal of Criminal Aliens from the United States, Audit Report
07-07 (January 2007).


U.S. Department of Justice                                                               70
Office of the Inspector General
Evaluation and Inspections Division
delays in waiting for USAO and law enforcement responses to
information requests.

      Given current practices, BOP and IPTU delays in processing
applications and evaluating inmates’ suitability for transfer cost
$15.4 million in added incarceration costs for inmates ultimately
transferred from FY 2005 through FY 2010. The time for the BOP and
IPTU to make determinations and complete overall case processing
exceeds internal target time periods for inmates ultimately transferred.
Reducing case processing time to the target time frames, even for the
small number of inmates currently being transferred, would result in
cost savings. Further, increasing the participation of inmates from treaty
nations in the transfer program has the potential to result in significant
cost savings.

        We consider the 3-percent rate of recidivism of treaty transfer
inmates to be low in comparison to the overall 68-percent recidivism rate
for all prisoners released into the United States and the 73-percent
recidivism rate of criminal aliens who were released rather than being
removed to their home countries. Further, while the OIG recognizes that
increasing transfers could result in some increase in the number of
prisoners who return to the United States and re-offend, the relative risk
of releasing that same inmate population directly into the United States,
given the high recidivism rate for such inmates, or even deporting them
to their home countries with no notice or control, represents a far greater
risk.

Recommendations

      To minimize delays in processing treaty transfer requests and
avoid the Department spending unnecessary funds such as the
$15.4 million incurred by the BOP and IPTU for processing delays, we
recommend that:

       12. the BOP establish reporting requirements to measure the
           timeliness for completing application packets at all prisons,
           including contract prisons, as a measurable element of case
           manager performance reviews;

       13. IPTU fully implement formal timeliness requirements for
           evaluating treaty transfer requests and institute a system to
           track IPTU analysts’ evaluation of application packets; and



U.S. Department of Justice                                                 71
Office of the Inspector General
Evaluation and Inspections Division
       14. IPTU update its information request forms for USAOs and law
           enforcement agencies to request responses within 21 days and
           state that failure to respond will result in IPTU proceeding
           with its evaluation under the assumption the agency has no
           objection to the transfer.




U.S. Department of Justice                                          72
Office of the Inspector General
Evaluation and Inspections Division
                 CONCLUSION AND RECOMMENDATIONS 



      Although the Department’s treaty transfer program is an important
program that could help the Department relieve overcrowding in the
BOP’s prisons, reduce incarceration costs, and facilitate inmates’
rehabilitation into society, less than 1 percent of inmates from treaty
nations in BOP custody were transferred in FY 2010. While we
acknowledge that the number of inmates who are eligible or suitable for
transfer is limited by restrictions established in the treaties, specifically
those in the bilateral treaty with Mexico, we found that many inmates
whose requests were denied were likely eligible to be transferred. We
believe improvements can be made to more effectively manage and
increase participation in the treaty transfer program.

      First, the BOP does not communicate effectively with inmates
about the treaty transfer program. Although the BOP appears to inform
inmates about the program, the inmates often do not fully understand
because of language barriers. The BOP must improve its ability to
effectively communicate with foreign national inmates, particularly those
who speak languages other than English, French, and Spanish. In
addition, the BOP is not informing many inmates that were previously
not interested in treaty transfer that they may still be eligible if they
become interested in transfer. Also, the BOP does not remind those
inmates whose requests were previously denied of re-application dates
during program reviews. We think that by continually making the
inmates aware of the treaty transfer program, whether through prison
handbooks or verbal reminders, the BOP will be able to increase interest
in the program and provide additional opportunities for those previously
denied. By actively engaging inmates in conversation about the program
in languages the inmates understand, we believe the BOP will provide
inmates with more opportunities to learn about the treaty transfer
program.

       Further, in those instances where treaty provisions do not
disqualify inmates, case managers may not be determining inmates’
eligibility for treaty transfer correctly because the BOP’s program
statement does not accurately reflect eligibility requirements contained in
the treaties. For example, our review of treaty transfer agreements found
that only Mexican inmates are ineligible for treaty transfer if they have a
collateral attack in progress, while inmates who are citizens of other
nations are not subject to that provision, which is not explained in the
BOP’s program statement. Consequently, some inmates are improperly
denied.

U.S. Department of Justice                                                73
Office of the Inspector General
Evaluation and Inspections Division
       While the BOP recognizes the need for changes in its treaty
transfer program statement and has issued a revised program statement,
the revised version does not address all the weaknesses we found. We
believe any subsequent revisions to the program statement may take
significant time to implement because it would require negotiation with
the BOP’s union. Any delay in implementation of an accurate program
statement will result in unnecessary incarceration costs to the BOP for
those inmates who might be determined eligible and ultimately approved
for transfer. These issues must be addressed if more inmates are to be
provided the opportunity to apply to the program.

      Also, the BOP’s treaty transfer training for case managers is 

inadequate. In addition, according to 28 C.F.R. Ch. 5 § 527.44, BOP 

management is only required to verify that the inmate is qualified for 

transfer. However, of the 18 prison management officials we 

interviewed, only two verified an inmate’s eligibility. Further, BOP 

management’s review of ineligible determinations was insufficient. 

Consequently we believe management should review both eligible and 

ineligible determinations. 


      Second, based on our analysis, we conclude that the criteria used
by IPTU analysts to determine an inmate’s suitability for transfer are
applied inconsistently. We understand that IPTU must evaluate inmates
on an individual basis. However, we believe IPTU should consider
requiring its analysts to weigh the criteria they use in the same way.
Each denial reason should be further defined, and the associated
explanation should be carefully evaluated to ensure the reasons
underlying the denial serve the fundamental purpose of the treaty
transfer program. By doing so, we believe inmates will still be evaluated
as individual cases while receiving the same weighted considerations as
other candidates.

       We found the denial letters in our sample of case files listed the
reasons for denial but were not detailed. We believe that providing more
detailed explanations in initial denial letters can ensure the inmates are
better candidates when they next apply.

      We believe that the lack of a standard reconsideration process
presents additional barriers to transfer. Because an inmate’s
circumstances may change during the 2-year waiting period, we believe
providing a formal reconsideration process will provide more
opportunities for an inmate’s consideration for transfer.



U.S. Department of Justice                                              74
Office of the Inspector General
Evaluation and Inspections Division
      Third, we found that USAOs rarely include treaty transfer
recommendations in plea agreements and AUSAs are generally
unfamiliar with the treaty transfer program. By including treaty transfer
language in plea agreements, more foreign nationals may become aware
of and interested in the program.

       Fourth, factors outside of the Department’s control limit the
number of inmates that can be transferred through the program.
Because the program is voluntary, inmates can choose not to participate
and the treaty nations can decline to accept their citizens for transfer. In
addition, those nations that agree to the transfer of their citizens took a
long time to do so. Further, a sizeable number of foreign inmates are not
from treaty nations. For example in 2010, 11,789 inmates (22 percent of
all foreign national inmates) were not from treaty nations. For the non-
treaty nation inmates to be given the opportunity to transfer would
require new treaties to be negotiated, which we were told would be a
lengthy and costly process.

       We also found that the Department’s processing of application
requests was untimely and resulted in an additional $15.4 million in
incarceration costs for those inmates ultimately transferred. The time for
the BOP and IPTU to make determinations and complete overall case
processing exceeds internal target time periods for inmates ultimately
transferred. We attribute BOP case managers’ delays in processing
treaty transfer application packets to their prioritizing other
responsibilities over treaty transfer. The BOP should consider
accountability measures to ensure that each case manager accurately
prepares application packets in a timely manner. In addition, we
attribute IPTU’s delays in evaluating treaty transfer requests to a lack of
analysts to address caseloads, the additional responsibilities each of the
limited number of analysts has to accomplish, and analysts waiting for
USAOs and law enforcement agencies to respond to information
requests. IPTU should establish timeliness standards to encourage
existing staff to ensure that processing applications in a timely manner is
a priority. Reducing case processing time to the target time frames, even
for the small number of inmates currently being transferred, would
result in cost savings.

      We conclude that the potential cost savings from educating
inmates and allowing more of them the opportunity to transfer to their
home countries could be significant. If only 1 percent of the inmates
(395) applied and were transferred to serve their sentences in their home



U.S. Department of Justice                                               75
Office of the Inspector General
Evaluation and Inspections Division
countries, the BOP could potentially save $10.1 million in annual
incarceration costs.109 Similarly, if 3 percent (1,184) or 5 percent (1,974)
of the inmates applied and were transferred to serve their sentences in
their home countries, the BOP could potentially save $30.4 million or
$50.6 million, respectively, in annual incarceration costs. While the
majority of inmates may be ineligible, these estimates show that
significant savings may be achieved with only modest increases in
participation. Reduction in prison population also would help to reduce
overcrowding in BOP facilities.

       Finally, in considering the impact of the treaty transfer program on
recidivism in the United States, we found the rate of recidivism for treaty
transfer inmates to be low compared with the overall rate for prisoners
released into the United States and for criminal aliens who were released
rather than being removed to their home countries. While the OIG
recognizes that increasing transfers could result in some increase in the
number of prisoners in the program who return to the United States and
re-offend, recidivism data show that the risk of releasing criminal aliens
directly into the United States is far greater.

      Below, we restate our overall recommendations for improving the
treaty transfer program.

Recommendations

      To ensure inmates fully understand the treaty transfer program,
we recommend the BOP:

       1.	   make all documents related to the treaty transfer program
             available to staff on the BOP internal Intranet for all treaty
             nation languages; and

       2.	   update its policies to require BOP staff to discuss the treaty
             transfer program at each program review.

      To reduce erroneous determinations and ensure denials are limited
to cases where transfer is inappropriate, and to ensure that the BOP’s
program statement is accurate, staff are trained on eligibility criteria,


       109 The cost savings are based on an annual incarceration cost of $25,627 per
inmate in 2010. The potential incarceration savings calculation is based on 39,481
inmates because it excludes 1,170 inmates (out of the total 40,651 treaty nation
inmates) that did participate in the treaty transfer program in FY 2010.


U.S. Department of Justice                                                         76
Office of the Inspector General
Evaluation and Inspections Division
and there is oversight of case manager eligibility decisions, we
recommend that:

       3.	   the BOP and IPTU coordinate to ensure that the BOP’s
             program statement accurately reflects eligibility criteria based
             on treaty requirements and IPTU considerations, and that the
             BOP provide a revised program statement to its union for
             review;

       4.	   the BOP ensure that all staff involved in treaty transfer
             determinations are properly trained; and

       5.	   the BOP establish a process for reviewing eligibility
             determinations made by case managers to ensure their
             accuracy.

     To ensure inmates know they can obtain more information about
why their treaty transfer request was denied and have the opportunity to
address issues that would make them a better candidate for transfer, we
recommend that:

       6.	   the BOP and IPTU coordinate with each other to update the
             BOP’s program statement to accurately reflect the process by
             which inmates can obtain more information from IPTU
             regarding the reasons for denial;

       7.	   IPTU fully implement its plan to include in denial letters a
             description of how inmates can obtain further information
             regarding the reasons for denials, as well as information on
             what an inmate can do to become a better candidate for
             transfer, if applicable; and

       8.	   IPTU fully implement its plan for a reconsideration process
             that requires IPTU analysts to follow up on the reasons an
             inmate’s request was denied so that inmates whose
             circumstances change before the 2-year waiting period may
             reapply.

      To ensure AUSAs are knowledgeable about the treaty transfer
program and are aware of the option to include language in a plea
agreement regarding the USAO’s treaty transfer recommendation, we
recommend that EOUSA:



U.S. Department of Justice                                                  77
Office of the Inspector General
Evaluation and Inspections Division
       9.	   work with IPTU to update information available to USAOs
             about the prisoner treaty transfer program through the
             EOUSA Intranet, updates to the USAM, or other appropriate
             means; and

       10. provide USAOs with sample plea agreement language which
           explains that the USAO can agree to recommend or not
           oppose a transfer request while also making clear that the
           determination rests with IPTU and the USAO concession in
           the plea agreement does not bind IPTU.

      To provide another means by which defendants are informed of the
opportunity to apply for treaty transfer, we recommend that EOUSA:

       11. work with IPTU to develop a strategy for communicating to the
           Federal Public Defender and the courts information about the
           availability of the program.

      To minimize delays in processing treaty transfer requests and
avoid the Department spending unnecessary funds such as the
$15.4 million incurred by the BOP and IPTU for processing delays, we
recommend that:

       12. the BOP establish reporting requirements to measure the
           timeliness for completing application packets at all prisons,
           including contract prisons, as a measurable element of case
           manager performance reviews;

       13. IPTU fully implement formal timeliness requirements for
           evaluating treaty transfer requests and institute a system to
           track IPTU analysts’ evaluation of application packets; and

       14. IPTU update its information request forms to USAOs and law
           enforcement agencies to request a response within 21 days
           and state that failure to respond will result in IPTU proceeding
           with its evaluation under the assumption the agency has no
           objection to transfer.




U.S. Department of Justice                                                 78
Office of the Inspector General
Evaluation and Inspections Division
    APPENDIX I: LIST OF TREATY NATIONS AND TERRITORIES AS OF 

                          DECEMBER 2010 



Albania                        Georgia                        Netherlands
Andorra                        Germany                        Norway
Armenia                        Greece                         Palau
Australia                      Guatemala                      Panama
Austria                        Honduras                       Paraguay
Azerbaijan                     Hungary                        Peru
Bahamas                        Iceland                        Poland
Belgium                        Ireland                        Portugal
Belize                         Israel                         Romania
Bolivia                        Italy                          Russia
Bosnia and Herzegovina         Japan                          San Marino
Brazil                         South Korea                    Saudi Arabia110
Bulgaria                       Latvia                         Serbia
Canada                         Liechtenstein                  Slovakia
Chile                          Lithuania                      Slovenia
Costa Rica                     Luxembourg                     Spain
Croatia                        Macedonia (FYR)                Sweden
Cyprus                         Malta                          Switzerland
Czech Republic                 Marshall Islands               Thailand
Denmark                        Mauritius                      Tonga
Ecuador                        Mexico                         Trinidad and Tobago
El Salvador                    Micronesia                     Turkey
Estonia                        Moldova                        Ukraine
Finland                        Montenegro                     United Kingdom
France                         Nicaragua                      Uruguay
                                                              Venezuela
Territories that are not “countries,” according to IPTU:

    Hong Kong

    Netherlands Territories: Netherlands Antilles (Bonaire, Curacao, Saint
     Eustatius, Saba, and Saint Maarten) and Aruba

    Territories of the United Kingdom: Anguilla, Bermuda, British Indian Ocean
     Territory, British Virgin Islands, Cayman Islands, Ducie and Oeno Islands,
     Falkland Islands, Gibraltar, Henderson Island, Isle of Man, Montserrat,
     Pitcairn, Sovereign Base Areas of Akrotiri and Dhekelia in the Island of
     Cyprus, and St. Helena, and Ascencion and Tristan da Cunha (formerly
     St. Helena Dependencies).




          After our field work, the Kingdom of Saudi Arabia acceded to the OAS
        110

Convention on July 8, 2011.



U.S. Department of Justice                                                       79
Office of the Inspector General
Evaluation and Inspections Division
               APPENDIX II: TREATY TRANSFER PROCESS 



       According to BOP policy, prison officials are required to explain the
treaty transfer program to inmates during institution and unit admission
and orientation (orientation).111
                                               Eligibility Requirements
The program is also explained to
inmates at the initial classification    An inmate that is in custody for civil
meeting with their case managers,         contempt may not be considered for
                                          transfer.
but this is not policy. Once the
treaty transfer program is explained     An inmate with a committed fine may
                                          not be considered for transfer without
to the inmates, they must sign a
                                          permission from the imposing court.
transfer inquiry form indicating
                                         The inmate must have at least 6
whether they are interested in
                                          months of the current sentence
serving their sentences in their          remaining to be served at the time of
home countries.112 If an inmate           request for transfer.
indicates an interest in the treaty      The judgment must be final; the
transfer program, the treaty              inmate must have no pending
transfer request process, which           proceeding or appeal upon the current
includes preparing the application        conviction of sentence.
packet, begins on the date the          Source: BOP Program Statement
inmate signs the transfer inquiry       5140.39.
form.113 Inmates can change their
minds regarding their interest in the program at any time.

      If an inmate indicates an interest and is considered eligible for
treaty transfer based on the requirements outlined in the BOP program
statement (see the text box), the inmate’s case manager has 60 days to
prepare an application packet, which is reviewed by officials at the



       111   BOP policy requires three sessions upon an inmate’s arrival: the institution
orientation program at which inmates get general information regarding institution-wide
regulations, operations, and program opportunities; the unit orientation program at
which inmates get information that is specific to the unit where they reside; and the
initial classification meeting between the inmate and the inmate’s unit staff at which
work and programming activities are developed for the inmate while incarcerated.

       112  The transfer inquiry form is available in English, French, and Spanish. It
instructs inmates to contact their consulates so that the consulates can begin whatever
parallel process may be required by the inmates’ home countries to affect the transfer.
See Appendix VI for the BP-S297 Transfer Inquiry Form.

       113 The BOP’s revised program statement specifies that the application packet
must be forwarded within 60 days of the inmate’s signing of the transfer inquiry form.



U.S. Department of Justice                                                           80
Office of the Inspector General
Evaluation and Inspections Division
inmate’s designated prison.114 The application packet is then forwarded
to the BOP’s Central Office for review. The Central Office is required to
forward application packets to IPTU within 10 days.115

       When an application packet arrives at IPTU, it is entered into the
tracking database and assigned to an analyst for evaluation. The analyst
may contact the BOP, law enforcement agencies that investigated the
inmate’s criminal case, and the USAO that prosecuted the inmate for
additional information. The analyst requests information about the case
and the agencies’ views on the transfer request. The analyst also
contacts the Department of Homeland Security’s Office of Citizenship
and Immigration Services to determine the inmate’s immigration status.
Once this information gathering process is complete, the IPTU analyst
prepares an application summary that provides the pertinent facts in the
case, including information about the inmate, the offense, the sentence,
the inmate’s prior record, the location of the inmate’s close family
members, and the views of the federal prosecutor and investigating
agencies. At the end of the application summary, the analyst makes a
recommendation for transfer to IPTU’s Chief. IPTU’s Chief reviews the
application summary and the analyst’s recommendation. The IPTU Chief
then forwards her transfer recommendation to the Office of Enforcement
Operations’ Deputy Director. The Director or the Deputy Director
reviews the case materials and makes the final transfer decision. IPTU
considers an inmate to be suitable for transfer if the transfer is
consistent with the purpose and goals of the program and would not
harm any law enforcement interests or concerns of the United States.
The suitability determination is based on the facts and circumstances
present in each case and is aided by the application of IPTU’s guidelines.

       Once IPTU has made a decision, it is communicated by letter to the
inmate’s country and to the inmate or the inmate’s representative. If
IPTU denies the transfer request, the reasons are summarized in a letter
to the inmate. An inmate whose transfer request is denied can reapply
2 years after the date of the denial letter if at least 6 months remain on
the inmate’s sentence. IPTU may make exceptions to its 2-year policy if

       114 The BOP’s Administrator, Correctional Programs Division, said if a request is
denied an inmate can appeal the decision through the BOP’s Administrative Remedy
Program. The purpose of the Administrative Remedy Program is to allow an inmate to
seek formal review of an issue relating to any aspect of his or her own confinement.

       115 In those cases where a transfer request is made directly to IPTU, IPTU will
forward the request to the BOP’s Central Office, which will forward it to the inmate’s
prison so that the inmate can sign the transfer inquiry form and a case manager can
prepare an application packet if the inmate indicates interest in transfer.



U.S. Department of Justice                                                               81
Office of the Inspector General
Evaluation and Inspections Division
the impediments to transfer are removed. For example, a pending appeal
may be resolved or the need for an inmate’s testimony may be satisfied.
In such situations, IPTU can reconsider the request before 2 years have
elapsed. If a request is approved, an approval packet is prepared by
IPTU and sent to the receiving country, which must then consider the
transfer request according to the terms of its treaty with the
United States. The United States takes no further action on the case
until the receiving country notifies the United States of its decision.116 If
the receiving country denies the request, the inmate should not reapply
to the program through the Department since it has already approved
the request. Instead the inmate must reapply directly to the home
country.

       If the receiving country approves the request, the BOP and IPTU
arrange a consent verification hearing.117 The consent verification
hearing is conducted before a U.S. Magistrate Judge and is intended to
ensure that the inmate understands and consents to the transfer. IPTU
arranges for the Federal Public Defender to provide a legal representative
for the inmate and contacts the USAO in the district where the inmate is
incarcerated to obtain a writ of habeas corpus to move the inmate from
the prison to the courthouse. Once the inmate consents to the transfer,
IPTU notifies the receiving country that the inmate has consented and
advises that country to coordinate travel arrangements with the BOP’s
Central Office. The BOP coordinates with the receiving country, which
sends escorts to the United States to accompany the inmate on the
return trip, and provides the foreign government with pertinent
information about the inmate, including sentence administrative data,
such as sentence computation and medical records.

       When the BOP’s Central Office and the receiving country have
agreed upon a transfer date, the BOP moves the inmate to a departure
institution through the USMS’s JPATS. Departure locations serve as
holding facilities until the inmate is transferred out of the country. BOP




       116   If a foreign government fails to make a decision on a transfer request the
United States has approved, when the inmate nears the projected release date, IPTU’s
policy is to withdraw its approval and notify the foreign government.

       117 This description is for non-Mexican and non-Canadian inmates. Some of the
processing steps are different for Mexican and Canadians. Their consent verification
hearings and transfers are held quarterly from set locations, while non-Mexican and
non-Canadian inmates can have their verification hearing any time.



U.S. Department of Justice                                                            82
Office of the Inspector General
Evaluation and Inspections Division
staff at departure locations transport the inmate to the airport and
release the inmate to the custody of the receiving country’s escorts.118

       Once inmates are transferred to receiving countries, they serve the
remainder of their sentences in accordance with the laws and procedures
of the receiving countries, including those governing the reduction of the
term of confinement by parole or conditional release. The sentencing
country, however, retains the power to modify or vacate the sentence,
including the power to grant a pardon. Under most of the treaties, a
receiving country, including the United States, will continue the
enforcement of the imposed sentence.119

       Figure 6 depicts the treaty transfer process.




       118 Two departure locations also hold consent verification hearings for treaty
transfer inmates on site. The USMS does not transport Mexican and Canadian inmates
to consent verification hearings.

       119 Under the French and Turkish bilateral treaties and the Council of Europe
Convention on the Transfer of Sentenced Persons, the receiving country has the option to
convert the sentence, through either judicial or administrative procedure, into its own
sentence. When a sentence is converted, the receiving country substitutes the penalty
under its own laws for a similar offense. The receiving country, however, is bound by
the findings of the facts insofar as they appear in the judgment, and it cannot convert a
prison term into a fine or lengthen a prison term.



U.S. Department of Justice                                                            83
Office of the Inspector General
Evaluation and Inspections Division
         Figure 6: The Department’s Treaty Transfer Program




       Sources: Based on BOP and IPTU documents.




U.S. Department of Justice                                    84
Office of the Inspector General
Evaluation and Inspections Division
  APPENDIX III: BOP PROGRAM STATEMENT 5140.39 – TRANSFER 

       OF OFFENDERS TO OR FROM FOREIGN COUNTRIES 





           PS 140.39 Transfer of Offenders to or from Foreign Countries ( 12/4/09)


           1112006, the Office of National Policy Management began reformatting policies that
           con tain Change Notices. Some flIes created lIsing older versions of WordPerfect
           contain dozens of C hange Notices and have become unstable and difficult to use.

           The refonnaued policies are being reissued with a neW"llumber and date, but no text
           chal1ges have been made; the Change Notices arc simply incorporated at the COrTect
           place in the texL

           The previous version of thi.~ policy s howing til e C hange. NOl.icc(s). PS140.34,
           T ,":! I1sfe," of Ot'fclldel"S to or rrom Foreign Cou'llnes (9/2 112000), is available in
           tbe Archjved Policy area o n SaUypol"t.

           Note: the most current list Ofl18110nS C\'rrently holding treaty transfer status is
           published on the Corro.-ctional
                                    .       Programs Intranet page. The general public may
           access the list of participating countries o n the IPTU webs ite at:
           hllp:Uwww.lIsdoj,goylqj mjnalloeolljnkstjntlpriso!lq/jnllprjsong.htrnI.

           Thank you fo r your patience during this conversion process and please give me a
           call if you have any questions or concerns.

           Robin Gladden
           Directives Manager
           (202)616-9150




U.S. Department of Justice                                                                             85
Office of the Inspector General
Evaluation and Inspections Division
                                               U.S. Department of Justice
                                               federal Bur~au of Prisons




      Program                                             OPI:
                                                      NUMBER:
                                                        DATE:
                                                                    CPO/CPS
                                                                    0'5140.39
                                                                    12/4/2009

      Statement                                      HUtlJIi;c-r:   Transfer of Offenders
                                                                    to Or from Foreign
                                                                    Coun tries




          1.   [PURPOSE AND SCOPE 5527.4.0.Public Law 95·14.4
           (1 8 U.S.C. 4100 et seq. )   authori~es
                                              the tr a ps fer of offenders to
          or from foreign countries. pursuant to the conditions of a
          eurrent treaty Which provides for such transfer. 18 U.S.C . 4102
          authorizes the Attorney Geners1 to act on behalf of the Onited
          States in regard to such treaties. In accordance with the
          provisions of 28 CFR 0.96b, the Attorney General has delegated to
          the Director of the Bureau of Prisons, and to desi90ees of tbe
          Director, the authority to receive custody of, and to t r ansfer to
          and from the United States, offanders in compliance with the
          conditions of the treaty.l

          28 CPR 0.96b provides    tha~ ,


                "The Director of the Bureau of Prisons and of fi cers of the
                Bureau of Prisons designated by her are authorized to
                receive custody of Offenders and to transfer offenders to
                and from the United States of America under a treaty as
                referred to in Public Law 95·144; to make arrangements with
                the States and to receive offenders from the States for
                transfer to a foreign country I to act as an agent of the
                United States to receive tbe delivery from a foreign
                government of any person baing transferred to tbe United
                States under such II treaty; to render to for eign countries
                and t o receive from them certifications and reports required
                under a treatYI and to receive custody and carry out the
                sentence of imprisonment of such a transferred offender as
                required by that statute and any suoh treaty . "


          [Bracketed Bold . Rules]
          Reg ular Type - Imp lementing Information




U.S. Department of Justice                                                                  86
Office of the Inspector General
Evaluation and Inspections Division
                                                                           P5140.39
                                                                          12/4/2009
                                                                             Page ;;:

          2. SUMMARY OF CHANGES . This ~evision of the Program Statement.
          includes the Lollowing changes:

                 •       Procedures regarding inmates with detainers have been
                         cl~rified;


                 •       The requirement tor the Case Management Activity (CMA)
                         assignment ELIGIBLE has been removed;

                 •       The Case Summary criteria have been amended for Mexican
                         citizens:

                 •       The list of treaty transfer participant countries has
                         been upda t ed :

                 •       The Transfer Inquiry (BP-S297) has been modified to
                         determine if any language translation services will be
                         required for the inmate in the event of a verification
                         hearing ;

                 •       The requirement to complete procedures regarding the
                         Inmate Information Provided to Treaty Nation (BP- S299)
                         has been eliminated from the application process as
                         Inmate Systems Management supplies this information at
                         the time of the inmate'S departure/

                 •       A statement has been added to encourage Case Managers
                         to submit referral packets even when a birth
                         certifica~e is not readily available; and,


                 •       Canadian application forms are now available on
                         BOFDOCS, thereby eliminating the need to obtain them
                         from Cent ral Office.

          3. PROGRAM OBJECTIVES .        The expected results of this program
          are, '

            a. All inmates will be notified of the "Treaty Tr ansfer
          Program" during the l!..dmission and Orientation Program (l!..&O).

            b.       Al l inmate trans f ers wi ll be voluntary and subject to both
          coun~ries'       approval .

            c.  An inmate with a commjtted fine will not be transferred to
          ~he inmate's coun try of citizenship without the consent of the
          UnJ~ed States Court which imposed the fine.




U.S. Department of Justice                                                              87
Office of the Inspector General
Evaluation and Inspections Division
                                                                                P5 1 40.39
                                                                               12/4/2009
                                                                                  Page 3
            d.  Eligible inmates will be transferred to or from foreign
          countries under treaty to fa cilitate the sentence of imprisonment
          required by that statute.

               e.
                Biannua l reports of the number of returned United States
          citi~ens remaining in Bureau custody or released within the
          reporting per1o~ will b e mainta1ne~.

          4.        DIRECTIVES AFFECTED

               a.     Directive Rescinded

                     P5140.34     Transfer of Offenders to or f r om Foreign
                                  Countries (9/21/00)

               b,     Directives Referenced

                     P1490 . 06   Victim and Witness Notification Program (5/23/02)
                     P5100.0a     Security Designation and Custody Classificat ion
                                  Manual (9/12/06)
                     P5140 . 38   Civil Contempt of Court Commitments (1/1/04)
                     PS290.14     Admission and Orientation Program (4/3/03)
                     P5540.06     Prisoner Transportation Manual (4/20/00)
                     PS800.1S     Correctional Systems Manual (1/1/09)

          S.        STANDARDS REFERENCED

            a. Ame rican Correctional Association 3rd Edition Standards
          fOr Adult Correctional Institutions : None

            b. American Correctional Association 3rd Edition Standards for
          Adul t Local Detention Facilities : None

            c . American Correctional Associati on Second Edition Standar ds
          for the Administration of Correctional Agencies : None

            d. American Correctional Association Standards for Adult
          Cor reCtional Boot Camp Programs : None

          6. PRETRIAL/ HOLDOVER AND/OR DETAINEE PROCEDURES. Procedures
          required in this Program Statement do nOt apply to pretrial
          ~nmates or lNS detainees; procedures do apply to holdover inmates
          who ot herwise meet the eligibi l ity criteria.

          1. VICTIM I'lITNESS PROGRAM (VWP). When a VWP inmate is approved
          for transfer to another country, notification must be made in




U.S. Department of Justice                                                                   88
Office of the Inspector General
Evaluation and Inspections Division
                                                                                            P5140 . 39
                                                                                           12/4/2009
                                                                                               Page 4
          accordance with the release procedures set forth in the Program
          Statement on the Victim and Witness Notification Program .

          6. BACKGROUND . 1n December 1977, the United States entered into
          its first treaty (with Mexico) for international offender
          transfer. Since that time, the United States has participated in
          int..eroatiou"l tHu,tlfe r wlt..h   i:I   Llullu..,,,,r "'( oth..,L f oreig"   cou/ltL"le~
          (see Attachment A) .

                •     General ly, a treaty provides for an individual,
                      convicted of a crime and sentenced to imprisonment or
                      some form of conditional release (probation, parole,
                      etc.), in a country other than his or her country of
                      citizenship, to be transferred to the individual's
                      country of citizenship for sentence completion .

                •     While the term "prisoner-exchange" may be used, most
                      actions under this Program Statement will be transf~rs
                      and not i nmate-for-inmate exchanges.

                •     An inmate's transfer is voluntar y and subject to both
                      countries' approval.

            To ensure and document that an inmate's decision is informed
          and voluntary, a veri~ication hearing is held be f ore a U. S.
          Magis t rate Judge or U.S. District Court Judge . Retained or
          court-appointed counsel may represent the inmate.

                •     Jurisdiction over any proceeding to chal lenge, modify,
                      or set aside the inmate's cODviction and/or sentence
                      r emai ns with the country imposing the sentence.

                •     Only the compl et ion of the transferred inmate's
                      sentence is carried out according to the laws and
                      procedures of the receiving country .

                •     Inmates transferred to the United States come under
                      author ity of the Bureau, the U. S. Parole Commission,
                      and/or the Admini strative Office of the U.S. Courts
                      (for supervised release purposes)

            A state pr isoner , including any state prisoner confined at a
          Bureau institution, may be retu rned to hIs or her country of
          citizenship if state law permits the transfer, the prisoner
          consents, and both countries agree.




U.S. Department of Justice                                                                               89
Office of the Inspector General
Evaluation and Inspections Division
                                                                                P5140 . 39
                                                                               12/4/2009
                                                                                  Page 5

               •     State boarders interes t ed in this program must be
                     advised to direct their requests to authori t ies in
                     t h e i r s tate of se ntencing .

               •     State aut h ori t ies make referra l s d.i rect~y to the Office
                     of En forcemen t Operat i ons (OEO) , I nternational Prisone r
                     TC<1"",ftc'L" Uuit, O"'pClrtll\tc'rlt of JUBtictc'. unlr:'sB the state
                     inmate is already in Bureau custody upon referral, the
                     Bureau usually does not take c u stody of a state
                     prisoner until after the verification hearing.

               •     The Bureau's role is to arrange for the pri soner ' s
                     transport a tion to t he treaty nation' s cu s tody .

          9.     [DEFINITIQNS 1527.41. For the purpose of this rule, the
          f o llowing dsfinitions ~pply.

            a. Treaty Nation. A country which has entered into a treaty
          with the United States on the Execution of Penal Sentences.]

            curre nt treaty nations are listed in Attachment A.

            lb. State Prisoner . An inrn5te serving a sentence imposed
          in a court in one of the states of the united States. or in a
          territory or commonwealth of the United States.

            c. paparture Institution. The Bureau of Prisons
          institution to which an eligible inmate i8 finally transferred
          for return to his or her country of citi~enBhip .

              d. Admission institution. The Bureau of Prisons
          i nstitution where a United Sta te s citi z e n · iomate is first
          r e c e ived from a treaty nation . ]

          10 .  [LI~ITATIONS ON TRANSFER OF OFFENDERS TO FOREIGN COUNTRIES
          5527.42

            a. An inmate while in custody for civil contempt may not he
          considered for return to the inmate's country of citiz e nship for
          service of the sentence or coromitment imposed in a united Sta t es
          court. ]

             ~his limitation applies to an inmate a~rving a criminal
          sentence, either concurrent with, or suspended for the duration
          of , the civil contempt commitment.




U.S. Department of Justice                                                                    90
Office of the Inspector General
Evaluation and Inspections Division
                                                                         PSl40.39
                                                                        12/ 4 /2009
                                                                           Page 6
                 •   The inmate may be considered f or t r ansfer once the
                     contemgt co~tment is purged, eerved, or otherwise
                     terminated by judicial ~utho~ty.

            For further information, see the Program Sta t ement on Civi l
          Contempt of Court Commitments .

            [b. An inmate with a c~itted fin e =ay not b e considered
          for return to the inmate's country of citizenship for service of
          a sente nce imposed in a United Stat e s c ourt wi tnout the
          permission of the court imposing the fine. When considered
          appropriate , ene Warden may conta et t he sentencing c ou r t t o
          reque st the court's per.mission t o process the inmate' s
          application for return to the inmate ' s country of c i t i zenship . ]

            When. an inmate otherwise appears to be an appropriate candidate
          for transfer to a foreign country, the Warden may request
          permission to proceed wi th the tranater process from the court
          which imposed the fine.

                 •   The inmate's transfer to a foreign country may not
                     occur until, either the fine is p~id or the court
                     impOsing the fine concurs with the Bure~u's t r ansfer
                     request.

            Correspondence addressed to a Federal court must include the
          inmate's register number and the docket number(s) pertinent to
          the inquiry.

          ~1 .   (NOTIFICATIQN OF BUREAU OF PRISONS I NMATES 1527. 43

             8 . The Warden shall ensure that the institution's admission
          and orientation program includes info~tion on international
          of fender transf e rs.

             b. The c ase manager of an inmate who is a c iti~ en of a
          trea ty nation s hall inform th e inmate of the treaty and pro vide
          tbe i nmat e with a n opportunity to i nquire abo ut t ran s fer to the
          c ountry of citizenship. The inmate is to be given . an opportunity
          to indicate o n an appropriate form whether he or sbe is
          inte r e sted in transfer to the c o untry of citizenshi p.]

            A Transfer Inquiry (82-5297) allows the inmate to indicate that
          he or she was advised of the opportunity to inquire about
          transfer, and whether he or she is, or is not, currently
          interested in being transferred .




U.S. Department of Justice                                                            91
Office of the Inspector General
Evaluation and Inspections Division
                                                                      P5140.39
                                                                     12/4/2009
                                                                        Page 7

          12.   [TRANSFER OF BQREAQ Of PRISONS INMATES TO OTHER CQQNTRIES
          5527.44

            a. An inmate who is qualified for and desires eo return to
          his or her country of citi~e~ship for service of ~ sentence
          imposed in a United States Court shall indicate his or her
          interest by completing and signing the appropriate form and
          forwarding it to the Warden at the institution where the inmate
          is confined.]

            The guidelines and special processing requirements for an
          inmate to transfer to certain treaty nations are listed in
          A.ttachment A.

               •     The Transfer Inquiry (BP-S297) , must be used to
                     initiate the transfer process .
             [b. Upon verifying that the inmate is qualified for
          transfe r, the Warden shall forward all relevant information,
          including a complete cl~ssification package , to the Assistant
          Director, Correctional Programs Division.]

                (1) Initial Application. The initial Application Packet
          must contain the following documents and will b@ mailed t o the
          Central Office (Attn : Assiatane Administrator, correctional
          Programs Branch, Central Office), within 60 cal e ndar days of
          initial classification;

               •    Transfer Inquiry (BP-S297 ) ;

               •    Notice Regarding International Prisoner Transfer
                    (BP-S299) ;

               •    Authorization to Release Confidential Information
                     (BP - S301_) ;

               •    Case Summary (Attachment B);

               •    Pre/Post-sentence Investigation Report (s)   (for cu rrent
                    offense (s) 1 ;

               •    FBI Fingerprin t Card with current   photog~ph   of inmate
                    attached ;

               •    Current sentence computati on;




U.S. Department of Justice                                                       92
Office of the Inspector General
Evaluation and Inspections Division
                                                                         1?5140.39
                                                                        12/4/2009
                                                                           Page 8
               •        Certified J udgment i n a Criminal Case (J&C) (for
                        current offense(e»; and,
               •        Proof of citizenship (copy of birth certificate or
                        valid passport).

               Not~ : While individua l countries may require a copy of a
               birth certiticate prior to approvlng a transfer, the
               referral to Central office will not be delayed due to the
               absence of a birth certificate.

            Unit staff must place a copy of the packet in seetion 2 of the
          Inmate Central File.

            During t he initial application process, unit staff will suggest
          the inmate contact the nearest foreign consular o ffice to advise
          them of his or her desire to be considered for treaty transfer .

               •        Foreign officials normally have documents for the
                        inmate to comple te and return to the local consulate
                        and can also ass ist the inmate in providing proof of
                        citizenship .

               •        Consular officials may request to visit the inmate a t
                        t he institution .

                (2) Reapplication Proces s . An inmate who has been denied
          treaty transfer to his or her country of citizenship may reapply
          two years from the date of denial .

               •        The date of denial is defined as the date on the OBO
                        denial letter .

            A complete application packet is not required for re­
          application caSes, as OED maintains the or iginal classification
          Tl\B.teridls .

           Institvtion staff need only submit the following to the
          Assistant Administrator, Correctional Programs Branch.:

               •        Memorandum indicating the date the inmate was
                        previously denied and that he or she wishes to reapply;

               •        New Tra.nsfer Inquiry (BP-S297); and,

               •        CUrrent Progress Report (prepared within the   p~st   Six
                        months) .




U.S. Department of Justice                                                           93
Office of the Inspector General
Evaluation and Inspections Division
                                                                          PS140 . 39
                                                                         12/4/ 2 009
                                                                            Page 9


            [c. The Assistant Director, Correctional Programs Division,
          shall review the submitted material and forward it to the Office
          of Bnforcement Operations (OEO), Cr~nal Division. International
          Prisoner Tranafer Unit, Department of Justice, for review.]

            The application packet must be forwarded to OEO within 10
          working days of receipt in Central Office. OEO will consult with
          the appropriate agencies regarding the trans f er.

               Note : Applicat ions f or In t ernational Treaty Transf er
               require subs t antial investigation by OEO, including written
               ver i fic at ion on a number o f items . Accordingly . the entire
               processing time is extensive.       Insti t ution staff may contact
               the Correct i onal Pr ograms Branch, Correctional Programs
               Division, Central Office. for a status report.

               •     Institution staff must not contact OEO , unless adv i sed
                     to do so b y Central OffiCe s taff.

            (d. The Assistant Director, Correetiona l Programs Division,
          sball ensure that the inmate is advised of tbe decision of OBO.

                 ( 1) When tbe De p artment of Justice determines that transfer
          is not appr opriate, the As sistant Director, Correctional Programs
          Division, sball ensure that tbe inmate is advised of tbis
          determination and informed that tbe inmate may request the
          r e ason( s) for such action from OEO . ]

            If the Depa rt ment of Justice de termines that t h e tranefer is
          not appropri a te, OEO noti fi es the treaty nation v ia a pprop r iate
          channels (e.g., through the U . S. State Department , appropriate
          Embassy, or the Ministry o f JUstice of the foreign na t ion) and
          the Ass i stant Director, Correctional Programs Division.

               •     Institution staff will inform the inmate of OEO's
                     policy on re-application {see Section 12.h . {2} for
                     additional informati on} .

                [(2) When tbe Department of Justice determinea tbat
          transfer is appropriate, the Ausistant Director, Correctional
          Programs Division. shall ensure tbat tbe inma te is advised of the
          determdnation and of the probability that the inmate will be
          given an intervie w with bis or ber nation's con8~lar offioials.]




U.S. Department of Justice                                                             94
Office of the Inspector General
Evaluation and Inspections Division
                                                                         PSl40.39
                                                                        12/4/2009
                                                                          Page 10

            I f the Oepartment of Justice determin es that the transfer is
          appropriate, OEO will noti f y the U. S . State Department,
          appropriate Embassy (or Ministry of Justice), and the Assistant
          Director, Cor~ectional Programs Division.

                •        Respective Embassies will arrange for cons ular
                         otticia ~B to interview the inmate. In many instances,
                         Consular officials interview the inmate prior to DOJ
                         determination .

            (e. Upon notification from OEO of the treaty n a tion's decision
          in regard to the inmate's t~ansfer, tbs Assistant Dirsctor,
          correctional Programs Division, shall arrange for the inmate to
          be informed of that decision.]

            The Assistant Administrator, Correctiona l Programs Branch, will
          inform the approp r iate institution regarding a treaty nation's
          decision to transfer an inmate.

              (f .At an appropriate time subsequent to notification by the
          D epa ~tment
                     of Justice of an inmate's approval for t r snsfer, the
          Assistant Director shall a~rangs for the inmate to be transferred
          to an appropriat e departure institution.]

            To facilitate tr a nsfer, the sending Warden wil l ensure the
          inmate's personal property mee ts the requirements of the ~riBoner
          Transportation Manual.

              [g .  Prior to the inmate 's trans fer from the departure
          institution , the inmate shall r eceive e verification he~ring
          before a U.S . Magistrate Judge or U. S . District Court Judge to
          document the inmate'S voluntary consent for transfer.       Counsel ~ s
          provided to the inmate for the purpose of this hearing. When
          r e que ste d, the Warden shall allow counsel to interview the inmate
          prior to th e he a ring . ]

             OEO arranges with t he Administrative Office of th e U.S . Courts
          (AOUSC) for appointment of counsel and for scheduling the
          ve r ification hearing.

                •        Counsel may arrange with the Warden to interview the
                         inmate prior to the hearing.

                 •       OEO, in conjunction with the AOUSC, arranges for a U.S .
                         Magistrate Judge or U.S. District cou r t Judge to
                         conduct the verification he a rings .




U.S. Department of Justice                                                          95
Office of the Inspector General
Evaluation and Inspections Division
                                                                                 PS140.39
                                                                                12 /4/200 9
                                                                                   Page 11


             The Warden wi l l request written confirmation onc e the
          verification proceedings are completed and the U. S . Magis t rate
          J udge or u.s . District Court Judge has documented the inmate's
          VOluntary consent.

            [h . FOiiowing the verification hearing, the Assistant
          Director, Correctional Programs Division, shall arrange a
          schedule for delivery of the inmate to the authorities of the
          country of citizenship.

                (1) The Assistant Director shall advise the Warden of those
          arrangements.

               (2)  The Warden shall arrange for the inmate to be
          transported to the foreign authorities. The Warden Shall aasure
          that required documentation (for example, proof of citizenship
          and appropriate trave l documents) accompanies each inmate
          transported . ]

            i . Staff deaignated by the warden must ensure that the
          following documentation accompanies each inmate transported :

                ( 1)   Pr oo f o f c itizen shi p.    Pore ign coun t ries wi ll not adroit
                       t h e i nma t e wi t h out proof o f c i ti zenshi p;

                (2)    An y a ppropriate tra vel docume n ts (prep ared by
                       respective embassy);

                (3 )   A current statement of a ctual time served up to the
                       date of trans f e r ; and ,

                (4)    An up-to-dat e st a tement of a n y remission credits.

          13 . (T~SFEg OF STATE PRISONERS TO OT~R CQONTRIES 5527.45.
          The Bureau of Prisons may assume custody of a state prisoner who
          has been approved for transfer to a treaty nation for the purpose
          of facilitating the transfer to tbe treaty nation . Once
          approved, the state is not required to contract for the placement
          of the prisoner in federal custody, nor to reimburse tbe United
          States for the cost of confinement (as would ordinarily be
          required by 18 U.B.C, S003}.1

            a. When a s t ate prisone r a pplies for transfer , is found
          qual i fied, a nd dete r mines that the trans f er is in acco r dance with
          its laws; the sta t e may refer the inma t e 's case to OEO, to




U.S. Department of Justice                                                                    96
Office of the Inspector General
Evaluation and Inspections Division
                                                                     P5140.39
                                                                    12/4/2009
                                                                      page 12

          determine i f the United States and the tre aty nation agree to t he
          transfer as described in Sections 12. d . a nd e .

            b. If the prisoner is approved for transfer, QgO will arrange
          for a verification hearing before a U. S. Magistrate Judge or U. S.
          District Court Judge in the state where th~ prisoner ia confined.

            c. Upon finding that the inmate is to be transferred, the U.S.
          Magistrate Judge or U,S. District Court Judge ordinarily orders
          the prisoner placed in federal custody for transportation to the
          treaty nation's custody.

            d. The U.S. Marshal s Service ordinarily assumes custody o f the
          prisoner, and Bny necessary documentation, for transport to the
          designated departure institution.

            e. When the inmate arrives a t the departure institution, the
          Warden will follow the procedures outlined in Sections
          12.h . and i .

            f. The warden of the departure institution will ensure that a
          copy of the executed Receipt Upon Transfer to Treaty Nation form
          (BP-S300) is placed in Section 2 of the Inmate Central File.

            g. ISMs will record the lodging of a state prisoner in a
          Bureau institutions en route to the country of citizenship as a
          ~Treaty Transfer. "


          14. CASES ON APPEAL . OEO is unable to make a final
          determination if the inmate hag appealed his or her case.

               •    OEO will issue a written noc ification indicating that
                    the inmate is ~ currently ineligible" as he or she has
                    filed an appeal.

               •    Central Office will forward this information to the
                    institution.

          When the appeal process has ended, the inmate may reapply for
          treaty' transfer conSideration.

               •    Institution staff do not need to submit a new
                    application packet.

          sta f f need only submit the following to the Assistant
          Administrator, Correc t ional Programs Branch:




U.S. Department of Justice                                                       97
Office of the Inspector General
Evaluation and Inspections Division
                                                                         [15140.39
                                                                        12/4/2009
                                                                          i?age 13
            a. A memorandum indicating the inmate's case is no longer on
          appe al, a nd he or she still wishes to apply for foreign transfer.

            b.  Document a tion from the court showing the appeal was
          dismissed , withdrawn, etc .

                 •     Upon receiving the abov~ in~ormation, OEO will reopen
                       the case and make a final determination .

          15 . DETAINERS . If the inmate has an outsta nding detainer it
          must be c l early noted on the application material.

                 •   The inmate will be advised that, while OEO will
                     consider his or her application, u l t imately the
                     deta iner may prevent the transfer .

          16.  SENTRY APPLICATIONS . Case Management Activity (CMA)
          assignments have been created for treaty t r ansfer cases to enable
          staff to more effectively ~ack these inmates.

                 •     Six different assignments may be applied i n conjunction
                       with the established SENTRY country codes.

                 •     Country codes and assignmentB may be accessed through
                       t he SENTRY General Use Technical Reference Manual,
                       ~Code Tables" section.


            The new CMA assignmentB are de scribed be low using Canada (CA)
          as an example:

          GROUP CODE             ASSIGNMENT           DESCRIPTION

          TICA                   IITCA INEL           ,IT   CA INELIGIBLE
          TTCA                   I'l'TCA 'NT          ITT   CA INT W TRTY TRANS
          TNCA                   'TTC> NO I           ITT   CA NO INT TRTY TRANS
          TACA                   IITCA APPR           lIT   CA APPR F /TRTY TRANS
          TOeA                   IITCA DENY           In    CA DENIED TRTY TRANS

            a . Ineligible. The Ca se Manager enters this CMA assignment,
          following initial classification if,

                 •     the inmate has less than six months remaining to serve;
                       or,

                 •     there is documen t ation on file to indicate the inmate
                       is appealing his or her sencence; or,




U.S. Department of Justice                                                           98
Office of the Inspector General
Evaluation and Inspections Division
                                                                           P5140 . 39
                                                                          12/4/2009
                                                                            Page 1'1.


               •        a Mexican inmate presently s e rvi.ng an immigration
                        offense who ha s been de t ermined ine l igible pursuant to
                        Attachment A, Page 1, number 5.

            b. Inte rested in Treaty Transfer. The Case Manager enters
          this CMA atlsignment rollowing Initi~l claasificat i on it it is
          determined the inmate is e l igible and wishes to be considered for
          treaty t ransfer and he or she has submitted a written request
          (SP-5297) .

            c . No Interest in Treaty Transfer. The Case Manager will
          enter thia CMA assignment following t he Initial Classification if
          it is determined the inmate ia eligible but not interested in
          treaty transfer and he or she haa submitted written documentation
          (BP-S297) .

            d. Approved for Treaty Transfer. COrrectional Progr ams
          Branch, Central Office , enters this CMA assignment upon receiving
          written notification trom CEO that the inmate has been approved
          for t reaty transfer .

            e. Den i ed Trea ty Transfe r. Correctional Programs Branch,
          Central Office, enters this CMA assignment upon receiving written
          notification from CEO that the inmate haa been denied treaty
          transfer .

               Note: When changing t he CMA assignments described above,
               staf f must replace the current assignment and not add
               a nother one.

               •        There will be only one assignment for each case .

          11.  {RECEIVING VNITED ST;IES CITIZENS [gaM OTHER COUNTRIES
          5527.40

             a . Staff accepting custody of American inmates fram a foreign
          a uthority shall ensure that the following documenta tion is
          a vailable prio. to accepting custody of the inmate,

               ( 1) A certifie d copy of the sentence handed down by an
          appropriate, compete nt judicial authority of the transferring
          country and a ny modif i cations the reof;

                (2) A sta tement (and a copy transl a ted into English f.om
          the language of the country of origin if other than English),




U.S. Department of Justice                                                              99
Office of the Inspector General
Evaluation and Inspections Division
                                                                           0'5140.39
                                                                         12/4/2009
                                                                           Page 15

          duly authentica ted, detailing the offenee for which the offender
          wa s convicted, the duration of the sentence. and the length of
          t i me already served by the inmate. Inc luded should be sta tements
          of credits to which the offender is enti tled, ~uch as work done,
          good bebavior, pre -trial confinement, e tc,/ and

               (3 ) Ci tizenship papers n ecessary f o r the i nma t e to ente r
          the Unite d Sta tes.]

            OEO will notify the Central Office, which, in turn, notifies
          the admi t ting institution when an American citizen is to be
          returned to the United Sta t es .

               •     As soon as sufficient information is available (name,
                     date of birth, etc.), the correctional Programs
                     Division must obtain (before the tl:ansfer), information
                     on each prisoner's criminal record and/or outstanding
                     warrants either through the National crime Information
                     Center (NCIC) or the FBI.

               •     The Correctional Programs Divieion, with assistance
                     from OEO, coordinates all arrangements for an inmate's
                     tran sfer to the United States.

                •    The u.s. Embassy will provide whatever citizenship
                     papers are necessary to the inmate. Staff esc orting
                     the inmate must have those pape rs available upon entry
                     into the United States.

            1n addition to the above documents, staff will ensure that the
          inmate has received the required verification hearing (before a
          U.S . Magistrate Judge or U.S . District Court Judge to document
          the inmate's voluntary consent for transfer).

              lb. The As sistant Di rector , Co rre ctio nal Programs Di v ision,
          s h a l l d i rect , in writ ing . speci fi c staff, preferably staff who
          apaak the language of th e tr eaty na tion, to e scort the o ffender
          from tbe transporting country t o tb e adm1s sion institution. The
          directiv s sball cite 28 CFR O. gob as the authority t o escort the
          offender . When the admission institution is not able to accept
          the inmate ( for example, a f~le inmate escorted to a male
          i n st itution), the Warden shal l make sppropri ate housing
          requirements with a nearby jail .}

                •    Staff must sign the documents necessary to receive the
                     inmate.




U.S. Department of Justice                                                             100
Office of the Inspector General
Evaluation and Inspections Division
                                                                           P5140.39
                                                                          12/4/2009
                                                                             Page 16


                 •         Inmates ~nd cheirproperty will be processed through
                           the Immigration and Na turalization Service and U. S.
                           Customs Service at the U. S . border or another
                           appropriate transfer point.

            If there are female inmates among those being transferred and
          the admi tti ng institution does not accept female inmates, the
          warden will make prior arrangements with a nearby correctional
          institution.

                 •         The admitting institut ion retains case lIIanagement
                           responsibilities fo r the femal e inmates until they are
                           transferred to an appropriate Bureau i nstitution.

            ic. AB s oon as practicable after tbe inmate's arrival at tbe
          admission institution, staff shall initiats ths following
          actions I

               (1)  Arrange for tha inmate to receive a complete physical
          examination;

                  ( 2) Advise the local O.S. Probation Office of the inmate's
          ar r i val I and)

                 •         The official version of the offense will be placed in
                           the Inmate Central File (if a translated copy has not
                           been provided, a bilingual staff member or reliable
                           translation service must prepare one) .

                 •         Staff will forward a copy of all avail abl e i nformation
                           on the transferring inmate to the U.S . Probation Office
                           for preparation of the Post-Sentence Report .

                 •         Staff will request that a Probation Officer be assigned
                           to prepare t he necessary Post-Sentence Report and
                           forward it to the des i gnated institution within 30
                           days.

            During this process, the local U.S . Probat i on Office ordinarily
          interviews the inmate and completes U.S. Probation Porm LA, as
          well as the Authorization to Release Confidential Information
           (BP·S30 1 ) .

               i(3) Notify the U.S. Parole Commission of the inmate's
          arrival and pro jec ted release date] .




U.S. Department of Justice                                                             101
Office of the Inspector General
Evaluation and Inspections Division
                                                                      1='5HO.39
                                                                     12/4/2009
                                                                       Page 17

               •    Inmates returning from other countries are, by law,
                    immediately elig ible for pa~ole if they committed their
                    o ff ense prior to November 1, 1987 .

               •    Prisoners who committed thei r foreign offense on or
                    after November 1, 1987, must receive a heari ng befo~e
                    the U.S. Parole Commiss10n within 180 days of entry
                    into the United States, or as soon as practicable,
                    pursuant to 16 U.S.C. § 4106A and 28 CFR §2.62.

            If , upon computation of sentence, staff determine that an
          inmate is within six months of release, the O.S. Parole
          Commission is permitted to render a determination of both a
          release date and a period and conditions of supervised release,
          without an in-person parole hearing.

            When the inmate has less than six months to serve, staff must
          send a prompt notification to the U.S . Parole Commission advising
          them of the impending release date. Depending on t he amount of
          time remain.ing to serve, s t aff s hould send the sentence
          computation information ei ther via mail or by facsimi le.
            Staff at the admitting institution will also determine if each
          inmace should be recained at the admitti.ng institution for the
          initial hearing before the U. S . Par ole Commission or promptly
          trans f erred to a more appropriate institution.

               •    The Case Management Coordinator will request that the
                    Regional Designator designate an appropriate
                    institution .

            [d. If upon computation of sentence, staff determine that an
          inmate is entitled to immediate release via mandatory release or
          expiration of sentence with credita applied, rel ease procedures
          shall be implemente d but only a fter receiving a ~edic a l clearance
          and the results of an FBI fingerprint check.]

               •    Medica l clearance mus t be obcained from the Health
                    Services Administrator.

               •    Arrangements will be made with the local FBI office for
                    prompt processing of an NCIC check. A full fingerprint
                    check should be completed, if possible.

               •    The U. S. Probation Officer will be notified by phone in
                    advance of the inmate's release and be provided with
                    all available informa tion regarding t he inmate. A




U.S. Department of Justice                                                        102
Office of the Inspector General
Evaluation and Inspections Division
                                                                          PS140.39
                                                                         12/4/2009
                                                                           Page 18
                         post -sentence report need not be requested in these
                         cases.

          18 . BIANNUAL REPORT REQUIRED . Follow -up information may be
          requested by treaty nations concerning u.s. citizens returned to
          the United States.

                 •       The Office of I nformation Systems (015) in the Central
                         Office will provide OEO and the Assistant
                         Administrator, Correctional Programs Bran ch, a report,
                         as of June 30 and December 31 of each year .

                 •       The report will identify returned u .s. citizens
                         remaining in Bureau custody or released within the
                         reporting period. The report must group i nmates by
                         t r ansferring treaty nation and contain the following
                         information:

            •        Identificati on Data

                 •       N.~

                 •       Register Number
                 •       FBI Number
                 •       Facility

            b.       Sentence Data

                 •       Date Committed (to Bureau)
                 •       How Committed
                 •       Offense Code
                 •       Foreign Sentence
                 •       Supervision Term

            c.       Release Status Oata (if applicable)

                 •       Sentence Began
                 •       Release Date
                 •       Release Method

          19 . TRANSLATION.          This Program Statement is available in Spanish
          and French.




                                                               lsi
                                                          Kathleen Hawk Sawyer
                                                          Director




U.S. Department of Justice                                                            103
Office of the Inspector General
Evaluation and Inspections Division
                                                                         P5140.39
                                                                        12/4/20Q9
                                                         Attachment A, Page 1


                                      TREATY COUNTRIES

          Albania               Ireland                     Sweden
          Andorra               Israel                      Switzerland
                                                            Thailand '.'
          Armenia               Italy                       Trinidad/Tobago
          Australia             Japan                       Tonga
          Austria               Latv ia                     TUrkey I.'.'
          Azerbaijan            Liechtenstein               Ukraine
                                                            United Kingdom &
          Ba.hamas              Lithuania                   Territories
          Belgium               Luxembourg                     Anguilla
          Belize                Malta                        • Bermuda
          Bolivia ', J .•                                      British Virgin
                                ~rshall Islands                Isllands
          Bosnia &                                             British Indian
          Herzegovina           Moldova                        Ocean Territory
          Brazil                Mauritius                      Cayman Islands
                                Mexico '. ~ .'                 Dueie &. Oeno
          Bulgaria                                             Islanda
          Canada 2,)            Micr ones i a,                 Falkland
          Chile                 Fede r ated States             Islands
          Costa Rica            of                             Gibraltar
                                 Netherlands &                 Henderson
          Cro<ltia                                             Island
          eyp~s
                                Territ.ories                   Isle of Man
          Czech Republic              >ruba                    Montserrat
                                 • Netherlands                 Pitcairn
          Denmark                                              Sovereign Base
          Ecuador                  Antilles                    Areas of
          Estonia               Nicaragua.                     Akrotiri &.
          Finland               Norway                         Dhekelia in the
                                Palau '. '                     Island of
          Former                Panama ',J,'                   Cyprus
          Yugoslav                                            St. Helena &
           Republic of          Paraguay                      St . Helena
                                Peru 1, 1. '                  Dependencies
              Ma cedonia                                    Venezuela
          France '              Poland
          Georgia               Portu9al
          Germany               Republic of South
          Greece                 Korea
          Guatemala             Romania
          Hong Kong             San Marino
          Hungary               Serbia and
          iceland               Montenegro
                                Slovakia
                                Slovenia
                                Spain

             The inmate must write to hi s or her embassy in the United
             States requesting transfer under the treaty.   Normal ly, this
             should be completed prior to forwarding the requeat to




U.S. Department of Justice                                                          104
Office of the Inspector General
Evaluation and Inspections Division
                                                                              PS140.J9
                                                                             12/4/2009
                                                                Attachment A, Page 2
              Cent.ral Office.      (For Pe ru , the inmat.e must write t.o t.he
              closest con s ul a t e.)
          •   Applicat.ion to Canada requires completion of Canadian forms
              (esc/sec 308 and esc/sec 614) in addition t.o the standard
              application requirement8.
                  The inmate must not. be committed for a military offense.
                  The inmate must not be sentenced to the death penalty.
          ,       Mexican inmates who are currently serving sentences
                  exclusively for Immigration Law Violations (SBNTRY lIS
                  Offense Codes 170, 17l, 172, 173) are not eligible for
                  treaty transfer consideration unless t.he immigrat.ion
                  offense is totally absorbed by another current sentence
                  and the time served t.o date is e9ua1 to or greate r than
                  the sent.ence imposed for the immLgration offense.
                  Additionally, Mexican inmates who are serving a life
                  sentence are not eligible for treaty transfer
                  consideration.
                  The inmate must not be committed for a pOlitical
                  offense.
                        GENERAL GUIDELINES POR TREATY APPLICATI ON
              The inmate must have at least six months of the current
              sentence remaining to be served at the time of request for
              transfer.    (France, Hong Kong, and Thailand require 12
              months. )
          •   The jud;.ment must be final: the inmate must have no pending
              proceed~ng or appeal upon the current conviction of
              sentence.




U.S. Department of Justice                                                               105
Office of the Inspector General
Evaluation and Inspections Division
                                                                                P5140.39
                                                                               12/4/2009
                                                                    Attachment S, Page 1


                 CERTIFIED U.S. CASE SUMMARY OF (Country) CITIZEN

          PERSONAL DATA
          1.       Committed Name :
                   bir~   n~me,
                                       (If the . committed
                                  uee the birth oftme)
                                                             ""me   differs from the

          2.       Federal Register Number:
          3.       Date of Birth ;
          4.       Marital status/Children:     ( If applicable, specify the
                   current location of the inmate's parents, spouse and/or
                   children, the frequency of visits the inmate receives
                   from these individuals , ft nd wnether any o f t hem plan to
                   relocate to the home country . For example, married; one
                   child over 19 years of age and two children under a~e
                   ~8; parents deceased .  Inmate has received weekly v~sits
                   from wife and two minor children for the past 18 months.
                   Inmate has not received visits from eldest Bon, as the
                   inmate reports he lives in Guadalajara , Mexico.
                   According to inma te's visi t ing liat, wife and children
                   live in tijuana, Mexico. )
          5.       Place of Birth :    (Cit.y/State)
          15.      Nationality:
          7.       Employmen~ Prior to Incarceration :  (List all forms of
                   employment held prior to incarceration)
          9.       Current Place of Imprisonment;
          SENTENCE DATA SUMMARY
          1.       Sentence:
          2.       Date Sentence Imposed:
          3.       Sentencing District :
          <I .     Criminal Docket NUmber :
          S.       Current Offense : (When completing this question and the
                   four questions above, if more than one Judgment in a
                   Criminal Case \J&C) exists, answer each question for
                   each Judgment) .
          15.      Description of Current Offe nse:  (If more t han one
                   JUdgment in a Criminal Case exist s , descr i be each using




U.S. Department of Justice                                                                 106
Office of the Inspector General
Evaluation and Inspections Division
                                                                                           P5HO.39
                                                                                          12/'1/2009
                                                                           Attachment B, Page 2
                  these guideline s; Be s~ecific when summarizing the
                  current offense addresslng the questions who, what,
                  where, when, why, how, and how long this activity
                  continued. This summary i s ths only i nfo~tion the
                   treaty c ountry receives concerning tbe current offense.
                  Also include the offender's overall role in the offense.
                  Specifically, include the number of participa nts,
                  whether any      wea~onB   were involved, and whether the
                   inmnte 10 offiliotcd with         Q    criminal organization (e.g.,
                  gang) or drug cartel. If it is a drug offense include
                  the type, quantity, and if available the monetary value
                  of the drugs.)
               If the inmate is a Mexi can citizen, incl ude t he following :
                  description of the inmate' B role in the offense;
                   liat of codefendants;
                  any gang or drug cartel          ~ffiliations,        if applicable;
                  description of the exact situation regarding any weapons
                  fairly at~ributed to the inmate;
               ( ~le : "The record does not indicat e that (inmate) is
               affillated with a drug cartel or gang.  (Inmate) was
               arrested without incident . There were no weapons involved
               in the instant offense.")
                   Summary of the a rrest scenario;
                  Description of the amount of drugs (in written and
                  numeric format);
                        Example: 1 . 8 kilograms (one thousand eight hundred
                        grams); 5,1)2 grams (five thousand, one hundred and
                        thirty-two grams) .
          1.      Fine\Aaaessment\Restitution: (Be specific when listing
                  monetary sanctions imposed i.e., non- committed or
                  committed fine, and lndicate whether payment is
                   <.:ulHpJ.eLe.   I[ payment",   Il~ve   been IHdde luulc ... t .. t ll'" t ot al
                   payments and the remaining bal ance.)
          8.       Prior Record:  (List history of prior convictions
                   including charge, date of charge, and sentence. )
          9.       Detainers or Pending Charges:
          10.      Statutory Good Time/Good Conduct Time Earned:
                   days.  (~of days earned ehould be computed using the
                   application date.)
          11.      Meritorious Good Time Earned:           days .
                   (n of daya earned should be computed using the
                   appl i cat~on date . )

          12.      Projected Release Date :




U.S. Department of Justice                                                                             107
Office of the Inspector General
Evaluation and Inspections Division
                                                                           P5140.39
                                                                          12/4/2009
                                                               Attachment B, Page 3
          13.      Full term date :
          14.      Date Sentence 8egan to Application Date: (yrs., mos.,
                   days)
          15.      Credited Wit..h ______ _    Days of Total Priolo Credit
                   Time.
          socr AL OI\T ....
          1.       Psychological evaluation : (If no psychological referral
                   has been Il\lI.de and there is no history of mental or
                   emotional problems noted in the record, indicate GOOD.
                   If a ~sychological report exists indicate the f indings
                   of thl.s report . )
          2.       Security Level:
          3.       Level of Education Achieved:    (Speci f y level of
                   education achieved prior to incarceration as well     as
                   addi t ional education courses completed while
                   incarce.rated . )
          4.       History of Substance Abuse; alcohol or drugs?
                   NO:
                   YES,
                    If yes, specify the substance(s);
          5.       current Medical Condition; (List any medical problems
                   or disabilities the i nmate is e~periencing. Bs
                   specifi c ; contact Health Serv i ces if necessary. Also
                   indicate all medications the offender is takinS for
                   treatment of medical/mental health conditions . )
          6.       Institution Wor k Experience; (List in chronological
                   order the institution work assignments held in the ~ast
                   two years. If invol ved in a UNICOR operation, speclfy
                   the product s being manufactured.)
          7.       Type and Number of Incldent Reports Received : (List the
                   inCldent reports ln chronological order including the
                   dispositlon. )
          B.        ~rogram ~articipation : (List any lnstl.tutlon programs
                    the inmate has completed or is taking . If completed,
                    i ndicate the date of complet ion. )

                Prepared By ;


                Case Manager/phone Number               Date




U.S. Department of Justice                                                            108
Office of the Inspector General
Evaluation and Inspections Division
                                                                        PS140.39
                                                                     12/~/20G9
                                                          Attachment B, Page 5



          Referenced forms available o n Sallypor t and BOPDOCS:

          BP-S297 . 0S1 TRANS PER INQUiRY
          Bp·S29S.0S1 NOTICE REGARDING INTERNATIONAL PRISONER TRANSFER
          BP-S299.0S1    INMATE INFORMATION PROVIDED TO TREATY NATION
          BF -SlOO.OS1   RECEIPT UPON TRANSFER TO TREATY NATION
          BP-S301.0S1 AUTHORIZATION TO RELEASE CONFIDENTIAL INFORMATION




U.S. Department of Justice                                                         109
Office of the Inspector General
Evaluation and Inspections Division
                                                              PS140.39
                                                             12/4/2009
                                                 At tachment B, Page 4

             Reviewed By:


             CMC/Phone Number             Date



             Associate Warden, Programs   D~te




             Warden                       Date




U.S. Department of Justice                                               110
Office of the Inspector General
Evaluation and Inspections Division
        APPENDIX IV: IPTU SUITABILITY REQUIREMENTS AND 

                           GUIDELINES 



A. Requirements

    (1) The inmate must be convicted and sentenced, and must consent
    to the transfer.

    (2) The inmate must have at least six months remaining to serve.

    (3) The judgment and conviction must be final. This means that
    there must be no pending proceeding by way of either a direct appeal
    or a collateral attack against either the judgment or the sentence.

    (4) There must be dual criminality. The crime for which the inmate
    was convicted in the United States must be an offense in the
    receiving country.

    (5) The sending and receiving country must approve the transfer,
    and in the case of an inmate in state custody, state authorities must
    also approve the transfer.

B. Guidelines for Evaluating Prisoner Applications for Transfer

    (1) Likelihood of social rehabilitation

    Beyond the practical concerns of alleviating prison crowding and
dealing administratively with foreign national inmates, many of whom
have very limited English language ability, the central rationale behind
transferring foreign inmates to their home countries is to facilitate the
social rehabilitation. Rehabilitation is, of course, one of the principal
purposes of incarceration in civilized societies. This goal is expressly
stated in the Preambles to the COE Convention that transfer “further the
ends of justice and social rehabilitation of sentenced persons.” Prisoner
transfer assumes that such social rehabilitation is more likely to occur in
the home country, closer to his family and within his own culture. In
addition, since many foreign national inmates will be deported when
their sentences have been served, it may not make sense to further their
adjustment to a society in which they will not be allowed to remain after
release.

    In evaluating whether social rehabilitation really will be furthered by
transferring an inmate, a number of factors are considered:


U.S. Department of Justice                                              111
Office of the Inspector General
Evaluation and Inspections Division
    (a) Acceptance of responsibility. The acceptance of responsibility is a
condition precedent for rehabilitation. Acceptance of responsibility is a
positive factor for transfer, and is demonstrated by cooperation with the
authorities, providing complete and candid information as to involvement
in the offense, and/or the timely entry of a guilty plea.

    (b) Criminal history. For purposes of evaluating rehabilitative
potential, there is a difference between a low-level, minor, first-time or
infrequent offender, and a career criminal. Contrast, for example, the
rehabilitative potential of an offender who was paid a few hundred
dollars to drive drugs into the United States, with that of a drug kingpin.

     (c) Seriousness of the offense. The seriousness of the offense, the
critical factor in any sentencing decision, is equally important in
evaluating whether serving out all or most of his sentence in the
United States will do more for the inmate’s rehabilitation than
transferring him to what may be a less punitive and possibly less lengthy
incarceration.

     (d) Criminal ties to the sending and receiving countries. If an inmate
has criminal ties to the receiving country, transferring him could well be
more likely to facilitate reintegration into his criminal milieu than to
facilitate rehabilitation into civil society.

     (e) Family and other social ties to the sending and receiving
countries. This is a critical factor for two reasons. First, it is an
important assumption of the inmate transfer program that social
rehabilitation is most likely near the inmate’s family, and least likely far
away. Second, the most likely prediction about the inmate’s behavior
upon release is that he will reunite with his family. If the inmate’s family
is in the receiving country, it is far more likely that he will stay there. If,
however, that family is in the sending country, one must assume that the
released inmate will try to return to the sending country, not only
negating any social rehabilitation benefits from transfer but also negating
the inmate’s deportation as well.

      There are obviously any number of family situations, and no one
rule can control every case. Set out below is the general approach of the
International Prisoner Transfer Unit when the inmate has family
members residing in the United States:

           (i) Prisoner is single and childless. Where his parents and
           siblings live will be controlling for this category (except in the



U.S. Department of Justice                                                 112
Office of the Inspector General
Evaluation and Inspections Division
           unusual case where the inmate was raised by others in the
           receiving country);

           (ii) Prisoner is ceremonially married. The location of the
           spouse is controlling. The presumption is that the inmate
           should be in the same country as his spouse;

           (iii) Prisoner has a common law spouse. The location of the
           common law spouse can be very important, depending on the
           apparent longevity and stability of the common law
           relationship (that is, how close in practice the common law
           spouse is to a legal spouse) and whether any children,
           particularly still minor children, have issued from it (that is,
           how close the common law situation is to a traditional family);

           (iv) Prisoner is either single or separated and has children. The
           inmate’s relation to the children is critical. For example, adult
           children living on their own in the United States would
           normally be less of a factor against transfer than minor
           children in the United States. Minor children in the
           United States who have always lived with the other parent and
           never, or almost never, with the inmate would be less of a
           factor against transfer than minor children for whom the
           inmate had been the custodial parent or to whom the inmate
           had otherwise been very close; in these cases, it is generally
           assumed that transferring the inmate away from the children
           would not accomplish the social goals of transfer, and that the
           inmate would attempt to return to the children upon release.

    (f) Transfers to third countries. Occasionally, transfer is sought by
an inmate whose most significant ties are neither to the receiving country
nor to the sending country, but are to third country with which the
United States does not have a treaty. Such cases need to be carefully
evaluated. If the receiving country will accept the inmate, if the inmate is
not a major violator, and if incarceration there seems to be in the
inmate’s best interest, transfer will usually be permitted.

    (g) Humanitarian concerns. “Humanitarian concerns” normally
refers to the terminal illness of the inmate or a member of his immediate
family. Occasionally, humanitarian concerns justify a transfer which
would otherwise not be approved, so long as the transfer would not
violate the treaty; an example of this would be the terminal illness of the
inmate himself. Other times, humanitarian concerns are simply treated
as another factor supporting transfer; an example of this would be the


U.S. Department of Justice                                              113
Office of the Inspector General
Evaluation and Inspections Division
grave illness of a parent or child. Illnesses for which the inmate is being
or could be treated in the United States, or the advanced age of parents,
do not justify a transfer on humanitarian grounds.

    (h) Length of time in the United States. Length of time in the
sending country is an important social factor. If the inmate has been in
the United States for such a long time that he has in fact become a
member of this society, his social rehabilitation will not be facilitated by
sending him to a different one.

    (2) Law enforcement concerns

      Social rehabilitation is not the only purpose of incarceration, and
therefore cannot be the sole consideration in evaluating inmate transfer
requests or take precedence over all other objectives. Law enforcement
and justice concerns must also be considered, regardless of the possible
consequences for the inmate’s social rehabilitation. These considerations
are the normal ones in any sentencing or parole decision:

   (a) Seriousness of the offense. The more serious the offense, the
more important the certainty of incarceration in the place it was
committed becomes.

   (b) Public sensibilities. Would the return of the inmate to a foreign
country so outrage public sensibilities because of the extremely serious
nature of the inmate’s crimes or the circumstances surrounding the
inmate’s crimes as to outweigh the rehabilitation considerations?

    (c) Public policy. Would the return of the inmate to a foreign country
be contrary to the public policy of the United States?

    (d) Reintegration and renewed criminal activity in receiving country.
Are the inmate’s ties to criminal elements in his home country such that
his return there would simply facilitate a resumption of his criminal
activity? Would transfer enhance the possibility of reprisal or
intimidation.

    (e) Possible sentencing disparity. When an inmate is transferred,
responsibility for administering his sentence belongs exclusively to the
receiving country. Under the COE Convention, the receiving country has
the option of converting the sending country’s sentence, through either a
judicial or administrative procedure, into its own sentence; that is, the
receiving country may substitute the penalty under its own laws for a
similar offense. (There are certain limitations on converting the


U.S. Department of Justice                                               114
Office of the Inspector General
Evaluation and Inspections Division
sentence. The receiving country is bound by the findings of facts insofar
as they appear from the judgment, cannot convert a prison term into a
fine, and cannot lengthen the prison term.) However, regardless of
whether the sentence is continued or converted, responsibility for
administering it rests solely with the receiving state.

    (f) Law enforcement and prosecutorial needs in the sending country.
These must be considered before transfer, since once the inmate is
transferred, the sending country no longer has any authority or control
over him. Before approving transfer, the sending country must therefore
consider factors such as:

           (i) Is the inmate’s testimony needed against codefendants?

           (ii) Are there fugitives in the inmate’s case whose apprehension
           would require inmate’s presence to help make the case against
           the them?

           (iii) Are there other open cases or investigations involving the
           inmate?

           (iv) Is there a need for further debriefing by law enforcement
           agents in the sending country?

     (g) Unpaid court-ordered assessments, fines. or restitution. Because
all supervisory authority over the inmate is terminated when the inmate
transfers, financial obligations of the inmate need to be settled prior to
transfer.

    (3) Likelihood of Return to the United States

     Allowing a foreign national inmate to serve out the remainder of his
United States sentence in his own country only makes sense if the
inmate will remain in his own country after his release. Therefore, a
critical consideration in evaluating a transfer request is whether in fact
the inmate will stay in the receiving country, or will return to the sending
country. A number of factors are considered in making this
determination:

    (a) Existing ties to the United States. This has been discussed in
detail under Family and other social ties to the sending and receiving
countries, above. The location of the inmate’s family, his residence and
domiciliary status in the United States and the receiving country (for
example, does he still own a residence in the United States, does he have


U.S. Department of Justice                                               115
Office of the Inspector General
Evaluation and Inspections Division
any obvious residence in the receiving country), whether he had a non-
criminal occupation or professional career in the sending or receiving
country, the relative proximity of the receiving country’s borders to the
United States and how easy or difficult it would be as a practical matter
to return to the United States, and his immigration status, are all factors
to take into account in determining whether the inmate would likely
remain in the receiving country.

   (b) Previous inmate transfer. If an inmate has previously been the
beneficiary of a treaty transfer, he is ineligible for transfer.
Reapplications after a previous transfer are always denied.

    (c) Previous deportations and illegal reentries. Recent deportation(s)
or numerous illegal entries into the United States will generally bar a
treaty transfer.




U.S. Department of Justice                                             116
Office of the Inspector General
Evaluation and Inspections Division
      APPENDIX V: INTERNATIONAL TREATIES AND TRANSFER 

         REQUIREMENTS GOVERNING TREATY TRANSFER 



Treaties

Treaty on the Execution of Penal Sentences Between the United States and
Mexico

      The treaty between the United States and Mexico was prepared,
signed by Mexico, and forwarded to Congress in November 1976.
Congress approved the treaty in 1977. The treaty stated that any
Mexican citizen jailed in the United States could be sent, with his
consent, back to Mexico to serve the remainder of his sentence; and any
United States citizen jailed in Mexico could, with his consent, return to
the United States to serve the remainder of his sentence.

Council of Europe Convention on the Transfer of Sentenced Persons (the
COE Convention)

       The United States agreed to participate in the Council of Europe in
1983, and the COE Convention was enacted on July 1, 1985. It was the
first of the multi-lateral prisoner transfer treaties that the United States
entered into. The COE Convention is the guiding document for the
United States’ treaty transfer of inmates to and from European
countries.120 The COE Convention’s primary purpose is to facilitate the
social rehabilitation of prisoners, as well as consider humanitarian
reasons for transfer. The COE Convention also recognized that the lack
of contact with relatives and language barriers may prove to be
detrimental to the prisoner, thus, the council determined that prisoners
would be best served by being incarcerated in their own society.



       120  COE Convention countries include: Albania, Andorra, Armenia, Austria,
Azerbaijan, Belgium, Bosnia and Herzegovina, Bulgaria, Croatia, Cyprus, Czech
Republic, Denmark, Estonia, Finland, France, Georgia, Germany, Greece, Hungary,
Iceland, Ireland, Italy, Latvia, Liechtenstein, Lithuania, Luxembourg, Malta, Moldova,
Montenegro, Netherlands, Norway, Poland, Portugal, Romania, Russia, San Marino,
Serbia, Slovakia, Slovenia, Spain, Sweden, Switzerland, the former Yugoslav Republic of
Macedonia, Turkey, Ukraine, United Kingdom, Australia, Bahamas, Bolivia, Canada,
Chile, Costa Rica, Ecuador, Honduras, Israel, Japan, South Korea, Mauritius, Mexico,
Panama, Tonga, Trinidad and Tobago, and Venezuela. Source:
http://conventions.coe.int/Treaty/Commun/ChercheSig.asp?NT=112&CM=8&DF=&CL
=ENG (accessed November 16, 2011).



U.S. Department of Justice                                                        117
Office of the Inspector General
Evaluation and Inspections Division
Inter-American Convention on Serving Criminal Sentences Abroad (the OAS
Convention)

       The OAS Convention was adopted on April 12, 1996, and “entered
into force” for the United States on May 25, 2001.121 The OAS
Convention states that its goals are to ensure improved administration of
justice through rehabilitation of the sentenced person. It states that in
order to meet these goals, “it is advisable that the sentenced person be
given an opportunity to serve the sentence in the country in which the
sentenced person is a national.” This agreement allows the United States
to transfer offenders to and from 16 countries.122

Treaty Transfer Requirements

      Prisoners who request to be transferred must meet basic eligibility
requirements based on the international treaties:

   	 The inmate must be convicted and sentenced.

   	 The judgment must be final with no pending appeals or collateral
      attacks.

   	 The inmate must be a national of the receiving country.

   	 The inmate, the sentencing country, and the receiving country
      must all consent to the transfer.

   	 Dual criminality must exist (that is, the crime for which the inmate
      was convicted must also be a crime in the receiving country).

   	 A minimum period of time must remain on the sentence, typically
      at least 6 months.

      Individual countries may have additional requirements. For
example, the bilateral treaty with Mexico does not permit the transfer of
offenders who have committed an immigration offense, become a

       121   Inter-American Convention, http://www.oas.org/juridico/english/sigs/a-
57.html.

       122 OAS Convention countries include: Belize, Brazil, Canada, Czech Republic,
Chile, Costa Rica, Ecuador, El Salvador, Guatemala, Kingdom of Saudi Arabia, Mexico,
Nicaragua, Panama, Paraguay, Uruguay and Venezuela. Source:
http://www.oas.org/juridico/english/sigs/a-57.html (accessed November 16, 2011).



U.S. Department of Justice                                                       118
Office of the Inspector General
Evaluation and Inspections Division
domiciliary of the sentencing state, or are serving a life sentence.123 In
addition:

   	 Ten countries will not accept inmates committed for a military
      offense (Bolivia, Canada, France, Marshall Islands, Mexico, Palau,
      Panama, Peru, Thailand, and Turkey).

   	 Five countries will not accept inmates who have been sentenced to
      death (Bolivia, Marshall Islands, Palau, Panama, Peru, and
      Turkey).

   	 Two countries will not accept inmates sentenced for a political
      offense (Mexico and Turkey).

National and Department Policies Governing Treaty Transfer

       The legal requirements for transferring foreign nationals to their
countries to serve sentences imposed by the United States are
established through federal statutory and regulatory provisions. Below is
a brief description of those provisions and related Department
component policy.

Federal Statutes and Regulations

Public Law 95-144

      Congress passed this legislation and it was signed into law by the
President on October 28, 1977. The law establishes the framework and
requirements for the treaty transfer program. Among the essential
requirements of the statute are that a treaty must exist with the country
to which the prisoner is seeking to transfer and the prisoner must be a
national of that country. This law amended Title 18, United States Code,
to add Chapter 306 – Transfer to or from Foreign Countries.

18 U.S.C. §§ 4100 to 4115

      In 1977, Congress gave the Attorney General the authority to act
on behalf of the United States to oversee the administration of the treaty
transfer program. The provisions of these sections are only applicable

       123  The Mexican transfer treaty has a specific definition of what is meant by
becoming a domiciliary. Article IX(4) provides that, “A ‘domiciliary’ means a person who
has been present in the territory of one of the parties for at least five years with an
intent to remain permanently therein.”



U.S. Department of Justice                                                         119
Office of the Inspector General
Evaluation and Inspections Division
when there is a transfer treaty in place and to transfers of offenders to
and from a foreign country pursuant to the treaty. Among other things,
the sections also state that the offender must be a national or citizen of
the country that the offender is going to and the offender must consent
to the transfer. Finally, the sections state that an offender will not be
transferred if an appeal or collateral attack upon the conviction is
pending.

28 U.S.C. § 2255

      In 1948, Congress enacted 28 U.S.C. § 2255 as a substitute for
habeas corpus for federal prisoners.124 28 U.S.C. § 2255 allows federal
prisoners to collaterally attack their convictions by filing a motion rather
than a habeas petition in the district in which they were convicted and
sentenced rather than in the district of their confinement.

28 C.F.R. Part 0 Subsection Q § 0.96b

      In 1977, the BOP Director and his or her designees were
authorized to receive custody of prisoners and to transfer prisoners to
and from the United States under a treaty as referred to in Public Law
95-144.

28 C.F.R. Ch. 5 §§ 527.40 - 527.46

       Sections 527.41 and 527.43-46 (enacted in 1981) and Section
527.42 (enacted in 1983) establish the BOP’s role in the treaty transfer
process and present the BOP’s responsibilities in the treaty transfer
process. The BOP’s responsibilities include: (1) that BOP case managers
will notify inmates of the program so that the inmates may have an
opportunity to accept or decline, (2) wardens will verify that inmates are
qualified for transfer and forward the applications to the Assistant
Director, Correctional Programs Division, and (3) the Assistant Director
will review the submitted material and then forward the applications to
OEO. The Assistant Director is also responsible for notifying inmates
whether OEO has decided in favor of or against the inmates’ requests to
transfer. Finally, if a request is approved, the Assistant Director will
arrange for the inmate to have a consent verification hearing, take the

       124   Habeas corpus can be defined as any of several writs originating at common
law that are issued to bring a party before the court. The most commonly used of those
writs is called habeas corpus ad subjiciendum, which is defined as an extraordinary
writ issued upon a petition challenging the lawfulness of restraining a person who is
imprisoned or otherwise in another’s custody.



U.S. Department of Justice                                                        120
Office of the Inspector General
Evaluation and Inspections Division
inmate to a departure institution, and turn over the inmate to authorities
from the inmate’s country of nationality.125

28 C.F.R. Part 0 Subsection K § 0.64-2

       This subsection, enacted in 2007, authorizes the Assistant
Attorney General of the Criminal Division to determine whether the
transfer of offenders to or from a foreign country under a treaty as
referred to in Public Law 95-144 is appropriate or inappropriate. The
Assistant Attorney General of the Criminal Division has delegated his
authority to the Deputy Assistant Attorney General of the Criminal
Division, the Director of OEO, and the Associate Directors of OEO.

Department Component Policy

BOP Program Statement 5140.39

       The BOP’s program statement, last revised on December 4, 2009,
establishes policies and procedures to govern the BOP’s administration of
the treaty transfer program, including informing inmates about the
program and determining an inmate’s eligibility for treaty transfer. The
program statement also contains a list of the countries that have transfer
treaties with the United States. The program’s objectives are stated as
the following:

            all inmates will be notified of the treaty transfer program at the
             admission and orientation meeting,
            transfers will be voluntary and subject to both countries’
             approval,
            inmates with committed fines will only be transferred after
             receiving permission from the court, and
            eligible inmates will be transferred to or from foreign countries
             pursuant to the treaty.

      The program statement also discusses what each level of BOP
management is required to do. For example, the warden must forward
the application packet to the BOP’s Central Office within 60 days. Then,
the Assistant Director, Correctional Programs Division, must review the
application packet and forward it to IPTU within 10 days.



       125  The BOP and Criminal Division are both involved with the consent
verification hearing process at various stages.



U.S. Department of Justice                                                     121
Office of the Inspector General
Evaluation and Inspections Division
IPTU Guidelines for the Evaluation of Transfer Applications of Federal
Prisoners

       The treaty transfer program has no formal regulations that govern
the considerations applied to prisoner transfer requests. IPTU has
guidelines, implemented in February 2003, that are used to evaluate
whether the inmate requesting treaty transfer is a suitable candidate.
These guidelines set forth a number of factors that are considered in
determining the suitability of prisoners for transfer, such as the
likelihood of social rehabilitation, law enforcement concerns, and the
likelihood that the inmate will return to the United States. IPTU’s
guidelines state that to determine the likelihood of social rehabilitation,
IPTU evaluates an inmate’s acceptance of responsibility for the offense,
criminal history, seriousness of the offense, criminal ties to the sending
and receiving countries’, family and social ties to the sending or receiving
country, whether the prisoner is a citizen of a treaty country,
humanitarian concerns, and length of time in the United States.

        However, because social rehabilitation is not the only reason an
inmate is incarcerated, a number of law enforcement and justice
concerns need to be considered when evaluating an inmate for treaty
transfer. To evaluate law enforcement concerns regarding an inmate’s
incarceration, IPTU considers the seriousness of the inmate’s offense,
public sensibilities, public policy, possible sentencing disparity, and law
enforcement or prosecutorial needs. Finally, IPTU evaluates the
likelihood that the inmate will return to the United States because IPTU
will allow an inmate to serve his sentence in his own country only if they
are going to stay there after release. To determine the likelihood that the
inmate will return to the United States, IPTU evaluates existing ties to
the United States, any previous prisoner transfer, and previous
deportations or illegal re-entries.

Criminal Division Memorandum on the International Prisoner Transfer
Program

      On August 7, 2002, the Assistant Attorney General of the Criminal
Division issued a memorandum to all USAOs stating that it was critical
that USAOs provide timely and meaningful responses to IPTU inquires.
The memorandum established a 3-week time frame for AUSAs to respond
to IPTU requests for information. The memorandum stated that if an
AUSA does not respond within the established 3 weeks then IPTU will
assume that the USAO does not have any objection to the transfer and
proceed with its review.



U.S. Department of Justice                                               122
Office of the Inspector General
Evaluation and Inspections Division
       The memorandum also dispels some misconceptions AUSAs had
about the treaty transfer program. Those misconceptions included the
belief that prisoners will serve lesser sentences in their home countries,
lack of confidence in the Mexican prison system, and the likelihood that
transferred prisoners will return to the AUSAs’ jurisdictions and commit
new crimes. The memorandum stated that most of these misconceptions
were unfounded and should not be a reason for an AUSA to object to a
transfer. Finally the memorandum warned against blanket USAO
policies against recommending transfers, citing that such policies went
against the United States’ treaty obligations and Department policy.

United States Attorneys’ Manual

       The USAM is a reference manual for United States Attorneys,
AUSAs, and Department attorneys responsible for the prosecution of
violations of federal law. It contains general policies and procedures
relevant to the work of the USAOs. Title 9 of the USAM is the Criminal
Resource Manual, which in Section 9-35.000 provides information on
international prisoner transfers and the procedures that USAOs must
follow.

       Specifically, the manual describes the purpose of the treaty
transfer program and the role of USAOs in the transfer program. The
manual explains that most prisoner transfer treaties delineate some
eligibility restrictions and that, in general, the prisoner must:

          be a citizen or national of the country to which he wishes to
           transfer;
          may not be a citizen of the United States;
          the offense for which the prisoner is incarcerated must be a
           crime under the laws of the receiving country;
          at least 6 months must remain on the sentence at the time of
           application; and
          there must be no appeal or other criminal proceeding still
           pending.

It also states that individual treaties have additional requirements for
transfer.

       In addition, the Criminal Resource Manual describes that
administration of an inmate’s sentence is transferred and the completion
of the transferred offender’s sentence is carried out in accordance with
the laws and procedures of the receiving country, including the
application of any provisions for reduction of the term of confinement by


U.S. Department of Justice                                                 123
Office of the Inspector General
Evaluation and Inspections Division
parole, conditional release, or otherwise. The manual also describes the
treaty transfer application and review process, including that eligible
inmates request transfer through the BOP, the BOP prepares an
application packet, IPTU evaluates applications, and an OEO official
makes a final decision to approve or deny transfer requests.

       The Criminal Resource Manual also explains that inmates whose
requests to transfer are denied are permitted to reapply for transfer in 2
years and that applications will be reconsidered before the 2 years have
passed if extraordinary humanitarian reasons justifying a transfer arise
or are discovered. Also, in the case of any defendant for whom the USAO
expects to support an eventual treaty transfer, the manual states that it
is advisable to alert defense counsel to the importance of resolving issues
relating to the defendant’s immigration status and of obtaining, where
feasible, an order of deportation, either in the form of: (1) a stipulated
administrative or judicial deportation order in connection with plea
agreements or (2) a (non-stipulated) judicial order of deportation.
Furthermore, the manual explains that once an inmate is approved for
transfer, IPTU coordinates a consent verification hearing with the BOP,
the Administrative Office of the United States Courts, and AUSAs.
Finally, the Criminal Resource Manual provides a list of the countries
with which prisoner transfer treaties are in effect.




U.S. Department of Justice                                             124
Office of the Inspector General
Evaluation and Inspections Division
         APPENDIX VI: METHODOLOGY OF THE OIG REVIEW 



       We reviewed whether the Department and its components are
effectively managing the treaty transfer program for foreign national
inmates. We reviewed federal laws and regulations; BOP program
statements; BOP, OEO, and USMS policies and procedures; and written
correspondence of recommendations between Department and
component officials. We conducted case file reviews of inmates whose
requests for treaty transfer were approved and inmates whose requests
were denied, and we interviewed Department officials with the BOP,
EOUSA, FBI, Criminal Division, USAOs, and USMS. The following
provides additional information related to the methodology of our review.

Data Analysis

Timeliness

      To determine timeliness by the BOP and IPTU, we obtained data
from the BOP to define a foreign national inmate’s time “in the program.”
We defined “in the program” as the date the inmate signed the transfer
inquiry form as listed in SENTRY to the date IPTU made a decision on
the application. Using data the BOP and IPTU provided for their
respective times to process transfer requests, we were able to calculate
the number of days it took the BOP to process an inmate and IPTU to
make a decision.

Costs

       To determine the costs associated with incarcerating a foreign
national inmate, the BOP provided data on daily and annual costs for
prisons by security level. Using the “in the program” dates, we were able
to calculate the number of days each participant in the program spent in
a BOP prison from FY 2005 through FY 2010. Using the corresponding
cost estimate the BOP provided for the security level of the prison, we
were able to determine how much each inmate cost the BOP during his
time in the program.

       The cost data provided by the BOP represented the total annual
and daily cost to cover the incarceration of an inmate, which is the same
data the BOP provides to the Justice Management Division as
justification for its annual budget submission, rather than the “marginal”
cost recommended by the BOP and IPTU in response to a working draft
of this report. Also, the Government Accountability Office (GAO) utilized


U.S. Department of Justice                                            125
Office of the Inspector General
Evaluation and Inspections Division
the total costs provided by the BOP including “correctional officer salary,
medical care, food service, and utilities” in a recent report.126 Using
these cost estimates, the GAO reported that the estimated annual cost to
incarcerate criminal aliens in BOP facilities ranged from $1.1 billion in
2005 to $1.3 billion in 2009. Finally, the average annual cost used by
the OIG was consistent with the BOP’s submission to the Federal
Register as the fee to cover the average cost of incarceration for a single
inmate.

      To calculate the cost to the Department for delays in processing by
the BOP and IPTU, we calculated the number of days to process each
inmate’s application. From that total, we subtracted the number of days
outlined in the BOP program statement (60 days) or IPTU expectation (90
days) from the total to obtain the number of days “over” the processing
time. With that figure, we multiplied the daily average cost of
incarcerating an inmate from FY 2005 through FY 2010 by the number
of days over the expected timeliness standard in processing applications
by inmates ultimately transferred in the program.

       We limited our analysis to those inmates within the scope of our
review, FY 2005 through FY 2010.127 In addition, we calculated costs for
those inmates in the treaty transfer program, which is defined as the
date the inmate signed the transfer inquiry form to the date the inmate:
(1) had his request approved by IPTU, (2) was transferred, or
(3) remained in custody pending a decision by IPTU. In addition, our
analysis includes the costs associated with the inmate at the inmate’s
designated prison at the time of our data request. Therefore, our
analysis does not include the costs for housing inmates if they were
transferred to a different prison with a higher or lower security level or a
medical facility during the course of our review. We also did not
calculate the costs for inmates incarcerated while waiting on a foreign
country decision because we did not have foreign country approval dates.
These costs would increase or decrease the cost of maintaining a foreign
national in BOP custody.




       126  Government Accountability Office, Criminal Alien Statistics: Information on
Incarcerations, Arrests, and Costs, GAO-11-187 (March 24, 2011).

       127 Inmates who were housed in a BOP prison and signed the transfer inquiry
form before the start of our scope were included in our analysis because a decision to
approve or deny an inmate was made by IPTU during FY 2005 through FY 2010.



U.S. Department of Justice                                                           126
Office of the Inspector General
Evaluation and Inspections Division
Limited Sample of Ineligibility Determinations

       We reviewed a small sample of ineligibility determinations made
by the BOP from FY 2005 through FY 2010. Our sample was limited to
52 cases because the BOP’s Office of Research and Evaluation stated
that staff would have to do manual research to determine why each
case was determined to be ineligible for a treaty transfer since this
information is generally not available in SENTRY. Our sample selection
methodology was not designed with the intent of projecting our results
to the 67,455 inmates determined ineligible for treaty transfer.

Case File Review

       We conducted a case file review of Inmate Central Files for a
sample of 167 case files from Low Security Correctional Institution (LSCI)
Allenwood, Correctional Institution (CI) McRae, Federal Correctional
Institution (FCI) Safford, and FCI Petersburg. The files were chosen
using proportional random sampling based on country of citizenship
data provided by the prison. The purpose of our Inmate Central File
review was to obtain dates on the prison’s process, including date of
admission and orientation, first meeting with the case manager, and the
dates of review by prison management.

       We also reviewed 511 IPTU case files, chosen by the OIG’s
statistician using stratified random sampling based on IPTU decisions
and country of citizenship, of inmates whose requests were approved,
denied, or who had been transferred. The purpose of our IPTU case file
review was to obtain dates on IPTU’s process, including the date the
USAO responded to IPTU requests, the date law enforcement agencies
responded to IPTU requests, and the reasons supporting or opposing
transfer. Our review of IPTU case files was based on the singular use of
denial codes, although IPTU will deny an inmate’s transfer request for
more than one reason.128

       When IPTU analysts evaluate inmates for suitability for transfer,
they use criteria derived from the guidelines. In their recommendations
for transfer, IPTU analysts justify their use of criteria in the application
summary that is reviewed by IPTU management. We reviewed these
justifications and found examples of inconsistent reasons for IPTU
analysts’ recommendations to approve or deny inmates for treaty

       128  We found that IPTU denied transfer requests for a single reason 68 percent
of the time, but it also denied transfer requests for more than one reason 31 percent of
the time.



U.S. Department of Justice                                                          127
Office of the Inspector General
Evaluation and Inspections Division
transfer. This has resulted in some inmates being disapproved while
others in similar circumstances were approved. Some of the
justifications we reviewed presented more than one criteria for approval
or denial. Because IPTU can deny an inmate for multiple reasons, our
analysis was limited to the individual justification for specific criteria.
We analyzed and compared similar justifications that appeared in
multiple recommendations for approval or denial of treaty transfer
requests.

Document Analysis

       We reviewed guiding laws, treaties, and legislative history of the
treaty transfer program. We also reviewed BOP program statements,
training materials, correspondence between the BOP’s Central Office and
BOP prisons, and treaty transfer program documents. In addition, we
reviewed IPTU internal memoranda, evaluative guidelines, and denial
codes. During our IPTU case file review, we analyzed case file documents
and IPTU correspondence with analysts, USAOs, and law enforcement
agencies.

Interviews

     Organization/Division                               Position
Federal Bureau of Prisons
                                      Assistant Director Correctional Programs
                                      Division
                                      Senior Deputy Assistant Director
                                      Administrator, BOP Correctional Programs
                                      Division
                                      Assistant Administrator, BOP Correctional
BOP Headquarters                      Programs Division (x3)
                                      Senior Program Specialist, Correctional
                                      Programs Division (x3)
                                      Deputy Chief, Labor Management Relations
                                      Office of Information Systems IT Specialist
                                      National Institute of Corrections Representative
                                      Research Analyst
                                      Unit Manager and Treaty Transfer Coordinator
FCI La Tuna
                                      Assistant Case Management Coordinator
Sea Tac                               Case Management Coordinator
Metropolitan Detention Center,        Case Management Coordinator
Los Angeles
FCI Ray Brook                         Case Management Coordinator
FCI Texarkana                         Case Management Coordinator
                                      Security Officer
MCC New York
                                      Correctional Services Officer
FDC Miami                             Supervisory Inmate Systems Specialist
BOP JPATS                             Prisoner Transportation Coordinator


U.S. Department of Justice                                                        128
Office of the Inspector General
Evaluation and Inspections Division
       Organization/Division                              Position
                                       Associate Warden (x2)
                                       Case Management Coordinator
                                       Unit Manager (x2)
LCIS Allenwood
                                       Acting Warden
                                       Case Manager (x6)
                                       Inmates (x12)
                                       Warden
                                       Associate Warden
                                       Case Management Coordinator
CI McRae                               Unit Manager (x7)
                                       Case Manager (x12)
                                       Chief Scheduler
                                       Inmates (x12)
FCI Petersburg                         Case Manager (x5)
                                       Warden
                                       Associate Warden
                                       Case Management Coordinator
FCI Safford                            Unit Manager
                                       A&O Coordinator
                                       Case Manager (x8)
                                       Inmates (x12)
Office of Enforcement Operations
Office of Enforcement Operations       Director
                                       Deputy Chief
International Prisoner Transfer Unit   Chief
                                       Deputy Chief (x4)
                                       Program Analyst
                                       IPTU Attorneys (x4)
                                       Paralegal Specialist (x3)
                                       IPTU Data Representative
United States Marshals Service
                                     Acting Chief, Prisoner Operations
                                     Chief, JPATS
                                     Chief of Scheduling
Executive Office for the United States Attorneys
                                     Legislative Counsel
Federal Bureau of Investigation
                                     FBI NCIC Unit Chief
United States Attorneys’ Offices
                                     Criminal Chief, Southern District of Texas
                                     Criminal Chief, District of Arizona
                                     Section Chief, District of Arizona (Phoenix)
                                     Section Chief, District of Arizona (Tucson)
                                     Criminal Chief, Central District of California
                                     Criminal Chief, Western District of Texas
                                     Criminal Chief, Middle District of Pennsylvania
                                     Criminal Chief, Southern District of Georgia
                                     Criminal Chief, Northern District of Mississippi
                                     Chief, Organized Crime Drug Enforcement Task
                                     Force, Southern District of California


U.S. Department of Justice                                                       129
Office of the Inspector General
Evaluation and Inspections Division
      Organization/Division                                 Position
                                       Criminal Chief,   Eastern District of Virginia
                                       Criminal Chief,   Southern District of California
                                       Criminal Chief,   Northern District of Georgia
                                       Criminal Chief,   Southern District of Florida
                                       Criminal Chief,   Eastern District of California
                                       Criminal Chief,   Western District of Washington
                                       Criminal Chief,   Southern District of New York
Non-DOJ Interviews
Administrative Office for the United   Chief of the Criminal Law Policy Staff
States Courts

Site Visits

       The team conducted site visits to five prisons: FCI La Tuna, LSCI
Allenwood, CI McRae, FCI Safford, and FCI Petersburg. At the
recommendation of BOP staff, we visited FCI La Tuna to observe a
consent verification hearing. We visited LSCI Allenwood at the
recommendation of BOP and IPTU staff. We visited CI McRae because it
is a contract institution with increasing involvement in treaty transfer
over the last 3 years and has a highly diverse foreign national inmate
population. We visited FCI Safford because of the number of
applications for transfers to Mexico it produced from FY 2005 through
FY 2010.

        While on our site visits, we encountered difficulties at three
prisons. At LSCI Allenwood, case managers initially would not speak to
our team without union representation. The union’s president told us
that he could be excused from interviews only by the warden. However,
at the time of our visit, the warden was not available. At FCI Safford, we
learned that case managers were provided a “quiz” by institution
management on the treaty transfer program to prepare for our visit.
Because of this quiz, we decided to conduct a 1-day site visit to another
prison with inmates who applied to the treaty transfer program. We
chose FCI Petersburg because of the number of inmates in the treaty
transfer program and its proximity to Washington, D.C. During our case
file review at FCI Petersburg, we discovered an inmate’s case file with a
Transfer Inquiry Form dated and signed by the inmate the day of our
visit. This inmate’s request had previously been denied, but the inmate’s
case file was missing his application packet, indicating that institution
staff had checked the case files prior to our arrival and had made
adjustments to ensure that all treaty transfer documents were in place
and correctly dated. These actions may have corrected problems, or
provided the staff we interviewed with knowledge they did not have
previously, which could have prevented the OIG from identifying further
shortcomings. We also later learned that case managers at FCI

U.S. Department of Justice                                                          130
Office of the Inspector General
Evaluation and Inspections Division
Petersburg were asked by the Case Management Coordinator to “PLEASE
read the program statement on treaty transfer” and to “Please know the
policy.” Case managers were told the “OIG is doing an audit and will be
interviewing all case managers.”




U.S. Department of Justice                                         131
Office of the Inspector General
Evaluation and Inspections Division
    APPENDIX VII: BOP 297 TREATY TRANSFER INQUIRY FORM 




                                             Transf e r   .Inq\.liry CDFRM
     ,~,


     U.,    ."DEPARTMENT       OF JOSTle E                                      FEDERAL   B UREAU OF PRISON       ,
      L        ..   ~                                        ..   Date   o~   Sieth


      ,        ~e9ister   Number                             ..   Citi~enl>hlp




      ••       Institution                                   ..   Place of Birth


      ,.       Sentence                                      ••   Offense


      ,.       t.angu"ge Pref erence




     1 hereby indicate an 1nten.st 1n being tr.. n"fe rred to <lontinu" "erving the .entence
     imposed. by United State.. JudiciaJ AuthorJtie1:l to the country of c1.tizenship indicated.
     above.       r understand that thi .. is just an inqujry to obtain dat .. betore. the actu .. l reque .. t
     for transfer and is not binding upon "Jt h"r the govern ment or me.                  I understand th"t 1
     will need to contllct the consulate and nctJfy them of my intere.t in order for my home
     country to vel'lfy my c i tilen,;hip.          I Undel'Btllnd that fllilure to make suc:h c:ontact may
     .. ignifiellntly d elay or pre v e nt a tllvor;o.bl e decidon on my trans!,..,,: request.        I understand
     thllt upon approval for tr .. n .. fer, 1 will b .. r equi red to lIt.tend II verification h .... ring
     b .. for .... unit .. d Stat .... Magiotrat " Judge    t have indic:atf!d .. bove th .. la nguage prefer .. nce
     fo r my v .. rifie"tion hearing and unde rstand a n interpret.,r will b., "vulable 1f nec.,SGary .

     I under &t .. nd I 11m not eligible to app l y for transf ... it 1 hav .. an "ppeal Dr <:ollat.,r"l
     att a ck pending, but that 1 .. ay apply when the. "ppeal or col1at.. r ... l attac k proce •• hao
     concluded .




     NO,     I AX NOT tNTEJtEST&[) ,

     r h e reby indicate that at thl0 time, I am NOT int .. re~t .. d in betng tr"n5f .. rr .. d to continue
     .. erving the Bent e nee impo .... d by the Unit e d states Judi cial "uthodt;'.,,,, to the country of
     the citize n .. hlp indie .. ted "bove .  I underatand I Ca n llpply at any time .



          !ruM.te Signature




      r I ~E   IN SECT I ON 2 UNLESS APP ROPRIATE FOR PRIVACY ' OLDER                      SECTION 2




U.S. Department of Justice                                                                                             132
Office of the Inspector General
Evaluation and Inspections Division
                         APPENDIX VIII: IPTU DENIAL CODES 





                                                                                      REVISED:   ~"/la

                                 lPIU DENIAL AND DEFERRAL CODES

              APLS           Pending appt1lll or collateral attAck
              CHGS           Pending charges or delainen (silite or fed eral)
             CRlM            Poor candidate (i.e. long criminal record and/or violent crim e)
             DOMY            Domiciliary of tbe U.S. and/or Legal Permanent Resident (LPR)
             FINE            Unpaid fine
             JlJST           DOe$ not serve the ends of justice
             LENFI           Law c nflm:emenl CQDc(rns (sometimes UODO' be dilld osed to th e
                             prisoner)
             LONG            Sentence length too loog for Muican trallllfer
             MISe'           Other (acton weighing aga inSllraDsfcr
             NOCT            Insufficient contacts with receiving country
             PAST            Previously deported or multiple documented illegal entries
              'REV           Was transferred previously
             REST            Outstanding restitution owed
             SIGe            S ignificant contacts to th e U.S. (less thaD required for DOMY)
             SOON            Insufficient remaining ~~n lence
             SROC            SeriousnU5 of tb~ offens~
             TEST'           Needed for testimony or further d~briding in Ibe U.S.
             TRTY            Treaty prohibilion' (i.e. excluded offense, dual criminali ty,
                             indeterminate senteoce, 001 a citizen or national uflbe re«iviog
                             country)
             WASN            Withdrawal of approval benuse counlry ha3 failed 10 decide tbe ease
                             and the case has become a "SOON"
             WEAP            Pruence orweapons causes concern


               I The "LENF" code describes a wide range of law enforcement issues that weigh against
      lransfer including the need for the prisoner's testimony in trial or grand jury proceedings or the
      existence of a pendi ng investigation involving the prisoner. It differs from the testimony code in
      thaI it should be used when the AUSA or the law enforcement agencies have requested thaI the
      substance of their objection not be disclosed 10 the prisoner. The "LENF" code is also broader
      than the "TEST' code in that il includes nontestimonial law enforcemenl impediments to
      transfer, thaI it mayor may nOI be permissible to disclose to the prisoner. As a result, the
      appeanuu:e orlhis code should alert you that careful review of the file is necessary 10 detennine
      if disclosure is permissible.

             1 10 responding to any inquiry in which the "MiSe" code is used, il will be necessary 10
      review carefully the c.ase recommendation memo and comments to identify the specific reason or
      reasons for denial.

              1 This code should be used when further testimony or debriefiogs of lhe prisoner are
      needed by the govc"mment and th e responsible AUSA or law enforcement agency does.!!..!!.l object
      to disclosing this infonnation 10 the prisoner. lflber object, the "LENF"' code should be used.



                                                                                                 Attachment 56




U.S. Department of Justice                                                                                       133
Office of the Inspector General
Evaluation and Inspections Division
    APPENDIX IX: TOTAL APPLICATIONS, APPROVED APPLICATIONS, 

     AND NUMBER OF INMATES TRANSFERRED BY COUNTRY AS OF 

                        SEPTEMBER 2010 



                                                                      Number of
                           Total          Approved       Percentage
         Country                                                       Inmates
                        Applications     Applications*    Approved
                                                                      Transferred
ALBANIA                      12               0             0%            0
ARMENIA                       3               0             0%            0
ARUBA                         4               3            75%            3
AUSTRALIA                     7               3            43%            0
AZERBAIJAN                    1               0             0%            0
BAHAMAS                     185               57           31%            45
BELGIUM                       4               0             0%            0
BELIZE                       33               5            15%            4
BERMUDA                      16               7            44%            3
BOLIVIA                       9               1            11%            1
BOSNIA AND
HERZEGOVINA
                              3               0             0%            0

BRAZIL                       14               1             7%            0
BRITISH VIRGIN
ISLANDS
                              2               0             0%            0
BULGARIA                      4               1            25%            1
CANADA                      909              446           49%           297
CAYMAN ISLANDS                2               0             0%            0
CHILE                         6               1            17%            1
CHINA*                        1               1            100%           0
COLOMBIA*                     7               1            14%            1
COSTA RICA                   23               7            30%            4
CROATIA                       1               0             0%            0
CUBA*                         3               0             0%            0
CZECH REPUBLIC                1               1            100%           1
DENMARK                       2               1            50%            1
DOMINICAN
REPUBLIC*
                             13               5            38%            4
ECUADOR                      40               14           35%            11
EL SALVADOR                  36               0             0%            0
FINLAND                       1               0             0%            0



   U.S. Department of Justice                                                  134
   Office of the Inspector General
   Evaluation and Inspections Division
                                                                      Number of
                           Total          Approved       Percentage
         Country                                                       Inmates
                        Applications     Applications*    Approved
                                                                      Transferred
FRANCE                       23               10           43%            10
GERMANY                      44               22           50%            19
GREECE                       10               1            10%            0
GUATEMALA                    72               11           15%            2
GUYANA*                       1               0             0%            0
HONDURAS                     62               15           24%            0
HONG KONG                     5               1            20%            1
HUNGARY                       2               0             0%            0
ICELAND                       1               0             0%            0
INDIA*                        4               2            50%            2
IRAN*                         1               0             0%            0
IRAQ*                         1               1            100%           1
IRELAND                       6               1            17%            1
ISRAEL                       81               31           38%            26
ITALY                        47               7            15%            7
JAMAICA*                      6               1            17%            0
JAPAN                         3               1            33%            0
KENYA*                        1               0             0%            0
DEMOCRATIC
PEOPLES REPUBLIC
OF KOREA (NORTH
                              1               0             0%            0
KOREA)*

REPUBLIC OF KOREA
(SOUTH KOREA)
                              9               4            44%            1

LATVIA                        2               1            50%            1
LEBANON*                      4               3            75%            2
LITHUANIA                     1               0             0%            0
MACEDONIA                     4               0             0%            0
MARTINIQUE*                   1               1            100%           1
MEXICO                      4731            1,267          27%           766
MOLDOVA                       2               1            50%            0
MONTENEGRO                    2               0             0%            0
MONTSERRAT                    1               0             0%            0
NETHERLANDS                  72               57           79%            49
NETHERLANDS
ANTILLES
                             16               10           63%            8



   U.S. Department of Justice                                                  135
   Office of the Inspector General
   Evaluation and Inspections Division
                                                                        Number of
                               Total        Approved       Percentage
        Country                                                          Inmates
                            Applications   Applications*    Approved
                                                                        Transferred
NEW ZEALAND*                     2              0             0%            0
NICARAGUA                       49              5            10%            5
NIGERIA*                         3              2            67%            1
NORWAY                           3              1            33%            0
PAKISTAN*                        2              1            50%            0
PANAMA                          81              28           35%            23
PARAGUAY                         1              0             0%            0
PERU                            33              6            18%            5
POLAND                          29              9            31%            8
PORTUGAL                        10              3            30%            2
REPUBLIC OF PALAU                1              1            100%           0
ROMANIA                         12              1             8%            1
RUSSIA                           6              2            33%            2
SERBIA                           1              0             0%            0
SOUTH AFRICA*                    1              0             0%            0
SPAIN                           48              27           56%            20
SURINAME*                        1              1            100%           1
SWEDEN                           4              1            25%            0
SWITZERLAND                      6              1            17%            1
THAILAND                         5              1            20%            0
TONGA                           10              0             0%            0
TRINIDAD AND
TOBAGO
                                25              6            24%            5
TURKEY                           9              3            33%            3
UKRAINE                         11              2            18%            1
UNITED KINGDOM                  97              34           35%            29

UNITED STATES OF
AMERICA*
                                88              9            10%            5

URUGUAY                          1              0             0%            0
VENEZUELA                       160             53           33%            36
VIETNAM*                         6              2            33%            2
YUGOSLAVIA   a                   2              1            50%            1
Total                         7,265           2,203          30%          1,425

   * Not a treaty nation.


   U.S. Department of Justice                                                     136
   Office of the Inspector General
   Evaluation and Inspections Division
a Two inmates indicated Yugoslavia as their country of citizenship and requested
transfer to Serbia and Montenegro, two treaty nations that were once part of Yugoslavia.
b  Although Hong Kong and some territories of the United Kingdom and the Netherlands
(e.g., Aruba, Bermuda, Cayman Islands, and Netherlands Antilles) are not “countries,”
these geographical entities are listed separately as if they were countries because these
territories require specific transfer applications and the applicants are approved only for
transfer to that particular territory.
Notes: There were four missing Approved Cases and nine missing Denied Cases.
The list of countries in Appendix IX does not match the transfer treaty partners of the
United States as it includes countries that are not transfer treaty partners and omits
two countries (Austria and Slovenia) which are transfer partners. The reason for this is
that the information provided to the OIG listed treaty transfer applicants by country of
citizenship, not country of nationality. That data was provided by both the BOP and
IPTU because each utilizes citizenship data to assess eligibility for transfer. Individuals
shown as citizens of non-treaty nations would have been transferred to a treaty nation
of which they were a national, but this information was not available to the OIG.
Additionally, inmates could be dual citizens. Because some applicants applied and
were approved prior to the period of review yet transferred during the period of review,
the prisoners transferred for some countries will not be the same as the prisoners who
applied in that period.
Sources: BOP and Criminal Division’s IPTU.




U.S. Department of Justice                                                             137
Office of the Inspector General
Evaluation and Inspections Division
Evaluation and Inspections Division
Office of the Inspector General
U.S. Department of Justice




                                                                                              FEDERAL PRISON SYSTEM
                                                                                                 PER CAPITA COSTS
                                                                                                      FY 2010


                                                                                                                                                             TOTAL
                                                                               AVG O"'LY                             ANNUAL    DAILY          SUPPORT        D AILY
                                      CLASSIFICATION LEVEL                    POPULATION         OBUGATtONS           COST     £Q.ll             COSTS       £Qll
                                      ALL SECURITY CLASSifiCATION                  210.078      5,383,'955.1 46.72    25,627    70.21    557 ,469,557.404     77.49




                                                                                                                                                                       APPENDIX X: BOP COST ESTIMATES 

                                      Minimum Sicurity                               5,554       122,393,471 .97      18.673    51 .Hi     15,271 ,150.98     51.55

                                      Low SecuritY'                                 33,523       7506,342,132.17      22.561    61 .81     94.36S1,533 .83    69 .53

                                      Medium Securily                               45,480      1,060,882.715.05      23,338   113.94     1l2,'57,3S4.68      71.91

                                      High Sec.urity                                 g,.,S       283,501,795.89       30,102    82.47      35.312.191.20      92 .76

                                      Detentloo Centel"l                            12,694       310.690,221 .41      29.204    80.01      46.251 .374.75     89.99

                                      Administrative                                 1,518         36,502,961 .58     24,075    85.98       4,554,5011 .56    74 ,,9

                                      Federal Correctional Complexes                51,151      1,240,017 ,402.3]     24,243    66.42     154,7 18,161.57     7-4.70

                                      Med ical RefelTal Cent....                    12,010        597,612.<164.77     49,760   136.33      74.564,68C .87    153.34

                                      Printe ly Operated In5titu li on5             23,665        553,917,507 .26     23,407    54.13

                                      Contract Community COffectlOf1 S Ctrs         10,957        283.130,432.02      25,838    70.7g

                                      Contract Sta1. and Loeal lns1llutlonl          3,130         78,964,042.27      25, 2~   6\1 .12




                                                                              APPRO,,"Oo   \4 ~~Sll ~:
                                                                                             HARLE G LAPPI
                                                                                                                                         11/1)11
                                                                                                                                         ~
                                                                                             DIRECTO
                       138
Evaluation and Inspections Division
Office of the Inspector General
U.S. Department of Justice




                                                                                       FEDERAL BUREAU OF PRISONS
                                                                          AVERAGE DAILY/ANNUAL PERCAPITA RATES (with support costs)
                                                                                     FISCAL YEARS 2005 THROUGH 2009

                                                                                    FY200V                 FY 2008"                     FY 2007                    FY 2006                 FY2005
                                                CLASSIFICATION                  DAILY       ANNUAL    DAILY      ANNUALI           DAILV          ANtfJAL     DAILY     ANNUAL       DAILY      ANNUAL
                                                       LEVEL                    COST         COST     COST         gru:            COST            COST       gru:       £Qg         £Qg          gm
                                                AVOfllQe All Levels              $74.66 ~   $27.251    S70.75~    $25.895           $88.28'                    566.96- $24 .440       564.19 " $23,429

                                                Minim"" Sec~riIy                 $56.9"'- 520.772      $53.657 $19;63&              $48.!           7.812·     $47 .38' $17,294       $47.89' - $17,480
                                                 Low SeoJri1v
                                                Medium Sea.rity
                                                                                 565.81 7 524.021
                                                                                 $69.51' 525,371
                                                                                                       583.68/ $23.373
                                                                                                       $85.75 ' S24.065
                                                                                                                               I
                                                                                                                               ~,
                                                                                                                                    560.            1.92£      $57.08' $20.834
                                                                                                                                                               564.79 / 523.6411
                                                                                                                                                                                      $52.58/ $19.192
                                                                                                                                                                                      $59.50 7 $21,718
                                                  H'                             $81.75 / $32.0-       576.30 / $27,92&             S71 .53 '                  $69.58- $25.39"        $72.21" $26.379
                                                 Oetenlion Centers               584.79' 530.9         582.0V 53O.04\­              --0-'                      $75.69 - 527.627·      $R 16 /' $27.068
                                                   Administrative                583.20 ,   530:       $79.41 .... S29.()64.                6-                 S60.92- 5£2,236        $82 .46 .... $22 ,798
                                          Faoo:al Correctional Comolexe.         570.36 '   525.681    565.46- 523.95&              162.48 -                   563.43 .... 523.152    561 .53 / $22,458
                                              Medical Referral Centers          $149.93'    $54.724   $147.74 .... 554.07'         $145.55 '                  $133.42 ' $48.688      $1 15.T4 /' $42.245
                                           Privately Operaled tnstiltJlions      $60.29 /   ~,OO·      559.36- 521.72               560.76 ....                581.61 , 522.488       $60.65"" 522.137
                                      Con1ract Communit¥ Corrections Centers     567.6:V    $24)~      565.25' 523,88               ~62 . 66 -      2.87t;y    559.14 ' 521.586       $57 .10 - 520.642
                                        Contract Stale and Local lnstitulions    $87.33 / $24,57       569.83" 525.558              573-59....      5.880.     582.30' 522.740        562.49 -->22.809

                                          "Oeooto. Leap Vear (366 days)
                       139
   APPENDIX XI: THE FEDERAL BUREAU OF PRISONS RESPONSE 



                                                                L.s. Ocparllncnt                      or Ju:o;lict:
                                                                I'cdcrnl Burcau of Prison ..




            "fl,    ',,- £f .. ,   .~                           11,1   ItI"~I'''. I}(   ;,>.1<   I,
                                                                October 7. 2011




            MEMORANDUM FOR MICHAEL D . GULLEDGE
                           ASSISTANT INSPECTOR GENERAL FOR
                             EVALUATION AND INSPECTIONS




            FROM:                       Thomas R.   Kane,   Acting Director

            SUBJECT:                    Response to the Office of Inspector General's (OIG)
                                        Draft Report :  Review of the Department's
                                        International Prisoner Transfer Program

            The Bureau of Prisons (Bureau) appreciates the opportunity to respond
            to the open recommendations from the draft report entitled Review
            of the Department's International Prisoner Transfer Program~
            addition to our responses to the recommendations, we have included
            technical comments relating to this version of the draft report.
            These additional comments identify areas in the draft report that
            we bel i eve are still technically inaccurate.

            Please find the Bureau's response to the recommendations below:

            Recommendati o n #1: Make all documents related to the treaty
            transfer program available to staff on the BOP internal Intranet for
            all treaty nation languages.

            Initial Response : The Bureau concurs .  As identified in the draft
            report, the previous program statement and applicable forms were
            available in Spanish.   The majority of the Bureau's non-English
            speaking inmate population is Spanish-speaking.   Program Statement
            5140.40, Transfer of Offenders To or From Foreign countries,
            published on August 4. 2011, (Attachment 1) is currently in English




U.S. Department of Justice                                                                                            140
Office of the Inspector General
Evaluation and Inspections Division
          only. We have begun the process of having the documents and forms
          related to the transfer program translated into all languages
          associated with the approved treaty nations . The Bureau will notify
          the wardens of the existence of the translated documents as soon as
          they are complete. As the documents are translated, they will be
          posted on the Bureau's Intranet, which can be accessed by all staff.

          Re c ommendation # 2: Update its policies to require BOP staff to
          discuss the treaty transfer program at each program review.

          Initial Response : The Bureau concurs.    Program Statement 5140.40,
          Transfer of Offenders To or From Foreign Countries, dated
          August 4, 2011, directs case managers to discuss the transfer program
          at the inmate's initial classification and at every subsequent
          program review.   The discussion of the transfer program at the
          initial classification and subsequent program reviews is required
          to be documented in the inmate's Central File (the unique folder
          associated with each inmate wherein all documents are placed that
          relate to an inmate's term of incarceration).     The Bureau requests
          this recommendation be closed.

          Recommendation #3 : The BOP and IPTU coordinate to ensure the BOP's
          program statement accurately reflects eligibility criteria based on
          treaty requirements and IPTU considerations, and the BOP provide a
          revised program statement to its union for review .

          Initial Response : The Bureau concurs . The Bureau and the
          International Prisoner Transfer Unit (IPTU) will coordinate to
          ensure the Bureau's program statement accurately reflects
          eligibility criteria based on treaty requirements and IPTU
          considerations.   If necessary, t he Bureau will provide a revised
          program statement to the Bureau of Prisons Council of Prison
          Locals/American Federation of Government Employees (union) for
          review by October 2012. The Bureau ' s Master Agreement with the union
          provides the union the right to review and invoke negotiations of
          all policies before they are finalized and implemented.

          Rec ommendation #4 : The BOP ensures all staff involved in treaty
          transfer determinat i ons are properly trained.

          Initial Response : The Bureau concurs . While unit management staff
          have always been trained on the transfer program, as part of
          comprehensive training on case management issues, by March 31, 2012,
          refresher training on the transfer program will be provided to staff
          involved in transfer eligibility determinations . The training will
                                            2




U.S. Department of Justice                                                         141
Office of the Inspector General
Evaluation and Inspections Division
          focus on educating staff on the eligibility crite ria to be used in
          making treaty transfer determinations . The Bureau has already begun
          modifying a lesson plan to use in the training.

          Recommendation #5 : The BOP establishes a process for reviewing
          eligibility determinations made by case managers to ensure their
          accuracy.

          Initial Response:   The Bureau concurs.    The Bureau will begin the
          process to amend Program Statement 5140.40, Transfer of Offenders
          To or From Foreign Countries, dated August 4, 2011, to include a
          process for supervisors to review eligibility determinations made
          by unit management staff . The form used to review and certify the
          eligibility determination, Transfer Inquiry (BPA-0297), has been
          updated to require supervisory review and signature; the form will
          be provided to the union for review, along with the revised program
          statement, by October 2012 . The Bureau's Master Agreement with the
          union provides the union the right to review and invoke negotiations
          of all policies before they are finalized and implemented.

          Re commendati o n #6 : The BOP and IPTU coordinate with each other to
          update the BOP's program statement to accurately reflect the process
          by which inmates can obtain more information from IPTU regarding the
          reasons for denial .

          Ini t ial Respo nse : The Bureau concurs. The Bureau and IPTU will
          coordinate with each other to ensure the Bureau's program statement
          accurately reflects the process by which an inmate can obtain more
          information from IPTU regarding the reason(s) for denial.        The
          Bureau has forwarded Program Statement 5140.40, Transfer of
          Offenders To or From Foreign Countries, dated August 4, 2011, to IPTU
          for their review and recommendations.     If necessary, the Bureau will
          provide a revised program statement to the union for review by
          October 2012.     The Bureau's Master Agreement with the union provides
          the union the right to review and invoke negotiations of all
          policies before they are finalized and implemented.

          Recommendation #12:  The BOP establish reporting requirements to
          measure the timeliness for completing application packets at all
          prisons, including contract prisons, as a measurable element of case
          manager performance reviews .

          Initial Response:   The Bureau concurs.   The Program Review
          Guidelines for Institution Correctional Programs (Attachment 2),
          updated on June 3, 2011, include reporting requirements for staff
          on the completion of the transfer program application packets. The
                                            3




U.S. Department of Justice                                                          142
Office of the Inspector General
Evaluation and Inspections Division
           review process will measure the time liness of the a pplication .
           According to the revised guidelines, Program Review staff (the
           agency's internal auditors) are required to review the central files
           of i nmates who have a SENTRY assignment of Inmate Treaty Transfer
           t o determine wheth er: 1 ) the t r ansfe r app li cation packet has been
           timely completed, 2) the decision regarding program eligibility was
           made correctly, and 3) the inmate was informed and notified about
           the transfer program during init i al classificat ion and subsequent
           unit management reviews . According l y, the Bureau requests this
           recommen dation be closed.

           Areas in which Significant Disagreements Remain / Technical Comments

              A. Page ii# 3 r d par: Overall# the BOP and IPTU, combined# rejected
                 97 percent of requests from foreign national inmates because
                 they determined the inmates were ineligible or not suitable for
                 transfer. (Similar language also found on Page 14, 1 Bt . par.)

           RESPONSE: This comment inaccura tely p ortrays the role of the Bureau
           and implies that we "reject" requests for transfer. The Bureau's
           role in determining eligibil i ty and suitability for the transfer
           program i s l i mi ted.    The Bureau rev i e ws inmate re q uests to determ i ne
           if the inmate sati sf i es the basic and essential r e quirements of the
           applicab le treaty agreement (e . g . , inmate is from a participat i ng
           tre a ty country, mo r e than 6 months rema i n o n the inmate's sentence,
           no appe a l or collate r al attac k exist, and wi th respect to Mexican
           nationals--the inmate is not incarcera t e d solely for an immigrat i on
           o f fe n se) . Whi le the Bur eau does not h a ve the authority to reject
           an inmate's t r ans f er r equest, Burea u staff are requi red to notify
           t h e i nma te of thei r a ppa rent inel ig ibility . Please remove f rom the
           r eport ref e rences t o t he Bureau "rej e cting" r eques t s for
           participa tion in the program .

              B. Page iii, 2 nd par: The Department incurred $15.4 million in
                 unnecessary incarceration costs from FY 2005 through FY 2010
                 because of the BOP's and IPTU's untimely processing of requests
                 for inmates ultimately transferred.    (Similar language also
                 found on Pages 75-76)

           RESPONSE:   The Bureau believes t h e i n correct figures were used to
           conclude that the Department incurred $15.4 million in unnecessary
           costs . The Bureau's "marginal" inmate costs shou l d be used to
           calculate the cost of i n carcerat i ng offenders, rather than the "full"
           costs used by the OIG.     Due to the e x treme level of crowding in its
           facilities, t he Bureau uses "marginal" costs when computing cost

                                                  4




U.S. Department of Justice                                                                     143
Office of the Inspector General
Evaluation and Inspections Division
            avoidance associated with a reduction in t h e inmate population; and
            the Department of JusticE~ and the Office of Management and Budget
            only fund Bur eau population increases at "marginal" cost levels in
            the budget .    " Marginal" costs i nclude all costs associated with
            housing an i nmate other t:han staff salaries and benefits.          "Full"
            cost includes al l costs associated with housing an inmate including
            staff salaries a nd benefit:s, and regional and Central Office support
            costs . The avoidance of " full" costs cann ot occur until staff can
            be r educed, thereby avoiding the salary costs . At the current level
            of u n der staffing (see JMD ' s Bureau Staffing St udy, August 2010) and
            overcrowding across the Bureau (approximately 40 percent over rated
            capacity), the inmate pop ulation would need to be reduced by more
            than 30,000 inmates, bringing c r owdi n g down to the target of
            15 percent before staff cc,uld begin to be reduced and an amount close
            to the "full" costs could be avo i d e d .  The report should be amended
            to r e flect "ma rgina l " costs associated wi t h hous i ng offenders, and
            computations of potential cost savings should be done using these
            "marginal" costs .

               C . Page 126, 1 Bt par:    To calculate the cost to the Department for
                   delays in processinH by the BOP and IPTU, we calculated the
                   number of days to prc)cess each inmate's application . From that
                   total, we subtracted the number of days outlined in the BOP
                   program statement (60 days) or IPTU expectation (90 days) from
                   the total to obtain the number of days "over" the processing
                   time. With that figure , we multiplied the daily average cost
                   of incarcerating an inmate from FY 2005 through FY 2010 by the
                   number of days over the expected timeliness standard in
                   processing applicat i ons by inmates ultimately transferred in
                   the program.      (Simil.ar language also found on Page iii, 2 nd par
                   and Page 58, 5 t h par.)

            RESPONSE:    The Burea u be l ieves t h e amount o f t i me provided in Bureau
            policies and procedures j:or Bureau staff to p rocess a tran s f er
            application for an inmate is being mi scalculated.             The transfer
            process begins on the d ate the i nmate s i g n s the transfer request form .
            The Bureau c a se manage r then h a s 60 days to process t he application
            for the inmate . After those 60 d a ys, the a pplication is mailed to
            the Bureau's Central Office . Once rece i ved by the Bureau's Central
            Office, the Correctional Programs Branch has 10 days to p r ocess the
            packet.    Therefo r e, the current po l icies provide for at least 70
            days, not to include the time f or mailing to the Bureau's Central
            Of f ice for processing of all transfer applica t ions .



                                                  5




U.S. Department of Justice                                                                   144
Office of the Inspector General
Evaluation and Inspections Division
           When refe r encing Bureau and IPTU inmate transfer application
           processing times and delays, it is important to note that it takes,
           on average, 288 days f or t he foreign countries to process transfer
           applications. The foreign country processing time - frame should be
           referenced when discussi n g Bureau a n d OEO processing time-frames .

           Additionally, "full" costs of inc a rceration rather than "marginal"
           costs were used in computing potential savings . Due to the extreme
           level of crowding in its faci l ities, the Bureau uses "marginal " costs
           when computing cost avoidance associated with a reduction in the
           inmate population ; and the Department of Justice and the Office of
           Management and Budget only fund Bureau population incre a ses at
           "marginal" cost levels in the budget .     "Marginal" costs include all
           costs associated with housing an inmate other than staff salaries
           and benefits.   "Full" cost includes all costs associated with
           housing an inmate including staff salaries and benefits, and regional
           and Central Office support costs.      The avoidance of "full" costs
           cannot occur until staff can be reduced, thereby avoiding the salary
           costs . At the current level of under staffing (see JMD 1 s Bureau
           Staffing Study, August 2010) and overcrowding across the Bureau
           (approximately 40 percent over rated capacity), the inmate
           population would need to be reduced by more than 30,000 inmates,
           bringing crowding down to the target o f 15 percent before staff could
           begin to be reduced and an amount close to the "full" costs could
           be avoided. The report should be amended to reflect "marginal" costs
           associated with housing offenders, and computations of potential
           cost savings should be done using these "marginal" costs .

             D . Page iv , l ilt par: We reviewed 65 of 116 handbooks used b y BOP
                 prisons . Of those 65 handbooks we found 28 (4 3 perc ent) did
                 not have information regarding the treaty transfer program.
                 (Similar language also found on Pages 17 - 1 8; Page 23, 2 nd par;
                 Page 36, 1 at par and Page 73, 2 nd par . )

           RESPONSE:   All inmates receive information about the transfer
           program through the Institution Admissions and Orientation (A&O)
           Program.   Therefore, the absence of information about the transfer
           program in an A&O Handbook cannot serve as a basis for concluding
           that inmates have not been informed about the program . Any
           references to the A&O Handbook as a basis for concluding that inmates
           have not received information on the Treaty Transfer Program should
           be removed from the report . All Bureau institutions are required
           to provide inmates with the Institution A&O Program within four weeks
           of arrival at their designated institution. This program provides
           the inmates with general information regarding institution rules,

                                              6




U.S. Department of Justice                                                            145
Office of the Inspector General
Evaluation and Inspections Division
           operations, and program opportunities . The Treaty Transfer Program
           i s a mandato r y t opic during the A&O Program . Each inmate is required
           to sign the institutional A&O form i ndicating attendance at the
           program .

             E. Page iv, 2 nd par: Overall, from FY 2005 through FY 2010, foreign
                national inmates made 74,733 requests to be considered for
                transfer, and BOP case managers determined that 67,455 ,
                (90 percent) of those were ineligible .

           RESPONSE : The Bureau has determined it correctly assessed
           60,7 1 6 (90 percent) inmates as ineligible, during this time period.
           In order to determine the accuracy of the remaining 10 percent, Bureau
           staff would have to conduct an individual assessment of each inmate's
           Central File.

             F . Page v, 2 nd par : We found that the treaty transfer program
                 statement that BOP case managers rely o n to assess inmates '
                 transfer eligibility is incomplete and inc o rre c t .
                 Specifically , (1) the list of treaty nations contained in the
                 program statement is incomplete i (2) the pro gram statement
                 indi c ates that inmates with appeals in pro gress are always
                 ineligible , which is incorre c t; (3) the program statement does
                 not explain that there are excepti ons t o the rule that inmates
                 must have at least 6 months remaining on their sentenc es t o be
                 eligible i

           RESPONSE : The Bureau disagrees with the OIG' s statement in the draft
           report.   Wi th respect to the number one, the Bureau's program
           statement has been updated as of August 4, 2011.      This program
           statement indicates the complete list of treaty nations is located
           on the Bureau's Intranet, to which all staff have access.

           With respect to number 2, the Bureau's position that inmates wi th
           pending appeals are ineligible, is correct, based on the treaty
           agreement with the foreign countries . The Council of Europe
           Conventions on the Transfer of Sentence Persons, the Inter-American
           Convention on Serving Criminal Sentences Abroad and the Mexican
           bi-Iateral treaties, all indicate the inmate's sentence must be final
           in order for the inmate to be eligible for transfer.

          The Bureau concurs that exceptions do exist to the rule that an inmate
          must have at least 6 months remaining on their sentence to be
          eligible, and the program statement does not reference this fact.
          It is not, however, cost effective f or the Bureau of Prisons to

                                              7




U.S. Department of Justice                                                             146
Office of the Inspector General
Evaluation and Inspections Division
           process applications for inmates with so little time remaining on
           their sentence, particularly given the long processing time for
           transferring countr i es to complete their portion (on average,
           288 days).    It costs the Bureau in excess of $300 per inmate to
           process an application; for the 3,347 offenders, identified in the
           repo r t, with less than 6 months remaining, the Bureau would incur
           additional costs of nearly 1 million dollars .   Incurring this cost
           does not guarantee all oj: these inmates will be transferred.

             G. Page ix, 2 nd par : M,oreover, as of FY 2010, there were 39,481
                inmates from treaty nations in BOP custody who had never applied
                for transfer to their home countries, some of whom may not have
                done so because the)( do not understand the program.

                Page 68, l e t par : The potential cost savings from educating
                inmates and allowingr more of them the opportunity to transfer
                to their home countries could be significant.       As of FY 2010,
                there were 39,481 inmates from treaty nations in BOP custody
                who did not participate in the treaty transfer program. Not all
                of those inmates are appropriate transfer candidates and there
                are factors outside cff the Department's control that could limi t
                the potential cost savings, including the fact that the program
                is voluntary; treat}r nations may not take back their citizens
                who are approved by the Department; and most importantly , the
                restrictions that p::r:::ohibit the eligibility and suitability of
                Mexican inmates.     H()wever, if only 1 percent of the inmates
                 (395) applied and were transferred to serve their sentences in
                their home countrieB, the BOP could potentially save $10.1
                million in annual in,earceration costs. Similarly , if 3 percent
                of the inmates (1,1134) or 5 percent (1,974) applied and were
                transferred to serve~ their sentences in their home countries,
                the BOP could potentially save $30.4 million and $50.6 million,
                respectively, in annual incarceration costs .       (Similar
                language found on Pages 75 -7 6)

           RESPONSE:   We disagree with the cost savings identified as they are
           misleading and speculative.      The program is voluntary and the
           foreign country must accept the inmate for return.       Additionally,
           the eIG utilizes the "full" cost figures to complete cost savings.
           Due to the extreme level of crowding in its facilities, the Bureau
           uses "marginal" costs when computing cost avoidance associated with
           a reduction in the inmate populationj and the Department of Justice
           and the Office of Managem~=nt and Budget only fund Bureau population
           increases at " marginal" cost levels in the budget .   "Marginal" costs
           include all costs associa1::.ed with housing an inmate other than staff

                                              8




U.S. Department of Justice                                                           147
Office of the Inspector General
Evaluation and Inspections Division
            salaries and benefits.   "Full" cost includes all costs associated
            with housing an inmate including staff salaries and benefits, and
            regional and Central Office support costs . The avoidance of " full"
            costs cannot occur until staff can be reduced, thereby avoiding the
            salary costs. At the current level of under staffing (see JMD 1 s
            Bureau Staffing Study, August 2010) and overcrowding across the
            Bureau (approximately 40 percent over rated capacity), the inmate
            population would need to be reduced by more than 30,000 inmates,
            bringing crowding down to the target of 15 percent before staff could
            begin to be reduced and an amount close to the "full" costs could
            be avoided.  The report should be amended to reflect "marginal" costs
            associated with housing offenders, and computations of potential
            cost savings should be done using these "marginal" costs.

               H. Page 24, 3 rd par : During our fieldwork, we reviewed a limited
                  sample of 5 2 of the 6 7 ,455 cases in which the BOP determined
                  irunates were ineligible to apply for treaty tran s fer.     We f o und
                  p o tential e rrors in 19 of the 52 cases (37 percent ) that indicate
                  the cases could haVE! been forwarded to IPTU , but were n o t.

            RESPONSE : The Bureau carefully reviewed each of these cases and
            determined that in fact only 7 (not 19) of the 52 inmates were
            erroneously identified as ineligible; this translates to an error
            rate of 13 percent and not 37 percent.

                    •   13 of the 52 inmates identified were serving a sentence
                        of 6 months or l.ess . (Appr opriately identified ineligible
                        according to Bureau policy) .
                    •   22 of the 52 inmates were Mexican nationals serving an
                        immigration violation .      (Appropriately identified as
                        ineligible according to the treaty agreement with Mexico) .
                    •   9 of the 52 were keyed with the incorrect country codes
                        indicating elisribility . However, the inmates were
                        actually from countries that do not have a current treaty
                        agreement with t:he United States (Jamaica, Cuba, Colombia,
                        and the Dominican Republic) .
                         1 of the 52 inmates indicated no interest in the treaty
                        program .

               I. Page 34, 1 st par : We believe it is essential that the BOP have
                  the c apability to quickly develop, update, and impleme nt
                  program statements alffecting its ability to fulfill its
                  mission .


                                                 9




U.S. Department of Justice                                                                  148
Office of the Inspector General
Evaluation and Inspections Division
           REPSONSE : The Bureau's Mas t er Agreement wi th the union provides the
           union the right to review and invoke negotiations of all national
           policies before they are finalized and implemented . Therefore,
           changes to Bureau program statements require union review.

             J. Appendix III, Program Statement 5140 . 39 is attached .

           RESPONSE:   The prior program statement was included in Appendix III .
           The most recent program statement is Program Statement 5140 . 40, dated
           August 4, 2011, wh ich was implemented prior to the comp l etion of the
           audit .

           If you have any questions regarding this response, please contact
           H. J . Marberry, Assistant Director, Program Review Division, at
           (202)   353-2302 .




                                             10




U.S. Department of Justice                                                           149
Office of the Inspector General
Evaluation and Inspections Division
     APPENDIX XII: OIG ANALYIS OF THE FEDERAL BUREAU OF 

                      PRISONS RESPONSE 



       The Office of the Inspector General provided a draft of this report to
the Federal Bureau of Prisons (BOP) for its comments. The report
contained 14 recommendations for consideration. Recommendations 1,
2, 4, 5, and 12 are directed to the BOP. Recommendations 3 and 6 are
directed to both the BOP and the Criminal Division and require a
response from both components.

      The BOP provided its response to the report’s recommendations
and general comments on report findings that it had significant
disagreement or technical comments. The BOP’s response is included in
Appendix XI of this report. Actions necessary to close the
recommendations, as well as the OIG’s analysis of the BOP’s general
comments are discussed below.

OIG’S ANALYSIS OF THE BOP’S RESPONSE TO RECOMMENDATIONS

Recommendation 1. Make all documents related to the treaty
transfer program available to staff on the BOP internal Intranet for
all treaty nation languages.

       Status. Resolved – open.

       Summary of the BOP Response. The BOP concurred with this
recommendation and stated that applicable forms are available in
Spanish and that the BOP has begun the process of having the
documents and forms related to the transfer program translated into all
languages associated with the approved treaty nations. Further, the BOP
will notify the wardens of the existence of the translated documents as
they are completed, and those documents will be made available on the
BOP’s Intranet.

       OIG Analysis. The actions taken by the BOP are responsive to our
recommendation. By February 29, 2012, please provide the OIG with a
screen shot of the Intranet’s collection of documents and forms related to
the transfer program translated into all languages associated with the
approved treaty nations or a status report on the BOP’s progress. Also,
please provide copies of the notification memoranda provided to the
wardens upon completion of the language translation.




U.S. Department of Justice                                               150
Office of the Inspector General
Evaluation and Inspections Division
Recommendation 2. Update its policies to require BOP staff to
discuss the treaty transfer program at each program review.

       Status. Resolved – closed.

       Summary of the BOP Response. The BOP concurred with this
recommendation and stated that Program Statement 5140.40, Transfer
of Offenders To or From Foreign Countries, dated August 4, 2011, directs
case managers to discuss the transfer program at the inmate’s initial
classification and at every subsequent program review. Further, the
discussion of the transfer program at the initial classification and
subsequent program reviews is required to be documented in the
inmate’s central file. The BOP requested that this recommendation be
closed.

       OIG Analysis. Based on the actions taken by the BOP to update
its policies to require BOP staff to discuss the treaty transfer program at
each program review, this recommendation is closed.

Recommendation 3. The BOP and IPTU coordinate to ensure the
BOP’s program statement accurately reflects eligibility criteria
based on treaty requirements and IPTU considerations, and the BOP
provide a revised program statement to its union for review.

       Status. Resolved – open.

       Summary of the BOP Response. The BOP concurred with this
recommendation and stated that it would coordinate with the IPTU to
ensure the program statement accurately reflects eligibility criteria based
on treaty requirements and IPTU considerations. The BOP also stated it
would, if necessary, provide a revised program statement to the Bureau
of Prisons Council of Prison Locals/American Federation of Government
Employees (Union) for review by January 2012.

       OIG Analysis. The actions taken by the BOP are responsive to our
recommendation. Please provide a revised program statement or a
status report regarding meetings with IPTU, an agenda or topics of
discussion for each meeting, as well as a description of how eligibility
criteria based on treaty requirements and IPTU considerations will be
addressed in a revised program statement by February 29, 2012.




U.S. Department of Justice                                              151
Office of the Inspector General
Evaluation and Inspections Division
Recommendation 4. The BOP ensures all staff involved in treaty
transfer determinations are properly trained.

       Status. Resolved – open.

      Summary of the BOP Response. The BOP concurred with this
recommendation and stated that refresher training on the treaty transfer
program will be provided to staff involved in transfer eligibility
determinations by March 31, 2012. Specifically, the training will focus
on educating staff on the eligibility criteria to be used in making treaty
transfer determinations. In preparation for the refresher training, the
BOP has already begun modifying a lesson plan to use in the training.

       OIG Analysis. The BOP’s actions are responsive to this
recommendation. However, until the BOP coordinates with IPTU to
ensure the BOP’s program statement accurately reflects eligibility criteria
based on treaty requirements and IPTU considerations, and the BOP
provide a revised program statement to its union for review, this training
may be premature. Nonetheless, please provide the OIG with a copy of
agendas, lesson plans, and other training materials to be used to educate
staff on treaty transfer by February 29, 2012. These materials should
reflect any revisions that have been made to eligibility criteria based on
treaty requirements and IPTU considerations after consultation with
IPTU in response to Recommendation 3.

Recommendation 5. The BOP establishes a process for reviewing
eligibility determinations made by case managers to ensure their
accuracy.

       Status. Resolved – open.

       Summary of the BOP Response. The BOP concurred with this
recommendation and stated that it will begin the process to amend
Program Statement 5140.40, dated August 4, 2011, to include a process
for supervisors to review eligibility determinations made by unit
management staff. The BOP also stated that the form used to review and
certify eligibility determinations (the transfer inquiry form) has been
updated to require supervisory review and signature. Further, the BOP
stated that the transfer inquiry form will be provided to the union for
review along with the revised program statement by October 2012.

     OIG Analysis. The BOP’s actions are responsive to this
recommendation. However, we believe that the program statement
should be submitted to the union prior to October 2012, as the


U.S. Department of Justice                                             152
Office of the Inspector General
Evaluation and Inspections Division
negotiation process is lengthy. We ask that the BOP provide the OIG
with a revised program statement and transfer inquiry form or a status
report on its progress by February 29, 2012.

Recommendation 6. The BOP and IPTU coordinate with each other
to update the BOP’s program statement to accurately reflect the
process by which inmates can obtain more information from IPTU
regarding the reasons for denial.

       Status. Resolved – open.

       Summary of the BOP Response. The BOP concurred with this
recommendation and stated that it would coordinate with IPTU to ensure
the program statement accurately reflects the process by which an
inmate can obtain more information from IPTU regarding the reasons for
denial. The BOP has forwarded Program Statement 5140.40, dated
August 4, 2011, to IPTU for its review and recommendations. The BOP
also stated that if necessary, it would provide a revised program
statement to the union for review by October 2012.

      OIG Analysis. The actions suggested by the BOP are responsive to
our recommendation. Please provide a status report regarding meetings
with IPTU, an agenda or topics of discussion for each meeting, as well as
a description of how the BOP’s program statement will be revised to
accurately reflect the process by which inmates can obtain more
information from IPTU regarding the reasons for denial by February 29,
2012.

Recommendation 12. The BOP establish reporting requirements to
measure the timeliness for completing application packets at all
prisons, including contract prisons, as a measurable element of case
manager performance reviews.

       Status. Resolved – open.

       Summary of the BOP Response. The BOP concurred with this
recommendation and provided revised Program Review Guidelines for
Institution Correctional Programs, updated June 3, 2011, that include
reporting requirements for staff on the completion of the transfer
program application packets. The BOP further stated that the revised
guidelines require program review staff (the agency’s internal auditors) to
review the central files of inmates who have a SENTRY assignment of
Inmate Treaty Transfer to determine whether: (1) the transfer application
packet has been completed on time, (2) the decision regarding program


U.S. Department of Justice                                             153
Office of the Inspector General
Evaluation and Inspections Division
eligibility was made correctly, and (3) the inmate was informed and
notified about the transfer program during initial classification and
subsequent unit management reviews. The BOP requested this
recommendation be closed.

       OIG Analysis. The BOP’s actions are responsive to this
recommendation. By February 29, 2012, please provide the OIG with a
copy of a review conducted by the program review staff to determine
whether: (1) the transfer application packet has been completed on time,
(2) the decision regarding program eligibility was made correctly, and
(3) the inmate was informed and notified about the transfer program
during initial classification and subsequent unit management reviews.

THE BOP’S COMMENTS ON REPORT FINDINGS

Finding: Overall, the BOP and IPTU, combined, rejected 97 percent of
requests from foreign national inmates because they determined the
inmates were ineligible or not suitable for transfer.

       BOP Response: The BOP disagreed with our finding and stated
that the finding “inaccurately portrays the role of the Bureau and implies
that we ‘reject’ requests for transfer.” The BOP also stated that its role in
determining eligibility and suitability for the transfer program is limited.
The BOP said that it reviews inmate requests to determine if the inmate
satisfies the basic and essential requirements of the applicable treaty
agreement. The BOP stated that while it does not have the authority to
reject an inmate’s transfer request, BOP staff are required to notify
inmates of their apparent ineligibility. The BOP requested that the OIG
remove from the report references to the BOP “rejecting” requests for
participation in the program.

       OIG Analysis: We disagree with the BOP’s statement that the
term “reject” inaccurately portrays the role of the BOP in the program
and that its role in the treaty transfer process is limited. We found that
based on its program statement, the BOP exercises decision making
authority when assessing the inmates’ eligibility to apply for transfer to
their home countries. This requires BOP staff members to make
judgments regarding such things as an inmate’s country of citizenship
when the inmate lacks a birth certificate or an inmate’s appeal status. If
the BOP staff member does not find the inmate to be eligible, the BOP
does not forward an application regardless of the inmate’s interest.
Thus, the program statement ultimately gives the BOP staff the authority
to reject an inmate’s request to apply for the treaty transfer program. In
addition, removing references to the term “reject” would suggest that the


U.S. Department of Justice                                               154
Office of the Inspector General
Evaluation and Inspections Division
BOP forwards all applications from interested inmates regardless of
qualification for the program. This would be inaccurate. As we show in
this report, the BOP determines that inmates requesting to apply for
transfer are ineligible approximately 90 percent of the time, and those
determinations are sometimes in error. Consequently, we did not remove
the term “reject” because we believe that doing so would result in an
inaccurate portrayal of the BOP’s role in the treaty transfer consideration
process.

Finding: The Department incurred $15.4 million in unnecessary
incarceration costs from FY 2005 through FY 2010 because of the BOP’s
and IPTU’s untimely processing of requests for inmates ultimately
transferred.

       BOP Response: The BOP disagreed with our finding and stated
that incorrect figures were used to conclude the Department incurred
$15.4 million in unnecessary costs. The BOP stated that its “marginal”
costs should be used to calculate the cost of incarcerating offenders
rather than the “full” costs used by the OIG. The BOP explained that
due to the extreme level of crowding in its facilities, it uses marginal
costs when computing cost avoidance with a reduction in the inmate
population. The BOP stated that the Department and Office of
Management and Budget only fund BOP population increases at
marginal cost levels. The BOP stated that marginal costs include all
costs associated with housing an inmate other than staff salaries and
benefits and that full costs include all costs associated with housing an
inmate, including staff salaries and benefits, as well as regional and
Central Office support costs. According to the BOP, the avoidance of full
costs cannot occur until staff can be reduced, thereby avoiding the salary
costs. The BOP stated that at its current level of understaffing and
overcrowding, the inmate population would need to be reduced by more
than 30,000 inmates, bringing crowding down to the target of 15 percent
before staff could begin to be reduced and an amount close to the full
costs could be avoided. The BOP stated the report should be amended to
reflect marginal costs and that computations of potential savings should
be done using marginal costs.

       OIG Analysis: While the OIG recognizes that overcrowding is a
significant issue for the BOP, we do not believe that using only marginal
costs would provide an accurate representation of the potential cost
savings associated with the treaty transfer program. First, we believe
that removing salary and support costs would be inaccurate because it
would mean that adding inmates above capacity does not result in any
requirement to increase staff supervision or Regional and Central Office


U.S. Department of Justice                                             155
Office of the Inspector General
Evaluation and Inspections Division
support. Second, the BOP reported in the Federal Register that the fee to
cover the average cost of incarceration for a single inmate was $24,922 in
FY 2007, $25,895 in FY 2008, and $25,251 in FY 2009.129 Finally, in
FY 2010, the BOP used $25,627 to justify its budget to the Department.
Therefore, we calculated and used the average cost of incarceration
($25,261) for the 6-year period of our review rather than the marginal
cost proposed by the BOP.130 Although we believed that the marginal
cost figure provided by the BOP did not represent the potential savings
that would accrue from returning a foreign inmate to serve a sentences
in the home country, we provided both figures so that readers could
understand that the actual savings may vary. Specifically, on page 68,
we state that “if we had used the marginal cost as the BOP proposed, the
delay costs for the 1,425 inmates actually transferred during the 6-year
period of our review would total $5.4 million, which we believe is still
substantial.”

Finding: To calculate the cost to the Department for delays in
processing by the BOP and IPTU, we calculated the number of days to
process each inmate’s application. From that total, we subtracted the
number of days outlined in the BOP program statement (60 days) or IPTU
expectation (90 days) from the total to obtain the number of days “over”
the processing time. With that figure, we multiplied the daily average
cost of incarcerating an inmate from FY 2005 through FY 2010 by the
number of days over the expected timeliness standard in processing
applications by inmates ultimately transferred in the program.

       BOP Response: The BOP disagreed with how the OIG calculated
timeliness in processing treaty transfer applications and explained that
the process begins on the date the inmate signs the transfer request
form. The BOP case manager then has 60 days to process the
application, and after those 60 days, the application is mailed to the
BOP’s Central Office. Once received by the Central Office, the BOP’s
Correctional Programs Branch has 10 days to process the application.
Therefore, the BOP stated that current policies provide for at least 70
days for processing all transfer applications, not including the time for
mailing the application to the BOP’s Central Office. The BOP also stated
that it should be noted that it takes, on average, 288 days for the foreign
country to process transfer applications and that this processing time

       129  Federal Register Annual Determination of Average Cost of Incarceration; A
Notice by the Prisons Bureau, 73 Fed. Reg. 33853 (Jun. 13, 2008); 74 Fed. Reg. 33279
(Jul. 10, 2009); 76 Fed. Reg. 6161 (Feb. 03, 2011).

       130   See Appendix VI for more detail on our methodology.



U.S. Department of Justice                                                        156
Office of the Inspector General
Evaluation and Inspections Division
should be referenced when discussing BOP and OEO (Criminal Division)
processing time frames. In addition, the BOP reiterated that the report
should be amended to reflect the marginal costs and computations of
potential cost savings should be done using marginal costs for the
reasons stated earlier.

       OIG Analysis: The processing time for a treaty transfer
application was not miscalculated. The BOP’s program statement states
that “the initial Application Packet must contain the following documents
and will be mailed to the Central Office . . . within 60 calendar
days . . . .” There is no exception made in the program statement for the
time it takes the application to get to the BOP’s Central Office. In
addition, the OIG did consider the 70 days listed in the program
statement. All of our calculations were made using the standard of
60 days for the BOP and 10 days for Central Office, starting from the
date the inmate signs the transfer request form. The report references
160 days for the Department’s entire process to review transfer requests,
which encompasses 70 days for the BOP and 90 for IPTU. This point is
explained on page 58. Further, the OIG’s cost calculation represents
only the cost to the Department for delays in processing applications by
the BOP and IPTU, and thus the cost is within the Department’s control.
We did not factor in the foreign country’s processing time when
calculating the cost to the Department because this is a factor that is
outside of the Department’s control, which is clearly explained on page
55. Finally, as stated above, we disagree with the BOP position that the
report should be amended to reflect marginal costs.

Finding: We reviewed 65 of 116 handbooks used by BOP prisons. Of
those 65 handbooks we found 28 (43 percent) did not have information
regarding the treaty transfer program.

       BOP Response: The BOP disagreed with our finding and stated
that all inmates receive information about the transfer program through
the Institution Admissions and Orientation (A&O) Program. Therefore,
the absence of information about the transfer program in an A&O
handbook cannot serve as a basis for concluding that inmates have not
been informed about the program. The BOP requested that any
references to the A&O handbook as a basis for concluding that inmates
have not received information on the treaty transfer program be removed
from the report. The BOP further explained that all BOP institutions are
required to provide inmates with the Institution A&O Program within
4 weeks of arrival at their designated institution and that the treaty
transfer program is a mandatory topic that is to be covered during the
Institution A&O Program.


U.S. Department of Justice                                           157
Office of the Inspector General
Evaluation and Inspections Division
       OIG Analysis: We disagree with the BOP’s statement that any
reference to the handbooks should be removed. The BOP claims that the
OIG used BOP handbooks to serve as a basis for concluding that inmates
have not received information or have not been informed about the treaty
transfer program. In fact, the OIG’s conclusion is based on not only its
review of the handbooks, but on interviews with inmates, a review of
documents the BOP provides to inmates when they arrive at an
institution, translation services used by prisons we visited, and foreign
language training provided to BOP case managers. From those
information sources, the OIG concluded on page 18 of the report that:

       the BOP is generally informing inmates about the treaty
       transfer program, but the information is provided in various
       ways and in varying levels of detail, leaving some inmates
       not fully informed about the program. We believe that prison
       handbooks can serve as another means to fully explain the
       treaty transfer program to interested inmates.

For further clarification, the OIG footnoted that, “BOP prisons are not
required to have handbooks. Individual prisons create their own
handbooks, and the contents vary, including whether and what
information is included about the transfer program.” We continue to
believe that our conclusion that inmates should be better informed about
the program is correct based on all the evidence we reviewed.

Finding: Overall, from FY 2005 through FY 2010, foreign national
inmates made 74,733 requests to be considered for transfer, and BOP
case managers determined that 67,455, (90 percent) of those were
ineligible.

       BOP Response: The BOP disagreed with our finding and stated
that it correctly assessed 60,716 (90 percent) inmates were ineligible
during this time period. The BOP went on to state that to determine the
accuracy of the remaining 10 percent, the BOP would have to conduct an
individual assessment of each inmate’s central file.

      OIG Analysis: We disagree with the BOP’s statement that it
correctly assessed that 60,716 (90 percent) inmates were ineligible for
the program. Although the BOP provided the OIG with information it
obtained through a search limited to SENTRY in support of its eligibility
determinations, the OIG was unable to verify the accuracy of this
information without conducting an in-depth case file review. We believe
that the BOP likewise could not have verified the accuracy of the
information it provided. In our analysis, we found that from FY 2005


U.S. Department of Justice                                            158
Office of the Inspector General
Evaluation and Inspections Division
through FY 2010, foreign national inmates made 74,733 requests to be
considered for transfer, and BOP case managers determined that 67,455
(90 percent) of those were ineligible. Our analysis was based on SENTRY
data provided by the BOP. However, as explained on page 24 in the
report, the data provided by the BOP does not demonstrate that case
managers determined eligibility correctly as we found that an inmate’s
eligibility cannot be determined solely through data contained in
SENTRY. While we believe that the majority of the BOP’s determinations
may have been appropriate, a case file review for each inmate would be
required to accurately verify whether ineligible determinations were
appropriate. As explained in the report on pages 24 and 25, when we did
such an in-depth review on a small sample of cases in which the inmates
were determined to be ineligible, we found BOP staff may have made
errors that resulted in incorrect determination in over one third of the
cases. Although we agree that many determinations of ineligibility are
correct, our analysis still shows that improving the BOP’s procedures to
provide for more accurate determinations will reduce erroneous
rejections and increase inmate participation in the program.

Finding: We found that the treaty transfer program statement that BOP
case managers rely on to assess inmates’ transfer eligibility is incomplete
and incorrect. Specifically, (1) the list of treaty nations contained in the
program statement is incomplete; (2) the program statement indicates
that inmates with appeals in progress are always ineligible, which is
incorrect; (3) the program statement does not explain that there are
exceptions to the rule that inmates must have at least 6 months
remaining on their sentences to be eligible.

      BOP Response: The BOP disagreed with the OIG’s statements
about the list of treaty nations and inmates with appeals. First, the BOP
stated that its program statement had been updated as of August 4,
2011, and indicated that the complete list of treaty nations is located on
the BOP’s Intranet. Second, the BOP stated that its position on inmates
with pending appeals being ineligible is correct based on treaty
agreements with the foreign countries. The BOP further stated that the
transfer agreements indicate the inmate’s sentence must be final for the
inmate to be eligible for transfer. Third, while the BOP stipulated that
exceptions do exist to the rule that inmates must have at least 6 months
remaining on their sentences to be eligible and the program statement
does not reference this fact, the BOP stated that it is not cost effective to
process applications for inmates with so little time remaining on their
sentences given the long processing time for transferring countries to
complete their portion of the review process. The BOP provided
additional costs that it would incur to process these inmates and stated


U.S. Department of Justice                                               159
Office of the Inspector General
Evaluation and Inspections Division
that incurring these costs does not guarantee all of these inmates will be
transferred.

       OIG Analysis: The OIG acknowledges in the report on page 33
that the BOP issued a revised program statement on August 4, 2011,
and that the revised program statement states that the list of
participating countries (treaty nations) will be maintained on the
Correctional Programs Division’s Intranet page (Sallyport). Further, the
OIG’s report states on page 33 that the revised program statement will
replace the program statement reviewed during our field work, but we
also state that the revised statement does not address all the weaknesses
we found, including clarifying information on the eligibility of inmates
with pending appeals. Additionally, on page 28 of the report, we
acknowledge that the Council of Europe Convention on the Transfer of
Sentenced Persons, the Inter-American Convention on Serving Criminal
Sentences Abroad, and the Mexican bilateral treaty all state that an
inmate’s sentence must be final for the inmate to be eligible for transfer,
but after discussions with IPTU, the OIG concluded that there are certain
types of appeals that would not make an inmate ineligible for the
program. The BOP’s revised program statement provides clarification
regarding appeals or collateral attacks, but we believe it still lacks
needed information regarding what specific types of appeals make
inmates ineligible for transfer. Finally, we agree that it may not be cost
effective to process inmates with less than 6 months remaining on their
sentences because of the length of time the Department and the
transferring countries take to process applications. However, we believe
that defining those types of exceptional circumstances in which requests
by inmates from Council of Europe treaty nations with less than
6 months to serve may nonetheless merit consideration would facilitate
prompt and economical action by the BOP and IPTU.

Finding: The potential cost savings from educating inmates and
allowing more of them the opportunity to transfer to their home countries
could be significant. As of FY 2010, there were 39,481 inmates from
treaty nations in BOP custody who did not participate in the treaty
transfer program. Not all of those inmates are appropriate transfer
candidates and there are factors outside of the Department’s control that
could limit the potential cost savings, including the fact that the program
is voluntary; treaty nations may not take back their citizens who are
approved by the Department; and most importantly, the restrictions that
prohibit the eligibility and suitability of Mexican inmates. However, if
only 1 percent of the inmates (395) applied and were transferred to serve
their sentences in their home countries, the BOP could potentially save
$10.1 million in annual incarceration costs. Similarly, if 3 percent of the


U.S. Department of Justice                                             160
Office of the Inspector General
Evaluation and Inspections Division
inmates (1,184) or 5 percent (1,974) applied and were transferred to
serve their sentences in their home countries, the BOP could potentially
save $30.4 million and $50.6 million, respectively, in annual
incarceration costs.

      BOP Response: The BOP disagreed with the potential cost savings
the OIG identified. The BOP stated that the OIG’s potential savings are
misleading and speculative because of the use of full costs. Therefore,
the BOP stated that the report should be amended to reflect marginal
costs associated with housing offenders, and computations of potential
cost savings should be done using these marginal costs.

       OIG Analysis: For reasons stated earlier, we disagree with the
BOP’s position that the report should be amended to reflect the marginal
costs, and computations of potential cost savings should be done using
marginal costs. If we had used the marginal cost as the BOP proposed,
the delay costs for the 1,425 inmates actually transferred during the 6-
year period of our review would total $5.4 million instead of the
$15.4 million that we calculated using the total average cost of
incarceration ($25,261). However, we believe $5.4 million is still
substantial. In this report, we provide both figures so that readers can
understand the range of potential savings.

Finding: During our fieldwork, we reviewed a limited sample of 52 of the
67,455 cases in which the BOP determined inmates were ineligible to
apply for treaty transfer. We found potential errors in 19 of the 52 cases
(37 percent) that indicate the cases could have been forwarded to IPTU,
but were not.

       BOP Response: The BOP stated that only 7 (not 19) of the 52
inmates were erroneously identified as ineligible, which translates to an
error rate of 13 percent, not 37 percent. The BOP stated that 13 of the
52 inmates were appropriately identified as ineligible according to BOP
policy because the inmates were serving sentences of 6 months or less.
The BOP also stated that 22 of the 52 inmates were appropriately
identified as ineligible according to the treaty agreement with Mexico
because the inmates were Mexican nationals serving sentences for
immigration violations. Additionally, the BOP stated that 9 of the 52
inmates’ records had incorrect country codes indicating eligibility, while
the inmates were actually from countries that do not have current treaty
agreements with the United States (Jamaica, Cuba, Colombia, and the
Dominican Republic). Finally, the BOP stated that one of the inmates
had indicated no interest in the treaty program.



U.S. Department of Justice                                             161
Office of the Inspector General
Evaluation and Inspections Division
       OIG Analysis: We disagree with the BOP’s calculation that only 7
of the 52 (13 percent) inmates were erroneously identified as ineligible.
Our analysis is based on a sample of inmates who were determined
ineligible by the BOP and the reasons for those determinations,
according to information contained in the BOP’s SENTRY database.
However, after considering the BOP’s response, we re-evaluated our
analysis and determined that 9 of 52 (17 percent) of the BOP’s
determinations were incorrect. Our conclusions are based on the
following determinations.

       We found that based on the data the BOP provided to the OIG, six
inmates who were not from Mexico were determined ineligible because
they had immigration offenses that are disqualifying under the terms of
the U.S.-Mexico bilateral treaty. The BOP acknowledged that in all these
cases the case management staff mistakenly thought the immigration
violation applied to all countries. The BOP’s data and acknowledgement
of the mistake is the basis of our finding the BOP’s determinations
regarding these six inmates was incorrect. In addition, BOP determined
two inmates were ineligible for treaty transfer because they were from
non-treaty nations, specifically the Dominican Republic and Colombia,
when the inmates were actually from Denmark and Canada, which are
treaty nations. We concluded that the BOP’s determinations regarding
these two inmates were also incorrect. Further, the BOP’s data showed
that one case was determined ineligible because of a “keying error,” but
later it was revealed that the inmate was eligible for transfer. This
inmate was also included as an incorrect determination.

       We also considered BOP’s argument that 13 of the 52 inmates were
appropriately identified as ineligible according to BOP policy because the
inmates were serving sentences of 6 months or less. The data the BOP
provided to the OIG indicated 13 inmates were determined to be
ineligible for this reason. Twelve of the inmates were from Council of
Europe Convention treaty nations and one was not. Although we
recognize that it is currently the BOP’s policy not to approve applications
from inmates with less than 6 months to serve, as we explain on pages
25, 26, and 30 of the report that we believe the BOP’s policy is anchored
in a misunderstanding of the Council of Europe Convention, which states
that inmates with less than 6 months to serve may be considered under
exceptional circumstances, such as grave illness of a prisoner or
pregnancy of the prisoner. The BOP’s policy limits case managers from
offering inmates with “exceptional circumstances” the opportunity to
apply to for treaty transfer. The OIG does not believe that all inmates
with 6 months or less remaining on their sentence should be considered,
only those few inmates who can claim exceptional circumstances.


U.S. Department of Justice                                             162
Office of the Inspector General
Evaluation and Inspections Division
However, because we could not determine that the inmates in our sample
faced such exceptional circumstances, we did not conclude that the
BOP’s determinations were incorrect. In response to this report, OEO
stated that it will work with the BOP to provide instruction in the BOP’s
program statement as to the types of situations that may qualify as
exceptional circumstances.

      Additionally, the BOP stated that 22 of the 52 inmates were
appropriately identified as ineligible according to the treaty agreement
with Mexico because the inmates were Mexican nationals serving
sentences for immigration violations. We agree the data provided by the
BOP states that 22 inmates were determined ineligible because they were
serving sentences for immigration violations. We did not question the
BOP’s decisions related to these inmates because the OIG cannot assess
the immigration status of the inmates without a case file review.

      Further, the BOP stated that 9 of the 52 inmates’ records
contained incorrect country codes indicating eligibility. We disagree and
concluded that, according to data provided by the BOP, seven cases
contained input errors in SENTRY that wrongly listed the inmates’
country of citizenship.

       Finally, the BOP stated that one inmate indicated no interest in the
treaty program. We agree that the BOP’s data includes one case that
states “keying error – no interest.” (This is a different case than the
keying error discussed above.) While there may have been an error in
the BOP’s database, such errors occur in both ways (others may be
incorrectly coded as having not expressed interest when in fact they did).
In any case, this inmate in this case was not included in our analysis
that 17 percent of inmates were erroneously identified as ineligible, and
it does not affect our conclusion that many of the BOP’s determinations
of ineligibility were incorrect.

      In sum, our analysis that found 9 of 52 (17 percent) inmates were
erroneously identified as ineligible.

Finding: We believe it is essential that the BOP have the capability to
quickly develop, update, and implement program statements affecting its
ability to fulfill its mission.

       BOP Response: The BOP stated that its Master Agreement with
the union provides the union the right to review and invoke negotiations
of all national policies before they are finalized and implemented.
Therefore, changes to BOP program statements require union review.


U.S. Department of Justice                                             163
Office of the Inspector General
Evaluation and Inspections Division
       OIG Analysis: In its draft report, the OIG acknowledged that if
revisions to BOP program statements are necessary, updated program
statements are provided to the union, which then has 30 days to invoke
its right to negotiate the BOP’s revisions to program statements.

Finding: Appendix III, Program Statement 5140.39 is attached.

      BOP Response: The BOP stated that the most recent program
statement is Program Statement 5140.40, dated August 4, 2011, and
was implemented prior to the completion of the OIG’s review.

      OIG Analysis: In its draft report, the OIG acknowledged that the
BOP issued a revised program statement on August 4, 2011. The OIG
stated that the revised program statement will replace the program
statement, last updated on December 4, 2009, that was reviewed during
the OIG’s field work. The program statement included in the report was
current and in use during the period covered by the OIG review.




U.S. Department of Justice                                          164
Office of the Inspector General
Evaluation and Inspections Division
          APPENDIX XIII: THE CRIMINAL DIVISON RESPONSE 




                                                                 u.s. Dep ~lrtment of Justice
                                                                Criminal Division




                                                                November 9, 20 11


         MEMORANDUM

        TO:             Michae l D. Gulledge
                        Assistant In spector Gencrnl fo r Eva luation and Inspections
                        O nice of the In spec tOr General

         FROM: ~e Paul M, O ' Brien
                q;J Director, Office o r Enforcement Operat ions
                    C rimin a l Division

        SUBJECT:        Response to the Reco mmendations Con ta ined in the Office of the Inspector
                        General Draft Repon Reviewing the Departlllent's Internat ional Prisoner Transfer
                        Progra m, Ass igllmerll Number A-20 10-007

                 We appreci ate the opportunity to provide a response to th e recolllmendati ons and
        findin gs contai ned in the above-referenced Office of the In spector General (O IG) Dralt Report.
        In add ition , we than k the OIG for the cons ideration it has give n Ollr pri or remarks as ev idenced
        by some of the changes made ill the Draft Report . Thi s response will speci fically address
        Recomme ndations 3, 6, 7, 8, 9, II , 13, and 14. In oll r prior submi ss ions of August 18 and
        October 18,20 II , we al so noted fa ctual and technical errors in th e repon.

                  We rcmain co ncerned that the statistics that the OIG ci tes regardin g the pri soner transfer
        approva l rates paint an inacc urate picture of the prisoner trans ler program. For exam pl e, in the
        text of the Executi ve Digest (Dralt Report at ii ), the D IG conc ludes that "slightly less than one
        percent of the 40 ,65 1 foreign nationa l inmates fTom trenly nations in federa l pri sons were
        transferred to their home coun tri es." First, as previOUS ly pointed out to the O IG, thi s statement
        conJlates eligibil ity and suitability detcrminmions. The Bureau o f Pri so ns' (BOP) eligibil ity
        determinatio ns and the Department 's sui tability determinations arc two separate and di stinct
        assessme nts. The two sho uld not be combi ned to arri ve at a numbcr that represent s the number
        of applicant s rej ected for transfer by th e United States. Similarl y, in Footnote 2 (Dmli Report at
        iii), the D IG co ncludes that the In ternati onal Prisoner Transfer Uni t (IPT U) denied 70%, of the
        applications fo rwarded to it by BOP. For the reasons exp ressed in our earlier submi ss ions, the
        O ffic e of Enforcement Operations (O EO) believes that thi s li g ure is incorrect. If calcu lated
        properl y, 59% of the application s forwarded to the IPTU by the BOP were delli ed (rather than
        the 70% slated in the Draft Repo rt), and 4 1% of the applications were approved (rather than the




U.S. Department of Justice                                                                                         165
Office of the Inspector General
Evaluation and Inspections Division
         30% slaled in the Draft Repon).' We respectfully request that the conclusions in FooDlote 2 be
         revised and incorporated into the Executive Digest and into the body of the final repon. The
         Depanment will continue to review its policies in an elTon to increase suitable candidates for
         transfer. The Depanment's challenge is to continue its eITans to transfer suitable candidates to
         serve their sentences in their home countries, consistent with our treaty obligations and ow
         responsibility to ensure public safety.

                  We are also concerned with the conclusion in the Executive Digest thai "'The Department
         incurred $15.4 million in unnecessary incarceration costs from FY 200S through FY 2010
         because of the BOP's and II'TtI's untimely processing ofrcquests for inmates ultimately
         transferred." The OIG states that it used the total aVCfilge incarceration cost per inmate
         transferred ofS25,627. (Draft Report at iii.) However, within the lext of the Draft Report, there
         is a detailed discussion of BOP's position thai the proper cost factor to consider for each inmate
         is $9, 187, which BOP defines as the direct care cost incurred by BOP for the feeding, clothing,
         and provision of medical care for an inmate. The DIG states that using the BOP marginal cost
         factor would result in inCIIl'Ceration costs during the target period ofS5.4 million, which the OIG
         concludes" is still substantial. (Dfaft Report at 67.) We respectfully request this discussion be
                                        H



         incorporated into the Executive Digest, as well as into the body of the final report.

         l.     DIG Recommendations Directed 10 the Criminal Division

                A.      Recommendation 3: "the BOP and IPTU coordinate to ensure that the BOP's
                        program statement accurately reOects eligibility criteria based on treaty
                        requirements and IPTU considerations, and that the BOP provide a revised
                        program statement to its union for review."

                 OED concurs with this recommendation and welcomes the opponuni ty 10 work with
         BOP to ensure that the program statement accurately reflects the eligibility requirements as well
         as the suitabili ty requirements for international prisoner transfer. OEO has begun an in-depth
         review process to detennine what modifications to its suitability guidelines are necessary to
         ensure that its transferdetenninations are unifonn and consistent. Once this process is complete,
         OEO will meet wit h BOP to discuss the modifications to be made to the Program Statement.


                 r On page iii, the DIG Repon stales that IPTU and BOP combined rejected 97% of the
         transfer requests (refening 10 a total number of"requcsts" to transfer by BOP over a five-year
         period). The DIG trealS ''requests'' (expressions of interest by inmates 8t BOP) the same as
         formal p!'isOfler transfer applications sent to IPTU. They are not the same. This tota! number
         does not factor out inmates from countries with no transfer relationship with the United States or
         who have been convicted ofctimes that make them ineligible for transfer. In Footnote 2, the
         repor1 states thai "IPTU only considered 7,278 of the applications forwarded by BOP." In faet,
         the IPTU considered sll applications sent to it by BOP. The DIG's statistical analysis
         mistakenly combines fonnal transfer applications with expressions of interest by inmates who
         mayor may nOl have been eligible and suitable for transfer.

                                                         2




U.S. Department of Justice                                                                                     166
Office of the Inspector General
Evaluation and Inspections Division
                B.      Recommendation 6: "the BOP and IPTU coordinate with each other to update the
                        BOP's program Slatemenlto accurately reflect the process by which inmates can
                        obtain more information from IPTU regarding the reasons for deni al."

                   OEO concurs with this recommendation insofar as it involvcs the updating of the BOP
         Program Statement to reflect a description oftke following: th e OEO decisional process; how
         transfer appl ication decisions -including the reasons for denia l-- are communicated; !he period
         of time that must ela pse before reapplication may be made; the opportunity to request
         reconsideration ora transfer denial iflhere has been a material change in circumstances pertinent
         [0 the reason for denial and evidentiary support is provided to substantiate the change; and the
         abi lity to communicate with the IPTU and othe r involved agencies concerning questions about
         the transfer program. However, for the reasons articulated in its August 18, 20 I I response to th e
         OIG Working Draft Report, OEO re3ptetfully di 308grees that it is noces.sary to invite lIlc prisoncr
         to write to the IPTU 10 explore the reasons his appl ication was denied.

                C.      ResQmlIKodatjon 7: " lPn/ fully implement its plan 10 include in denial letters a
                        description of how inmates can obtain further infonnation regarding the reasons
                        for denials, as well as infonnation on what an inmate can do to become a better
                        candidate for trans fer, ifapplicable."

                  OEO concurs with th is recommendation and has already made two major changes to the
         language in its denia l letters. The first change was to delete the sentence that slales, "[tJhe
         app lication is more likely to be approved in the future if the prisoner has maintained the best
         possible prison recon:! and has attempted to address those reasons for denia l over which the
         prisoner has some control." The second change to the denilll ietter was to add language [0
         inform the prisoner when he may seek reconsideration ofa denial. The new language states, " If
         the prisoner believes that the circumstances relating to the denial of the transfer application have
         changed significantly, the prisoner may wrile to th e Department of Justice to seek a
         reconsideration of the transfer decision earlier than two years from the date of this letter. Unless
         the prisoner is able to show thai the reasons supporting the denial of his transfer application have
         changed substantiall y, it is unlikely that the Un ited States will change its decision." We believe
         that this clearly informs the prisoner of the circumstances under which he may seek
         reconsideration of the decision to deny his transfer.

                D.      Recommendation 8: "IPTU fully implement its plan for a reconsideration process
                        that requires IPTU analysIS 10 follow up on the reasons an inmate's requesl was
                        denied so that inmates whose circumstances change before the two year waiting
                        period may reapp ly."

                 OEO concurs with this recommendation and has already implemented actions 10 achieve­
         these: goals. As described in OEO's August 23, 2011 response, the IPTIJ is now using a
         computerized notification system to ensure that timel y fo llowup CXX:UIS. In addition, OEO has
         developed an Excel spreadsheet to track and monitor these cases. We previously have provided
         documeotation to the OIG showing our implementation of these actions.

                                                          3




U.S. Department of Justice                                                                                      167
Office of the Inspector General
Evaluation and Inspections Division
                E.                            the El(ecuti ve Office for United States Anomeys (EOUSA
                                             update infonnation avai lable to USAOs about the prisoner
                       treaty transfer program through the EOUSA intranel, updates 10 the USAM, or
                       other appropriate means."

                OED concurs with this recommendation and will work closely with EOUSA to provide
         information to United States Attorneys Offices (USAOs) about the prisoner transfer program
         through training, updating infonnation on the intranet, and revisions to the United States
         Attorneys Manual (USAM). As noted in the D IG Draft Report, OEO completed a revision of the
         USAM provisions on prisoner transfer, which is in the EOUSA review and approval process. In
         addition, OEO is updating the informational memo issued by the then-Assistant Attorney
         General oflhe Criminal Division in 2002.

                F.     Recommendatjon I I: the EOUSA wi ll "work: with IPru to develop a strategy for
                       communicating to the Federal Public Defender and the courts information about
                       the availability oflhe program."

                  OED concurs wilh this recommendation. OEO has drafted letters to send to th e Federal
         Public Defender Service and to the United States Probalion Offices thai provide the recipients
         with infonnal;on about the transfer program and encourage them 10 alen eligible foreign national
         prisoners about the program. OEO wi11 work with the EOUSA to detennine how best to make
         the letters available to Federal Public Defender.; and to Fcdernl Probation Officers.

                G.     Recommendatjon 13; IPTU fully implement formal timeliness requirements for
                       evaluating treaty transfer requests and institute a system to trnck IPTU analysts'
                       evaluation ofapplication packets."

                OEO concurs with this recommendation and has fully implemented a formallimelines5
         requirement for evaluating treaty transfer requests and has instituted a system to track IPTU
         analYSIS' e valuation ohppli cati on packets.

                H.     Recommendation 14: IPTU update its information request forms to USAOs and
                       law enforcemenl agencies 10 request II response wilhin 21 days and stale that
                       failure to respond w ill resul t in 1PT1J proceeding with its eva luation under the
                       assumption the agency has no objection to InInsfer.··

                OED concurs with this recommendation and has fully implemented these modifications.
         Copies of revised inquiry letters have been provided to the DIG .




                                                         •




U.S. Department of Justice                                                                                   168
Office of the Inspector General
Evaluation and Inspections Division
         II.    Areas In Which Signirac:anl Disagreement Remains

                A.      The Need to Provide Greater Scnaliny of Transfer Applicants Having Less Than
                        Six Monlhs Remaining on Their Sentences

                  The OIG Draft Report stated that "inmates from Council of Europe treaty nations with
         less than 6 months to serve would benefit from the opportunity for a more in-deplh evaluation of
         their application by lPTU to detennine their suitability for transfer." (Draft Report at 30.) For
         the reasons set forth in its August 18,201 1 response, OEO continues to respectfully disagree
         with this position. Although OEO will be working with BOP to provide instruction in BOP's
         Program Statement as to the types ofsituations that may qualify a5 exceptional circumstances,
         OEO believes that processing transfer applications where the prisoner has less than six mooths
         left to serve on his or senlence is not advisable. All of the transfer treaties require that a certain
         peri od of time, typically six months, remains to be served on the sentence at the time of the
         transfer request is made for the prisoner to be eligible to apply for transfer. This req uirement
         exists to allow a sufficient period of time remaining on the sentenee to enable the prisoner to
         transfer to his native country and to become re-acclimated with its culture, thus funhering one of
         the program's major goals: rehab ilitation. In addition, when six months or less remain on a
         sentence, there will be insufficient time remaining on the sentence for both the sentencing and
         administering countries to complete the transfer process and to efT«:t the transfer. Thus, in all
         likelihood, the prisoner will be re leased before the country is able to escort him or her home.

                B.      The Consistency of IPTU in Delennining the Suitabi lity ofa Prisoner for Transfer

                 The IPTU has instituted changes to improve the consistency of the review process in
         determining the suitability of inmates for lransfer. We have re-reviewed the suitability criteria
         with all auorneys and analysts in the IPTU. The Unit Chiefwill hold regu lar meetings with the
         I?TU staff to routinely review the criteria and to clarify their application. We also have added
         an additional level of review in cases dealing with proposed denials. The Director ofOEO and
         the Deputy Director are the deciding officials on transfer applications. They both review
         applications. However, when the Deputy Director ofOEO recommends den ial of a prisoner
         transfer application, the matter is referred to the Director ofOEO, who wnducts a further review
         of that case.

                c.      The Appropriate Infonnational Content ofLellers informing Prisoners That Their
                        Transfer Applications Have Been Denied

                   It continues to be the OIO's position that "JPTU does not provide enough information in
         denial letters, resu lting in inmates not fully understanding the reasons for denial or what they can
         do to address those reasons." (Draft Report at 43-45.) The OIG recommends that OEO provide
         the inmate with a more detailed explanatioo of its reasons for denying the transfer and
         speci fi cally infonn the inmate in the denial letter that he can write to the IPTU for an additional
         explanation. (Draft Report at 44-45.) For the reasons articulated in its earlier response, OEO
         believes that its current letters adequately and efficiently communicate the reasons for denial.

                                                           ,




U.S. Department of Justice                                                                                        169
Office of the Inspector General
Evaluation and Inspections Division
        Many af the reasons for denial are self-explanatory. including pending appea ls. lack ofiufficient
        ties 10 the receiving country. or having become a domiciliary of the United States. However, the
        reasons for denial combined under the category "scrious law enforcement concerns" cannol be
        revealed 10 the prisoner/trans fer applicanl because 10 do 50 might compromise an ongoing
        investigation, reveal the identity ofa cooperating witness or defendant, or negatively impact
        major law enforcement interests by revealing a sensitive law enforcement technique.

                It is imponanllo DOle that OEO has mnde two major changes to its denial letter 10
        improve the communication of information that is provided 10 inmates. First, it has deleted the
        language advising the prisoner thai his or her application is more likely to be approved ifhe
        attempts "to address ihClse reasons for denial over which [he] has some controL" Instead,OEO
        has added language informing the prisoner that he can seck reconsideration of the denial decision
        ifhe is able to provide support that the reasons underlying the denia l have changed substantially.

                D.      The Savings That Could Be Realized By Increasi ng Ihe Number of Approved
                        Transfer Candidates

                O IG stales in its Draft. Report thai "increasing the avai labi lity oftreDty transfer to eligible
        inmates could producesubstanlial savings." (Draft Report at 68-69.) OEO agrees that
        increasing the number Clfprisoner transfers would resu lt in some COSt savings. However, even if
        IPTU increases the number of prisoners approved for transfer, the cost savi ngs would be
        contingent upon the approval ofthe request by the transfer applicant's receiving counuy. As
        previously discussed, there are a number of prisoners whose transfer applications have bee n
        approved by JP11J, but who have not tfllns ferred because either the receiving country does not
        accept them or because the receiving country delays in processing the transfers.

               Again, we thank the OIG for its consideration and remain available to discuss our
        conclusions with the OIG and to provide documentation in support of our methodology and
        conclusions.




                                                            6




U.S. Department of Justice                                                                                           170
Office of the Inspector General
Evaluation and Inspections Division
     APPENDIX XIV: OIG ANALYIS OF THE CRIMINAL DIVISION 

                         RESPONSE 



      The Office of the Inspector General provided a draft of this report to
the Criminal Division for its comments. The report contained
14 recommendations for consideration. Recommendations 7, 8, 13, and
14 are directed to the Criminal Division. Recommendations 3 and 6 are
directed to both the Federal Bureau of Prisons (BOP) and the Criminal
Division and require a response from both components.
Recommendations 9 and 11 are directed to EOUSA and the Criminal
Division and require a response from both components.

       The Criminal Division’s Office of Enforcement Operations’ (OEO)
provided general comments on the report, its response to the report’s
recommendations, and general comments on areas of the report where it
had significant disagreement with findings. The Criminal Division’s
response is included in Appendix XIII of this report. The OIG’s analyses
of the Criminal Division’s response, as well as the actions necessary to
close recommendations, are discussed below.

GENERAL COMMENTS

       OEO Comment: OEO stated that it was concerned that the
statistics the OIG cites regarding prisoner transfer approval rates paint
an inaccurate picture of the prisoner transfer program. Specifically, OEO
took issue with the OIG’s language that “slightly less than one percent of
the 40,651 foreign national inmates from treaty nations in federal
prisons were transferred to their home countries.” OEO stated that the
OIG’s statement conflates eligibility and suitability determinations and
argues that the BOP’s eligibility determinations and the Department’s
suitability determinations are two separate and distinct assessments.

       OIG Analysis: We believe OEO’s interpretation of this statistic is
incorrect. The OIG recognizes that the two assessments (eligibility and
suitability) are separate and distinguishes each throughout the report.
Specifically, the BOP’s eligibility determinations are discussed in
Chapter I of the report and the Department’s (OEO) suitability
determinations are discussed in Chapter II of the report. The statistic
cited by the OIG is the percentage of the total number of foreign national
inmates from treaty nations in federal prisons who were transferred,
based on data provided by the BOP and OEO’s International Prisoner
Transfer Unit (IPTU), and it is correct that less than 1 percent are
transferred. Specifically, during FY 2010, 305 inmates were transferred


U.S. Department of Justice                                              171
Office of the Inspector General
Evaluation and Inspections Division
to their home countries. These 305 transferred inmates represented less
than 1 percent (0.8 percent) of the 40,651 foreign national offenders from
treaty nations in BOP custody in FY 2010. We recognize that there are
several reasons for the low transfer rate, including that many inmates
are not eligible for transfer or are not interested in transferring. For
example, Mexico, which accounts for most foreign national inmates in
BOP custody, imposes significant restrictions that limit the number of its
citizen inmates that it will accept for transfer. Whether inmates are not
transferred because their requests are rejected (correctly or incorrectly)
for eligibility or suitability reasons – or even because they do not ask to
be transferred – the fact remains that very few foreign inmates from
treaty nations are transferred to their home countries each year.

      OEO Comment: OEO stated that, by its calculation, 59 percent of
the applications forwarded to IPTU by the BOP were denied rather than
the 70 percent stated in the draft report. OEO also stated that 41
percent of the applications were approved rather than the 30 percent
stated in the draft report. OEO requested that the conclusions be
revised and incorporated into the Executive Digest and body of the final
report.

       OIG Analysis: OEO statistics reflect the decisions made in
response to only the last application from each inmate, while the OIG
analysis reflects all decisions made by OEO during our review period,
treating each determination as an individual decision. During the period
the OIG reviewed, there were instances in which IPTU made decisions on
more than one application from the same inmate (that is, an inmate
applied, was denied, and then reapplied and was considered again at a
later date). In these instances, each application was considered,
evaluated, and decided on. A denial letter was issued and in some cases,
the inmate waited 2 or more years to reapply to the program. We believe
that our analysis of the IPTU data, which found that 70 percent of all
applications considered by OEO were denied and 30 percent were
approved, is the most accurate reflection of the outcome of OEO’s
decision process.

      OEO Comment: OEO disagreed with the OIG’s use of the total
average incarceration cost per transferred inmate of $25,627 in
calculating incarceration costs that result from delays in processing
requests from inmates ultimately transferred. However, OEO noted that
in the body of the draft report the OIG also provided a calculation using
the BOP’s marginal cost, which resulted in $5.4 million in delay costs.
OEO requested that the OIG’s calculation using the BOP’s marginal costs
also be incorporated into the Executive Digest of the report.


U.S. Department of Justice                                             172
Office of the Inspector General
Evaluation and Inspections Division
      OIG Analysis: We included both cost figures in the Executive
Digest of the report.

OIG’S ANALYSIS OF OEO’S RESPONSE TO RECOMMENDATIONS

Recommendation 3. The BOP and IPTU coordinate to ensure that
the BOP’s program statement accurately reflects eligibility criteria
based on treaty requirements and IPTU considerations, and that the
BOP provide a revised program statement to its union for review.

       Status. Resolved – open.

      Summary of OEO Response. OEO concurred with this
recommendation and stated that it has begun an in-depth review to
determine what modifications to its suitability guidelines are necessary
to ensure that its transfer determinations are uniform and consistent.
OEO stated that once this process is complete, OEO will meet with the
BOP to discuss modifications to the BOP’s program statement.

       OIG Analysis. The actions planned by OEO are responsive to our
recommendation. By February 29, 2012, please provide the results of
OEO’s review process, as well as: (1) lists of meetings held with the BOP,
(2) copies of the meeting agendas, (3) a list of the attendees at each of the
meetings, and (4) a description of proposed revisions to the BOP’s
program statement or a status of your progress.

Recommendation 6. The BOP and IPTU coordinate with each other
to update the BOP’s program statement to accurately reflect the
process by which inmates can obtain more information from IPTU
regarding the reasons for denial.

       Status. Resolved – open.

       Summary of OEO Response. OEO concurred with this
recommendation to update the BOP’s program statement to reflect a
description of OEO decisional process; how transfer application
decisions, including the reasons for denial, are communicated; the period
of time that must elapse before inmates may reapply; the opportunity to
request reconsideration of a transfer denial if there has been a material
change in circumstances pertinent to the reason for denial and
evidentiary support is provided to substantiate the change; and the
ability to communicate with IPTU and other involved agencies concerning
questions about the transfer program. OEO stated that it is not



U.S. Department of Justice                                               173
Office of the Inspector General
Evaluation and Inspections Division
necessary to invite the prisoner to write to IPTU to explore the reasons
his application was denied.

      OIG Analysis. The actions planned by OEO are responsive to the
intent of our recommendation. OEO’s actions will provide BOP case
managers and inmates more information on IPTU’s process.

       However, we disagree with OEO’s response concerning prisoners
not contacting OEO for more information on denial reasons. The
prisoners we interviewed found the descriptions too sparse to inform
them of exactly why they were denied the opportunity to transfer to their
home countries. The OIG notes that, despite the objection OEO raised
here, in response to Recommendation 7, OEO has made changes to its
denial letters to state how inmates may obtain further information on
denial reasons.

       By February 29, 2012, please provide the OIG with OEO’s
proposed changes to the BOP’s program statement as well as: (1) lists of
meetings held with the BOP, (2) copies of the meeting agendas, (3) a list
of the attendees at each of the meetings, and (4) a description of
proposed revisions to the BOP’s program statement or a status of your
progress.

Recommendation 7. IPTU fully implement its plan to include in
denial letters a description of how inmates can obtain further
information regarding the reasons for denials, as well as information
on what the inmate can do to become a better candidate for
transfer, if applicable.

       Status. Resolved – closed.

       Summary of OEO Response. OEO concurred with this
recommendation and stated that IPTU made two changes to the language
of its denial letters. First, IPTU deleted from denial letters the sentence
that states, “[t]he application is more likely to be approved in the future if
the prisoner has maintained the best possible prison record and has
attempted to address those reasons for denial over which the prisoner
has some control.” Second, IPTU added language to its denial letters
that states,

       if the prisoner believes that the circumstances relating to the
       denial of the transfer application have changed significantly,
       the prisoner may write to the Department of Justice to seek
       a reconsideration of the transfer decision earlier than two


U.S. Department of Justice                                                174
Office of the Inspector General
Evaluation and Inspections Division
       years from the date of this letter. Unless the prisoner is able
       to show that the reasons supporting the denial of his
       transfer application have changed substantially, it is unlikely
       that the United States will change its decision.

OEO provided an example of a revised denial letter that reflected these
changes.

      OIG Analysis: Based on the actions taken by OEO to include in
denial letters a description of how inmates can obtain further
information regarding the reasons for denials and potentially be
reconsidered, this recommendation is closed.

Recommendation 8. IPTU fully implement its plan for a
reconsideration process that requires IPTU analysts to follow up on
the reasons an inmate’s request was denied so that inmates whose
circumstances change before the 2-year waiting period may reapply.

       Status. Resolved – closed.

      Summary of OEO Response. OEO concurred with this
recommendation and implemented a computerized notification system to
ensure that timely follow-up occurs. It also developed a spreadsheet to
track and monitor cases. OEO provided the OIG with copies of both.

      OIG Analysis. Based on the actions taken by OEO to develop a
reconsideration process that requires IPTU analysts to follow up on the
reasons an inmate’s request was denied so that inmates whose
circumstances change before the 2-year waiting period may reapply, this
recommendation is closed.

Recommendation 9. The EOUSA work with IPTU to update
information available to USAOs about the prisoner treaty transfer
program through the EOUSA Intranet, updates to the USAM, or
other appropriate means.

       Status. Resolved – open.

      Summary of OEO Response. OEO concurred with this
recommendation and stated that it had completed a revision of the USAM
provisions, which is in EOUSA’s review and approval process, and
updated the 2002 informational memorandum from the former Criminal
Division’s Assistant Attorney General. OEO also provided copies of
revised USAM provisions to the OIG.


U.S. Department of Justice                                               175
Office of the Inspector General
Evaluation and Inspections Division
      OIG Analysis. OEO’s actions are responsive to our
recommendation. Please provide the OIG with a copy of the final
approved revised USAM provisions, an updated and signed informational
memorandum from the Criminal Division’s Assistant Attorney General,
and verification that this memorandum was provided to EOUSA by
February 29, 2012.

Recommendation 11. The EOUSA will work with IPTU to develop a
strategy for communicating to the Federal Public Defender and the
courts information about the availability of the program.

       Status. Resolved – open.

       Summary of OEO Response. OEO concurred with this
recommendation and has drafted letters to the Federal Public Defenders
Service and to the United States Probation Offices that provide
information about the treaty transfer program and encourage them to
alert eligible foreign national prisoners to the program. OEO also said
that it will work with EOUSA to determine how best to make the letters
available to the recipients.

       OIG Analysis. OEO’s actions are responsive to our
recommendation. Please provide the OIG with copies of the final letters
for the Federal Public Defenders Service and the United States Probation
Offices, as well as a description of IPTU’s role in making the letters
available to the recipients, by February 29, 2012, or a status report of
your progress.

Recommendation 13. IPTU fully implement formal timeliness
requirements for evaluating treaty transfer requests and institute a
system to track IPTU analysts’ evaluation of application packets.

       Status. Resolved – closed.

      Summary of OEO Response. OEO concurred with this
recommendation and provided documentation of the establishment of
formal timeliness standards and of the implementation of a system to
track IPTU analysts’ evaluation of application packets.

      OIG Analysis. OEO provided the OIG with documentation
establishing formal timeliness standards. In addition, OEO provided the
OIG with a screen shot of its system to track IPTU analysts’ evaluation of
application packets pending in IPTU for 90 days or longer, beginning
August 1, 2011. The screen shot included a list of IPTU analysts, the


U.S. Department of Justice                                             176
Office of the Inspector General
Evaluation and Inspections Division
case and name, the number of days pending, and a history of the case,
including reasons for a delay. The screen shot indicated that only two
cases were pending in IPTU for over 90 days. The reason for delay in
each of these two cases was also described in the case history, as well as
steps the IPTU analyst had taken to resolve the delay. Based on the
actions taken by OEO to implement formal timeliness requirements for
evaluating treaty transfer requests and instituting a system to track IPTU
analysts’ evaluation of application packets, this recommendation is
closed.

Recommendation 14. IPTU update its information request forms to
USAOs and law enforcement agencies to request a response within
21 days and state that failure to respond will result in IPTU
proceeding with its evaluation under the assumption the agency has
no objection to transfer.

       Status. Resolved – closed.

      Summary of OEO Response. OEO concurred with this
recommendation and provided copies of revised information requests to
USAOs and many law enforcement agencies, including the Bureau of
Alcohol, Tobacco and Explosives; the Drug Enforcement Administration;
and the Federal Bureau of Investigation. The revised information
requests state, “FAILURE TO RESPOND WITHIN 3 (THREE) WEEKS WILL
BE TREATED AS EITHER TAKING NO POSITION OR HAVING NO
OBJECTION TO THE TRANSFER.”

      OIG Analysis. Based on the actions taken by OEO to update its
information request forms to USAOs and law enforcement agencies to
request a response within 21 days and state that failure to respond will
result in IPTU proceeding with its evaluation under the assumption the
agency has no objection to transfer, this recommendation is closed.

OEO’S COMMENTS ON REPORT FINDINGS

      In addition to addressing the recommendations, OEO provided
information regarding findings in which significant disagreement remains
within the report. In this section, we summarize OEO’s comments and
provide our analysis.

Finding: The need to provide greater scrutiny of transfer applicants
having less than 6 months remaining on their sentences




U.S. Department of Justice                                             177
Office of the Inspector General
Evaluation and Inspections Division
      OEO Response: OEO disagreed with the OIG’s statement that
“inmates from Council of Europe treaty nations with less than 6 months
to serve would benefit from the opportunity for a more in-depth
evaluation of their application by IPTU to determine their suitability for
transfer” and stated that processing these transfer applicants is not
advisable. OEO stated that all transfer treaties require that an inmate
have a certain period of time, typically 6 months, remaining to be served
at the time the transfer request is made. OEO also stated that the
“requirement exists to allow a sufficient period of time remaining on the
sentence to enable the prisoner to transfer to his native country and to
become re-acclimated with its culture, thus furthering one of the
program’s major goals: rehabilitation.” In addition, OEO stated that
there would be insufficient time remaining on the inmate’s sentence for
both the sentencing and administering countries to complete the transfer
process. OEO stated that, in all likelihood, prisoners with less than
6 months to serve would be released before the home countries would be
able to escort them home.

       OIG Analysis: We agree that transfer treaties typically require
that inmates have 6 months remaining to be served at the time the
transfer request is made, and we acknowledge that one of the program’s
major goals is rehabilitation. However, inmates with 6 months or less
remaining on their sentence who are from Council of Europe Convention
treaty nations may be considered for transfer in limited circumstances
because the Council of Europe Convention specifically states that, “in
exceptional cases, Parties may agree to a transfer even if the time to be
served by the sentenced person is less than” 6 months. OEO’s
agreement to work with the BOP and define the types of situations that
may qualify as exceptional circumstances will address the OIG’s concern
and ensure the BOP and IPTU have the direction they need to fully
implement the treaty transfer program.

Finding: The consistency of IPTU in determining the suitability of a
prisoner for transfer

       OEO Response: OEO stated that IPTU has instituted changes to
improve the consistency of the review process in determining the
suitability of inmates for transfer, including re-reviewing the suitability
criteria with all IPTU attorneys and analysts, regular meetings with IPTU
staff to review the criteria and clarify their application, adding an
additional level of review in cases dealing with proposed denials.
Specifically, when the Deputy Director recommends denial of a prisoner
transfer application, the Director of OEO conducts a further review of
that case.


U.S. Department of Justice                                              178
Office of the Inspector General
Evaluation and Inspections Division
       OIG Analysis: OEO did not specify an area of significant
disagreement. Rather, OEO described changes to improve the
consistency of its review process in determining the suitability of inmates
for transfer. The OIG is encouraged by OEO’s efforts to improve the
consistency of determining the suitability of a prisoner for transfer in
response to the findings of this report.

Finding: The appropriate informational content of letters informing
prisoners that their transfer applications have been denied

       OEO Response: OEO disputed the OIG’s statement that the “IPTU
does not provide enough information in denial letters, resulting in
inmates not fully understanding the reasons for denial or what they can
do to address those reasons.” OEO also disagreed there was a need to
provide inmates with more detailed explanations of its reasons for
denying transfers or to inform inmates in the denial letter that they can
write to IPTU for additional explanations. OEO stated that its “current
letters adequately and efficiently communicate the reasons for denial”
and that many of the reasons for denials are self-explanatory. OEO
further stated that the reasons for denial underlying a “serious law
enforcement concerns” designation cannot be revealed to a prisoner for a
number of reasons. OEO also stated that it has made two changes to its
denial letters. First, OEO has deleted the language advising prisoners
that their applications are more likely to be approved if they address
those reasons for denial over which they have some control. Second,
OEO has added language to denial letters informing prisoners that they
can seek reconsideration if they are able to provide support that the
reasons underlying the denial have changed substantially.

      OIG Analysis: The changes OEO has made to its denial letters
have addressed the OIG’s concerns.

Finding: The savings that could be realized by increasing the number of
approved transfer candidates

      OEO Response. OEO agreed that “increasing the number of
prisoner transfers would result in some cost savings.” However, OEO
stated that any savings to be realized from increasing the number of
prisoners approved by IPTU would still be contingent on the foreign
country’s decision to accept the inmates for transfer. OEO further stated
that a number of prisoners are approved for transfer by IPTU that have
not been transferred because either the receiving country does not accept
them or because of delays in processing by the receiving country.



U.S. Department of Justice                                             179
Office of the Inspector General
Evaluation and Inspections Division
      OIG Analysis. The OIG agrees with OEO’s response and described
in the report factors outside of the Department’s control that limit the
number of inmates transferred.




U.S. Department of Justice                                          180
Office of the Inspector General
Evaluation and Inspections Division
   APPENDIX XV: THE EXECUTIVE OFFICE FOR UNITED STATES 

                   ATTORNEYS RESPONSE 





                                                              U.S. Department of Justice

                                                              cxecUliv(' Office for United Slaies Allorneys
                                                              Office ofthe DireCtor


                                                              Main Jllstice Bllilding. Room 1261        (202) 252·/000
                                                              95 0 Pennsylvania Avemle. N. IV.
                                                              Washingtoll, D.C. 20530




       MEMORANDUM

       DATE:

       TO :           Michael D. Gulledge
                      Assi ant Inspector General for Eval uati on and Inspecti ons

                              (jj,
       FROM:           ornl an  vvo~
                      Deputy Director I Counsel to the Director
                      Exec uti ve Office for United States At10rneys

       SUBJECT:       Response to OIG 's Rep0l1 Entitl ed:
                      "The Department of Justice' s Internati onal Prisoner Transfer Prog ram"

               Thi s memo randum is submitted by the Exec uti ve Office for United States Attorneys
       (EOUSA) in response to the draft report by the Office of Inspector General (O IG) entitled
       " Department of Justj ce's International Prisoner Transfer Progra m.'" EOUSA appreciates OIG's
       efforts to pro mote integrity, effi ciency, and effectiveness in the enforcement of federal criminal and
       civil laws. In thi s spirit, EOUSA is work ing with other com ponents to carry out OrG ' s
       recommend at ions to the best of its ability.

                Unl ike most oth er 0 0 1 components, EOUSA and the United States Att orn eys' offi ces
       (USAOs) do not constitute a si ngle hierarchical organi zation with a headq uarters office directing
       policy dec isions and reso urce management. Rather, eac h Un ited States Attorney (USA) is the chief
       law enforcement officer in hi s or her district. Each USA, unl ess servin g in an actin g or interim
       capacity, is appointed by the President and confirmed by the Senate. As a holder of high office, the
       USA is afforded signi fi cant discretion to manage his or her office acco rding to locall y perceived
       priorities and needs, consistent wi th overarching Departmental priorities. The 94 USAOs vary in
       size from 20 employees to over 800 empl oyees. Each office has a unique identity and local "offi ce
       cultures" vary greatly. lt is in this contex t that EOUSA interacts with the USAOs to "[p] rovide
       general executi ve assistance and supervision to the offices of the U.S. Attorneys." 28 C.F.R. § 0.22.




U.S. Department of Justice                                                                                               181
Office of the Inspector General
Evaluation and Inspections Division
                        EOUSA ~hares tht: goals o fthc- O[G in ensuring that the Depanment complies with tremy
              obligllIions and will continue working with other components to satislY the n:eommendalions of this
              repon. As we have discus~cd with your staff. \vc are uncenain whether the plea negotimion process
              is the best means by which to cducme the defendam and court about the benclits of the priso3er
              trall.~fcr process. The repon states nt page 47, that USAOs "including treaty transfl·r
              recommendations. when appropriaw. in plea agreement.~ could inc rease panicipation by making
              inmlltes more aware of and interested in the program." As we noted in our comments to the working
              draft repon. EOUSA docs n01 agree with the suggestion that thi! p1t:a negotiation process is the most
              appropriate means of educating criminal defendants about the program. Typically. in the plea
              negotiation process, the prosecutor and the defendunt come from dHferem positions when
              negotiating <In appropriate resolution o f the criminal Cll.'ie. Defendant's counsd is in a better position
              to info rm and adv ise a defendant about the progrllm. WI: believe that EOUSA can pilly a role in
              achieving the desired result through implementation of the recommendation to develop 8
              communicllti(m strategy to educat . . the court and d('fense coun~l"I aboulthe pmgnl m. We would ask
              thai }'(\u consider including this point in the Exec utiw Dig~st of the report.

              RecommemJa!ions

              EOUSA welcomes th.i s review as an opponunity to make the recommended iOlpmwments in these
              areru;. EOUSA will endeavor to implement both of the repo n' s recommendatio ns ttl the best of ils
              abili ty:

                       To ellSllre II USAs are knowledgeable abOl/lllm trealy l/'allsj!'r program alld al'e aware oflhc
              oplioll 10 inelude lanSllage ill a "lea agreemclJI regarding the USAO's treaty trlms(er
              recQIIJIJumdmi(J!/, we recolllmrlJd Ihm £OU'}A :

                      9     Work wilh IP'f'U to updale iJiformO/iQIJ tn'ailable 10 USA Os abow the
                            pris(Jner treaty t/'{m.,fer program Ihrrmg/J tllr: EOUSII inlr(lllet. IIpdolr!.,· Iv
                            tht! USAA.f, or at/wI' apprOpriate me(IIJ$.

                        EOUS A concurs in this recommendation and is already reviewing doc uml'nts received frMl
              the II'TU proposing changes to thl' US. Attomcys' Mallll!ll. EOUSA has reviewed the matcriuls and
              believes that, whether through the USAM or the EO USA i1llrnnet or some other means, relevant ant!
              hl.'lpful infomllltion will be communicated tothe US AQs within 120 d<lYs. (We anticipate tltlll the
              Attorney General's Advisory Commillcr: would be ahlc \0 review the i S~ lIe of revising the US AM lit
              their December 2011 meeting).

                      10.   PrOt'ide USA Os wiJh .ramp/!' pica agrl't'/lJrnt langllage whkh rxp/ain.f Ihal
                            /11<' USAO {'(In agr i!e 10 reco/IJlllend or nOt oppose (J Immjer reqU(!SI w hile
                            also making dear Ihal/he delermilla/iOIl reSIS wilh IPTU and Ihe USAO
                            cO/lcess ioll in the plea agf('ell1/ml does /WI bbulll'ru.

                     EOUSA concurs in this recommendation und is already in the pm<.:ess of revi<:wing sum pl.:
              language proposed by IPT U. EOUSA anticipates cOlllmunicntingsample pica language to the
              USAOs wi thin the same communication discussed in Recommendation #9.

                                                                      2




U.S. Department of Justice                                                                                         182
Office of the Inspector General
Evaluation and Inspections Division
                Tn f'I"Oll;de llll(llher me(JIIS by which de/em/anls are h!/rJrmed ,1 llie oppor/uni(v /0 'l{Jply (nt'
       /real)' Iransfor, we recommend 1/10/ EOUSA ,

               11_ Work wilh fPTU Id dewlop Q stflltegy!orcolmlwnicClting II} Ihe Federal
                   PI/bile Defender alUllhe COllrts injiJrmll!i(lH abow Ihe avai/ahiliry Q/ Ihe
                   plYlgrom,

               EOUSA concurs in Ihis recommendation and hru; already discussed             (I   proPQsed
       communications strategy with lPTU and         ~nticipales   execuiing such sirategy m the same time as the
       communication discussed in Recommendation #9.




                                                               3




U.S. Department of Justice                                                                                               183
Office of the Inspector General
Evaluation and Inspections Division
  APPENDIX XVI: OIG ANALYIS OF THE EXECUTIVE OFFICE FOR 

           UNITED STATES ATTORNEYS RESPONSE 



      The Office of the Inspector General provided a draft of this report to
the Executive Office for United States Attorneys (EOUSA) for its
comments. The report contained 14 recommendations for consideration.
Recommendation 10 is directed to EOUSA. Recommendations 9 and 11
are directed to EOUSA and the Criminal Division and require a response
from both components.

      EOUSA provided a general comment as well as responses to our
recommendations. EOUSA’s response to the recommendations is
included in Appendix XV of this report. The OIG’s analysis of the
EOUSA’s general comment and responses, as well as the actions
necessary to close the recommendations, are discussed below.

GENERAL COMMENT

       Summary of the EOUSA Response. EOUSA stated that it is
uncertain whether the plea negotiation process is the best means by
which to educate the defendant and court about the benefits of the
prisoner transfer process. According to EOUSA, the defendant’s counsel
is in a better position to inform and advise a defendant about the treaty
transfer program. EOUSA stated it can play a role in achieving the
desired result through implementation of Recommendation 11, described
below, to develop a communication strategy to educate the court and
defense counsel about the program.

      OIG Analysis. While the OIG believes that that the plea
negotiation process is a potential means of educating criminal
defendants about the treaty transfer program, we agree with EOUSA that
the defendant’s counsel may be in a better position to inform and advise
a defendant about the treaty transfer program, provided that the
defendant’s counsel is knowledgeable about the program. EOUSA’s
concurrence and planned action in response to Recommendation 11 will
help to ensure that the defendants’ counsels are knowledgeable about
the program.




U.S. Department of Justice                                              184
Office of the Inspector General
Evaluation and Inspections Division
Recommendation 9. Work with IPTU to update information
available to USAOs about the prisoner treaty transfer program
through the EOUSA Intranet, updates to the USAM, or other
appropriate means.

       Status. Resolved – open.

      Summary of EOUSA Response. EOUSA concurred with this
recommendation and stated that it had reviewed documents received
from IPTU proposing changes to the U.S. Attorney’s Manual. EOUSA
stated that relevant prisoner treaty transfer information will be
communicated to USAOs through the USAM, EOUSA’s Intranet, or some
other means within 120 days. EOUSA stated that the Attorney General’s
Advisory Committee would be able to review the issue of revising the
USAM at its December 2011 meeting, which would allow EOUSA to
complete its response within 120 days.

      OIG Analysis. The actions planned by EOUSA are responsive to
our recommendation. By February 29, 2012, please provide the OIG
with copies of the approved changes made to the USAM and any
information that is provided to USAOs referencing the prisoner treaty
transfer program, whether on EOUSA’s Intranet or by other means.

Recommendation 10. Provide USAOs with sample plea agreement
language which explains that the USAO can agree to recommend or
not oppose a transfer request while also making clear that the
determination rests with IPTU and the USAO concession in the plea
agreement does not bind IPTU.

       Status. Resolved – open.

      Summary of EOUSA response. EOUSA concurred with this
recommendation and stated that it is in the process of reviewing sample
plea agreement language proposed by IPTU. EOUSA anticipates
communicating sample plea agreement language to the USAOs within
120 days.

      OIG Analysis. The actions planned by EOUSA are responsive to
our recommendation. By February 29, 2012, please provide the OIG
with a copy of the plea agreement language that will be provided to
USAOs.




U.S. Department of Justice                                          185
Office of the Inspector General
Evaluation and Inspections Division
Recommendation 11. Work with IPTU to develop a strategy for
communication to the Federal Public Defender and the courts
information about the availability of the program.

       Status. Resolved – open.

      Summary of EOUSA response. EOUSA concurred with this
recommendation and stated that it is currently discussing a
communication strategy with IPTU. EOUSA stated that it anticipated
executing a communication strategy within 120 days.

      OIG Analysis. The actions planned by EOUSA are responsive to
our recommendation. By February 29, 2012, please provide the OIG
with a copy of the communications strategy that EOUSA plans to
implement.




U.S. Department of Justice                                           186
Office of the Inspector General
Evaluation and Inspections Division
